        REDACTED FOR PUBLIC RELEASE




   THE EXTERNAL EFFECTS OF THE
FEDERAL BUREAU OF INVESTIGATION’S
    REPRIORITIZATION EFFORTS

         U.S. Department of Justice
       Office of the Inspector General
                Audit Division

            Audit Report 05-37
             September 2005




        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


    THE EXTERNAL EFFECTS OF THE FEDERAL BUREAU OF
      INVESTIGATION’S REPRIORITIZATION EFFORTS

                             EXECUTIVE SUMMARY*
       For more than three years, the Federal Bureau of Investigation (FBI)
has been undergoing a broad transformation aimed at focusing the agency on
terrorism and intelligence-related matters. In May 2002, in the aftermath of
the September 11, 2001, terrorist attacks (9/11), the FBI established
counterterrorism and counterintelligence as its top two investigative
priorities. At the same time, the FBI Director formally transferred more than
500 agents from traditional criminal areas to terrorism-related programs. 1
These changes were designed to transform the FBI into a more proactive,
intelligence-driven agency dedicated to preventing acts of terrorism against
the United States and its citizens.

       The Office of the Inspector General (OIG) previously reviewed the FBI’s
reprioritization efforts, focusing on the internal operational changes that
occurred within the FBI between fiscal years (FYs) 2000 and 2003. In that
audit we identified the specific types of offenses that the FBI was no longer
investigating at pre-9/11 levels. 2 We found that the FBI’s investigative
efforts in FY 2003 were generally consistent with its post-9/11 priorities and
that the FBI was performing less work in certain traditional criminal
investigative areas and more work in matters related to terrorism.

      We performed the current OIG audit as a follow-on to our previous
work. In this review, we examined the traditional criminal areas in which
the FBI had reduced its investigative efforts and attempted to identify the
impact those changes have had on the operations of other law enforcement
organizations at the federal, state, and local levels. To accomplish this
objective, we analyzed FBI data and documentation from FYs 2000 through
2004 to identify the specific changes in the FBI’s investigative efforts related
to traditional crime areas. We also reviewed case management data from

        * The full version of this report includes a limited amount of information that the
Federal Bureau of Investigation (FBI), Drug Enforcement Administration (DEA), and
Executive Office for United States Attorneys (EOUSA) considered to be law enforcement
sensitive and therefore could not be publicly released. To create this public version of the
report, the OIG redacted (deleted) the portions of the full report that were considered
sensitive by the FBI, DEA, and EOUSA; and we indicated where those redactions were made.
       1
         Traditional crime matters include narcotics trafficking, organized crime, violent
crime, white-collar crime, and civil rights.
       2
         Department of Justice, Office of the Inspector General. Audit Report Number 04-39,
The Internal Effects of the FBI’s Reprioritization, September 2004.


                        REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE

the Executive Office for United States Attorneys, which showed changes in
the number of criminal matters that the FBI had referred to United States
Attorneys’ Offices (USAO) during our review period.

       We interviewed headquarters-level officials at the FBI and other federal
law enforcement entities, such as the Bureau of Alcohol, Tobacco, Firearms
and Explosives (ATF); the Department of Homeland Security’s Bureau of
Immigration and Customs Enforcement (ICE); the Drug Enforcement
Administration (DEA); the Executive Office of the President’s High Intensity
Drug Trafficking Area (HIDTA) program; and the United States Marshals
Service (USMS) to determine the impact of the FBI’s changed investigative
priorities. Further, to obtain the views of state and local law enforcement
officials, we disseminated a web-based survey to approximately 3,500 state
and local law enforcement agencies located in the jurisdictional areas of the
following 12 FBI field offices: Atlanta, Georgia; Chicago, Illinois; Dallas,
Texas; Denver, Colorado; Detroit, Michigan; Los Angeles, California; Miami,
Florida; New Orleans, Louisiana; New York City, New York; Phoenix, Arizona;
San Francisco, California; and Washington, D.C. We then conducted
interviews with field-level federal, state, and local officials within seven of
these FBI field office jurisdictions. 3 The following sections summarize the
results of the OIG’s review.

FBI Criminal Resources

      By analyzing the FBI’s field agent allocations (planned resource usage)
and field agent utilization (actual use of resources), we first identified the
specific changes that had taken place in FBI resource usage between
FYs 2000 and 2004. We determined that, through its reprioritization efforts,
the FBI had formally reallocated 1,143 field agent positions away from
investigating drugs, violent crime, white-collar crime, and other traditional
crime and primarily placed these resources in terrorism-related programs.
Further, our review of agent utilization data revealed that the FBI had
reduced the actual investigative work of field agents related to traditional
crimes by more than 1,200 personnel, which is in addition to the formal
reallocation of 1,143 field agent positions. According to senior FBI officials,
these additional agents were diverted from criminal investigative areas to
terrorism-related matters as needs arose.




       3
        For our interviews with state and local officials, we spoke with the major police
department located in each city we visited. In addition, we judgmentally selected police
departments based on responses to the OIG survey, choosing agencies that indicated they
had been either negatively or positively affected by the FBI’s reprioritization.

                                  - ii -
                       REDACTED FOR PUBLIC RELEASE
                           REDACTED FOR PUBLIC RELEASE

Allocation of Field Agent Personnel

      A major element of the FBI’s reprioritization efforts has been to
reallocate FBI personnel resources and transfer agents from traditional
criminal investigative areas to terrorism-related issues. The following charts
provide a FY 2000 to FY 2004 comparison of the allocation of the FBI’s non-
supervisory field agent workforce, according to the type of investigative
matter to which they were assigned.

                      COMPARISON OF FBI FIELD AGENT ALLOCATIONS
                  IN TERRORISM AND CRIMINAL INVESTIGATIVE MATTERS
                             FISCAL YEARS 2000 AND 2004 4
                    FISCAL YEAR 2000                               FISCAL YEAR 2004




           Source: OIG analysis of FBI Resource Management and Allocation (RMA) Office data


      In FY 2000 the FBI allocated 75 percent of its field agent workforce to
criminal investigative areas, predominantly organized crime, drugs, violent
crime, and white-collar crime. By FY 2004, the proportion of FBI field agents
involved in criminal-related matters declined to 65 percent.

       These percentages reflect the FBI’s allocation of fewer field agent
positions to criminal areas in FY 2004 compared to FY 2000. The following
graph depicts the changes in allocations between FYs 2000 and 2004 within
traditional criminal program areas.




       4
          We categorized FBI activities as terrorism-related or criminal-related based on the
program in which the work was captured. We considered terrorism-related work to be
captured in the National Foreign Intelligence, Domestic Terrorism, and National
Infrastructure Protection/Computer Intrusion programs. We considered criminal-related
work to be captured in the Civil Rights, Criminal Enterprise Investigations, Cyber Crime,
Organized Crime/Drug, Violent Crime/Major Offenders, and White-Collar Crime programs.

                                      - iii -
                           REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE

              TRADITIONAL CRIME ALLOCATIONS OF FBI FIELD AGENTS
                         FISCAL YEARS 2000 AND 2004




                Source: OIG analysis of FBI RMA Office data


      As shown above, the majority of this reduction occurred in the
resources allotted for drug investigations. In total, the FBI allocated
1,143 fewer agents to these traditional criminal areas in FY 2004 compared
to FY 2000.

Utilization of Field Agent Personnel

       In addition to the reallocation of positions, we found that the actual
reduction in the number of agents investigating criminal matters was
significantly greater than the FBI planned. 5 During FY 2004, the FBI
allocated a total of 5,753 agent resources to traditional crime matters;
however, only 4,474 field agents were actually utilized in these areas, a
difference of 1,279 agents.

       According to FBI officials, FBI field offices were directed to ensure that
no terrorism-related matter went unaddressed, which primarily contributed
to the significant gap in the utilization and allocation figures. As a result, the
total number of agents actually investigating traditional crime matters was
2,190 less during FY 2004 than during FY 2000. Overall, the FBI had
6,664 agents involved in traditional crime areas in FY 2000, while
4,474 agents investigated such matters in FY 2004.

      Further analyses revealed that each of the FBI’s current criminal
investigative programs experienced agent utilization reductions during this
4-year period, as shown in the following graph. Significant decreases

       5
           Resource allocations reflect the FBI’s planned resource usage, while resource
utilization indicates the actual time that FBI field agents spent performing their duties.

                                     - iv -
                          REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE

occurred in Americas Criminal Enterprises (45 percent), which is responsible
for investigating narcotics trafficking, gang-related crime, and major theft,
and Transnational Criminal Enterprises (35 percent), which includes the
FBI’s organized crime investigative efforts.

        FBI FIELD AGENT UTILIZATION IN SPECIFIC CRIMINAL AREAS
                      FISCAL YEARS 2000 AND 2004 6




                 Source: OIG analysis of FBI Time Utilization and Recordkeeping data


FBI Criminal Casework

      For additional insight into the impact of the FBI’s reprioritization efforts,
we analyzed data on changes in the number of FBI cases opened. We found
that the FBI opened 28,331 fewer criminal cases in FY 2004 than it had in
FY 2000, a 45-percent reduction. During FY 2000, the FBI initiated
62,782 criminal investigations, while in FY 2004 the number of investigations
declined to 34,451. Within the Criminal Investigative Division, each criminal
program experienced a reduction in case openings during our review period,
as depicted in the following graph. Notably, the Americas Criminal
Enterprises Program initiated over 50 percent fewer cases in FY 2004 than in
FY 2000. Additionally, significant decreases in case initiations occurred in
Financial Crimes (40 percent) and Violent Crimes (47 percent).



       6
          During FY 2004, the FBI restructured its Criminal Investigative Division in an effort to
better reflect current trends in criminal activity. Included in this restructuring was the creation
of new programs, such as the Americas Criminal Enterprises. We adjusted the data to reflect
this current program arrangement for both FYs 2000 and 2004.

                                    -v-
                         REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


              FBI CASE OPENINGS IN SPECIFIC CRIMINAL AREAS
                        FISCAL YEARS 2000 AND 2004




           Source: OIG analysis of FBI Automated Case Support data


       Aside from the decrease in the number of case openings, we also
observed a reduction in the number of case serials associated with certain
traditional crime matters in FY 2004 as compared to FY 2000. 7 The following
graph illustrates a general decrease in case serials in four traditional crime
areas.

       FBI CASE SERIALS FOR SELECT TRADITIONAL CRIME MATTERS
                     FISCAL YEARS 2000 AND 2004




                 Source: OIG analysis of FBI case serials

       7
          FBI agents submit documents reflecting work on a case to the appropriate case
file. Each document entry receives a serial, or tracking, number and is known as a “serial.”

                                   - vi -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


      In addition to the results of our FBI casework analysis, we found that
the FBI reduced the number of criminal-related matters referred to the
USAOs by 6,151, or 27 percent, between FYs 2000 and 2004. 8 As the
following exhibit shows, the FBI referred 22,876 criminal-related matters to
the USAOs during FY 2000; this figure declined to 16,725 criminal matters in
FY 2004.

               FBI CRIMINAL MATTERS REFERRED TO THE USAOs
                        FISCAL YEARS 2000 AND 2004




                       Source: OIG analysis of United States Attorney case data

Impact of Shift in FBI Criminal Investigative Effort

      We examined the effect of the FBI’s shift in resources and case openings
on the operations of other law enforcement agencies. To assess these
impacts, we interviewed FBI and other federal law enforcement officials. We
also surveyed and interviewed many state and local officials. The following
sections provide an overview of the results of our interviews and survey.

FBI Field Office Perspective

       Several FBI field division officials commented that the significant
resource reductions in traditional crime areas have considerably affected
their investigative efforts. For example, prior to 9/11 one of the FBI’s
56 field offices had at least 9 drug squads. By the time of our fieldwork in
April 2005, the number of drug squads in that field office had been reduced
to three. Similarly, another FBI field office had at least four drug squads
before the FBI’s reprioritization, but is currently operating with two.
According to FBI field managers, the reduction in the number of drug squads
resulted in a reduction in the number of drug-related investigations.
       8
          The figures presented for criminal-related matters include all non-terrorism related
referrals to the USAOs. For purposes of this report, we considered the matters referred to
the USAOs that are categorized as Internal Security Offenses to be terrorism-related.

                                   - vii -
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


       Reductions in the number of FBI squads were not limited to drug-related
matters, but also occurred within the areas of violent crime and white-collar
crime. For example, one FBI field office had three individual squads
responsible for bank robberies, fugitives, and truck hijacking/cargo theft
which, after 9/11, were combined into one squad with a resource level
equivalent to only one of the original squads. Additionally, another FBI field
office had operated with at least four white-collar crime squads prior to 9/11,
but at the time of our fieldwork in March 2005 the office had two such squads.

       Some FBI officials we interviewed stated that the FBI’s more limited
presence in violent crime and white-collar crime had impaired the law
enforcement community’s efforts to address these crime areas, particularly
financial institution fraud and bank robberies. They added that state and
local law enforcement agencies generally do not have the necessary
resources or jurisdictional authority to effectively address many of these
violations, and they commented that no other law enforcement agency has
been able to compensate entirely for the FBI’s reduced efforts in these areas.

Other Federal Law Enforcement Perspectives

       We obtained mixed perspectives from the non-FBI federal agency
officials we interviewed regarding the FBI’s reprioritization. At the
headquarters-level, while some agency officials stated that they had not
observed significant changes in the FBI’s traditional criminal operations,
other agency representatives said they noticed a reduction in FBI
investigative effort in traditional crime matters.

       At the field-level, many non-FBI federal officials we interviewed said
they had observed changes in the FBI’s investigative efforts of criminal
matters. They commented that the FBI focused much of its attention on
terrorism-related matters while pulling back in traditional areas such as
drugs and fugitive apprehensions. Despite the FBI’s reduced investigative
effort in these traditional crime areas, most non-FBI federal managers in the
field said they did not believe their agencies’ operations had been
significantly affected, aside from an increase in their caseloads. However,
these other non-FBI federal law enforcement officials raised concerns about
their resource levels and commented that it will become increasingly difficult
for their agencies to assume a greater role investigating traditional crime
areas without increased resources.

       In addition to the feedback obtained from non-FBI federal investigative
officials, representatives from various USAOs said they noted a significant
decline in the number of FBI cases brought to them for prosecution. These
federal prosecutors also commented that they believed the FBI’s shift in

                               - viii -
                    REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE

priorities had created investigative gaps in certain crime areas, such as
financial crimes.

State and Local Law Enforcement Perspectives

       The overall response to our web-based survey of state and local law
enforcement agencies located within 12 different FBI field office jurisdictions
indicated that state and local law enforcement operations were affected only
minimally by the FBI’s reprioritization. Our survey contained several
questions inquiring as to whether the responding agency’s investigative
efforts had been affected by the FBI’s reprioritization in various criminal
areas, such as drug-related crime and white-collar crime. Participants were
provided a scaled response to select not only the type of impact but also the
magnitude of that impact. 9 The following graph illustrates the perceived
impact of respondents for traditional crime matters. 10

            SURVEY RESULTS OF THE IMPACT ON STATE AND LOCAL
      LAW ENFORCEMENT AGENCIES’ TRADITIONAL CRIME INVESTIGATIONS




              Source: OIG analysis of survey responses

       9
          Participants were provided a scaled response to select whether the impact was positive
or negative, and the magnitude of such impact. A negative impact was defined as an agency
being impaired by the FBI’s shift in priorities, such as if the agency experienced severe difficulty
in handling the type of investigation listed. A positive impact was defined as an agency
benefiting from the FBI’s reprioritization, such as if the agency significantly enhanced its
operations to successfully address the investigative area in question.
       10
          We distributed our survey to 3,514 agencies, and 1,265 agencies submitted a
response. However, not every agency answered each question and in some instances agencies
submitted multiple responses. Detailed information on the survey instrument, recipients,
respondents, and responses can be found in Appendices I, VIII, IX, and X of this report.

                                     - ix -
                          REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


      As shown in this graph, only a small percentage of the state and local
respondents indicated that their operations had been impaired by the FBI’s
reprioritization. However, in the white-collar crime area, more agencies said
they were negatively affected (9 percent of respondents) than in other crime
areas (5 to 6 percent of respondents).

       In addition to questions related to these general traditional crime areas,
our survey included questions related to specific types of violations, such as
bank robberies and gang-related activity. Although the answers to these
questions mirrored the results of the overall investigative areas – a majority
of respondents said their operations were only minimally affected by the FBI’s
shift in priorities – we did identify some matters, such as bank robberies and
financial institution fraud, in which respondents indicated a greater negative
impact caused by the FBI’s reprioritization.

      To follow-up on our survey, we interviewed state and local law
enforcement officials in 7 of the 12 geographic areas to which the survey
was disseminated. In these interviews, the officials described the impact
that the FBI’s shift in investigative priorities had on state and local
operations. These discussions were more detailed than the survey results
indicated, and many officials discussed specific concerns they had with the
FBI’s post-9/11 shift in investigative priorities.

       In general, state and local law enforcement officials commented that
their caseloads have increased following the FBI’s reprioritization. Officials
at several of these agencies expressed concern that they do not have
adequate resources to address this increased volume. Moreover, some of
these officials stated that the complex and far-reaching crimes that the FBI
had been handling often exceeded their departments’ resource levels,
expertise, and jurisdictional authority.

      During our discussions with state and local law enforcement
representatives, we also asked for information on specific crime areas in which
they had noticed an impact following the FBI’s reprioritization. According to
these officials, the primary area that their agencies were not able to
adequately address alone was financial crimes, especially matters related to
financial institution fraud. To a lesser extent, several local law enforcement
agencies observed reduced involvement by the FBI in the investigation of
gangs and bank robberies, which some local officials stated had caused a gap
that the local agencies have been unable to completely fill.




                                -x-
                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

Specific Crime Areas Affected by the FBI Reprioritization

       Through our discussions with FBI and non-FBI law enforcement
officials, we identified and focused on several specific crime areas that these
individuals said were negatively affected by the FBI’s reprioritization efforts.
In addition, our discussions with the FBI and other federal law enforcement
agencies revealed areas such as identity theft and fugitive apprehension in
which it appears that the federal government’s response should be
addressed in a more coordinated manner.

Financial Crimes

       Our data analyses and fieldwork revealed that the FBI had significantly
reduced its investigations of financial institution fraud (FIF), especially less
significant, low-dollar incidents. Between FYs 2000 and 2004, the FBI
reduced the number of agents addressing FIF matters under $100,000 from
111 agents to 20. Based on our interviews and data analysis, we concluded
that this decreased effort created an investigative gap that no other law
enforcement agency had substantially filled. Several local law enforcement
officials stated that many of these crimes were going unaddressed as a
result of the FBI’s reduced presence in this area. Similarly, discussions with
USAO representatives and analysis of USAO criminal data showed that
generally no other law enforcement agency had assumed a greater
investigative role on FIF matters to compensate for the FBI’s reduced effort
in this area.

      To a lesser extent, our data analysis and interviews revealed that a
gap existed within the law enforcement community related to telemarketing
and wire fraud. Comparing FY 2004 to FY 2000, the FBI used fewer agents
to address telemarketing and wire fraud, opened fewer such cases, and
referred fewer telemarketing fraud matters to the USAOs. According to FBI
and local law enforcement officials, other law enforcement agencies were
unable to assume a greater investigative role in these areas because they
lacked sufficient resources, technical capability, and jurisdictional authority.

      In addition, according to FBI data, the FBI experienced reductions in
both its overall agent utilization and case openings between FYs 2000 and
2004 on health care fraud investigations, even though it is the FBI’s second
highest national priority for financial crimes. Our analysis of USAO data
showed similar results – the FBI referred fewer health care fraud matters to
the USAOs in FY 2004 than in FY 2000. Other federal agencies increased the
number of such matters referred to the USAOs, but not nearly to the extent
of the FBI’s reduction. At our exit conference, the FBI provided evidence


                                - xi -
                     REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

that its efforts related to health care fraud had increased in FY 2005
compared to FY 2004.

      Corporate fraud is the FBI’s top financial crime priority nationally. In
accordance with this ranking, the FBI utilized more agents on corporate
fraud investigations and referred more corporate fraud matters to the USAOs
in FY 2004 than in FY 2000.

Criminal Enterprises

      In this section, we assess the FBI’s investigative efforts with regard to
criminal enterprises, which include drug trafficking, gangs, and organized
crime. The FBI’s greatest reduction in agent resources between FYs 2000
and 2004 occurred in its drug-related investigations, resulting in fewer drug
cases being opened and a decreased overall effort in investigating drug
crime. According to the FBI, it has focused its limited resources on
dismantling major drug trafficking criminal enterprises rather than on low-
level narcotics trafficking investigations. The DEA field managers we
interviewed stated that their drug-related efforts had not been negatively
affected by the FBI’s reprioritization in the large metropolitan areas, but
some of these officials were concerned that an investigative gap existed in
smaller urban areas in which prior to 9/11 the FBI was the predominant
federal agency addressing drug crime. Many of the state and local law
enforcement officials we interviewed noted that their drug-related operations
had not been adversely affected by the FBI’s change in priorities.

       Our analysis of USAO data revealed that the FBI had submitted almost
1,600 fewer drug-related criminal matters to the USAOs in FY 2004 than it
had in FY 2000. Other federal law enforcement agencies, particularly the
DEA and ATF, increased the number of drug trafficking matters that they
referred to the USAOs between FYs 2000 and 2004. However, these
increases did not fully compensate for the overall decrease in drug-related
matters referred to the USAOs. The following table details the drug
trafficking matters received by the USAOs in FYs 2000 and 2004.

        OVERALL DRUG-RELATED MATTERS RECEIVED BY THE USAOs
                    FISCAL YEARS 2000 AND 2004
                                             Number    Percent
                          FY 2000   FY 2004
                                              Change   Change
   All Agencies            20,331   18,368    -1,963    -10%
   FBI                                 3,292         1,699          -1,593         -48%
   DEA                                10,053        10,296            243            2%
   ICE                                 5,683         4,834           -849          -15%
   ATF                                   464           779            315           68%
   Source: OIG analysis of United States Attorneys’ central case management system data


                                   - xii -
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

       Similar to the FBI’s reduced investigative effort in drug-related crime,
the FBI experienced a reduction in its organized crime effort between
FYs 2000 and 2004. We found that the FBI utilized 35 percent fewer agents
on organized crime matters, resulting in fewer organized crime case
openings and referrals to the USAOs since FY 2000. Several USAO officials
that we interviewed commented that the FBI’s reduced organized crime
effort had a negative effect in their jurisdictions.

       In contrast to the FBI’s decreased emphasis on drug crimes and
organized crime, the FBI has increased its investigation of gangs over the
past few years. Data revealed that the FBI essentially maintained the same
level of agents investigating gang-related matters in FY 2004 than it had in
FY 2000. Moreover, the FBI initiated more cases on gang matters during
FY 2004 than during FY 2000.

      However, our fieldwork revealed that the law enforcement community
in many metropolitan areas believed they lacked useful communication
regarding gang-related activity and investigations. Despite the number of
agencies addressing these matters, we were told that the FBI, the ATF, local
police and sheriff’s departments, and other agencies in several large cities
did not adequately coordinate gang-related efforts. For example, we were
told of instances in which multiple agencies in a city targeted the same gang
without knowing about the other agencies’ efforts. We believe the FBI
should seek a more coordinated approach with other members of the law
enforcement community to successfully combat gangs.

Fugitive Apprehension

        Our analysis and review of FBI data showed that the FBI has reduced
its efforts in fugitive-related investigations since FY 2000. In line with our
analysis, USMS officials at several of the district offices we visited remarked
that they had noticed a lessened effort by the FBI in fugitive-related
matters, although they said this change had not affected their ability to
address an increased caseload. Moreover, the majority of state and local
law enforcement agency representatives we interviewed did not indicate that
their work had been negatively affected by any changes in the FBI’s efforts
with respect to fugitive-related matters. However, during our discussions
with executives at the FBI and the USMS about fugitive operations, we found
that the relationship between the agencies was strained and that there was
little agreement about the types of cases each agency would work in order
to avoid duplication of effort.




                                - xiii -
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

Bank Robberies

      Another area in which the FBI has reduced its efforts since 9/11 is the
investigation of bank robberies. According to the FBI’s data, the number of
agents handling bank robberies decreased by approximately 30 percent
between FYs 2000 and 2004. Both FBI and non-FBI officials agreed that the
FBI was no longer addressing bank robberies as aggressively as it had prior
to 9/11.

      According to state and local officials, the primary effect of the FBI’s
reduced role in bank robberies was an increase in their caseloads. However,
a few state and local officials indicated that the FBI’s reprioritization had
created a gap in bank robbery investigations for which they were unable to
compensate.

Identity Theft

       Identity theft was cited as a major concern by the majority of state
and local law enforcement agencies we interviewed. Officials at these
agencies viewed identity theft as an emerging criminal issue and expected
criminal activity in this area to increase in the future. Although we found
that several federal agencies, including the FBI, are involved in investigating
identity theft to varying degrees, we found no coordinated approach for
combating this crime. Local law enforcement officials said they are, at
times, confused about which agency to turn to for assistance.
Overwhelmingly, local law enforcement agencies conveyed the need for the
development of a federal strategy to combat identity theft at all levels of law
enforcement.

Public Corruption

      Public corruption is the FBI’s highest non-terrorism criminal
investigative priority. As a result, field offices considered these matters of
utmost importance in their criminal investigative efforts. Despite this, the
FBI’s agent utilization data revealed an overall reduction on public corruption
matters from FYs 2000 to 2004. Additionally, the FBI opened fewer public
corruption cases during FY 2004. It also appeared that some field offices
were not giving these matters sufficient emphasis given its priority status.
As a result, the FBI has implemented an initiative to review the public
corruption efforts within its field offices to ensure that this crime area
receives adequate attention. At our exit conference, the FBI provided
evidence that its resource utilization in public corruption had significantly
increased in FY 2005 compared to FY 2004.


                               - xiv -
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

Other Crime Areas

       FBI and non-FBI law enforcement officials also raised concerns about
their investigative efforts related to child pornography, human trafficking, and
alien smuggling. The primary problem for federal agencies, including the FBI,
was a lack of resources to adequately address these crimes. In addition,
state and local law enforcement officials said their agencies lacked sufficient
resources, technical capability, and jurisdictional authority required to
investigate these matters. Moreover, in certain locations we identified a lack
of coordination between the FBI and ICE on these types of investigations.

Relationships with Others in the Law Enforcement Community

       Communication and coordination among law enforcement agencies at
the federal, state, and local level is crucial to effective and efficient law
enforcement. Given its broad range of investigative jurisdiction, the FBI has
significant contact with other law enforcement personnel at each of these
levels. With the FBI’s reprioritization and resulting reduced focus on
traditional crime areas, the FBI’s relationships with other law enforcement
officials, who will more often address these matters instead of the FBI, are
critical.

       According to the majority of FBI managers and other law enforcement
officials we interviewed, the overall relationships between the FBI and other
law enforcement agencies has improved over the last few years. These
sentiments were voiced by officials at both the headquarters and field office
levels. State and local law enforcement officials also indicated that the FBI
has shared more terrorism-related information with them since 9/11.
However, while they welcome this intelligence information, these officials
said they would like the FBI to share more traditional information related to
crime areas such as gangs.

       In several cities we visited, monthly meetings of law enforcement
agency managers within a jurisdiction were highly regarded. According to
many officials, these meetings fostered and maintained good working
relationships among the law enforcement community. Additionally, these
meetings provided an opportunity for agencies to share ideas and
information surrounding current investigative efforts. However, FBI
managers at some field divisions told us that such meetings were not
occurring in their jurisdictions.




                               - xv -
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

OIG Conclusions and Recommendations

        Since the 9/11 terrorist attacks, the FBI has attempted to transform
itself into a more proactive, intelligence-driven law enforcement agency with
a greater emphasis on counterterrorism and intelligence gathering. As part
of this process, in May 2002 the FBI issued a new set of priorities and
transferred a significant number of agent positions from traditional crime
areas to terrorism-related programs. This reprioritization has affected not
only the FBI’s operations but also the investigative operations of other law
enforcement agencies.

      Our analyses of FBI agent utilization data revealed that the FBI has
lessened its efforts to combat traditional crime even more than it had
planned. Further, the FBI opened fewer criminal cases and referred fewer
criminal matters to the USAOs throughout the country in FY 2004 compared
to FY 2000.

      The effects of the FBI’s shift in priorities and resources on other law
enforcement agencies’ operations varied from agency to agency, and often
from crime area to crime area. Still, our review identified specific crime
areas, such as financial institution fraud and bank robberies, in which other
law enforcement officials said the FBI’s reduced investigative activity has
hurt their ability to address the crime problem in their area and has left an
investigative gap.

       In our report, we provided seven recommendations to assist FBI
management in the allocation of its agent resources and for improving
specific areas of its operations. These recommendations include:
(1) assessing investigative need among its various programs to establish
realistic and practical personnel projections; (2) pursuing an interagency
working group on identity theft; and (3) seeking a more coordinated
approach in the areas of fugitive apprehension, child pornography, alien
smuggling, and human trafficking.




                               - xvi -
                    REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE


  THE EXTERNAL EFFECTS OF THE FEDERAL BUREAU OF
        INVESTIGATION’S REPRIORITIZATION

                        TABLE OF CONTENTS

CHAPTER 1:   INTRODUCTION ............................................................ 1
             Overview of the FBI....................................................... 1
             FBI Reprioritization........................................................ 1
             Prior Reviews................................................................ 3
             Audit Approach ............................................................. 4

CHAPTER 2:   THE FBI’S CRIMINAL INVESTIGATIVE DIVISION ................ 8
             Overview of the CID ...................................................... 8
             Criminal Enterprise Plan ............................................... 10

CHAPTER 3:   FBI RESOURCE AND CASEWORK ANALYSIS..................... 12
             FBI Resource Allocations .............................................. 12
             FBI Resource Utilization ............................................... 15
             Comparison of Resource Allocation to Actual Utilization..... 17
             Reasons for Criminal Agent Underutilization .................... 19
             FBI Casework Data ...................................................... 20
             Criminal Matters Received by
                  United States Attorneys’ Offices ............................. 21
             Comments from FBI Personnel on
                  Effects of Reprioritization....................................... 22

CHAPTER 4:   SUMMARY OF THE IMPACT ON THE LAW ENFORCEMENT
                  COMMUNITY ........................................................ 24
             Federal Law Enforcement Perspectives ........................... 24
             State and Local Law Enforcement Perspectives ................ 26
             Overview of Affected Crime Areas.................................. 31

CHAPTER 5:   FINANCIAL CRIMES ..................................................... 34
             FBI Financial Crimes Focus ........................................... 35
             Overall Changes within the FBI’s Financial Crime Efforts ... 36
             Impact on Other Law Enforcement Agencies’
                  Financial Crime Efforts .......................................... 37
             Financial Institution Fraud (Bank Fraud) ......................... 39
             Telemarketing and Wire Fraud ...................................... 45
             Health Care Fraud ....................................................... 48
             Corporate (Securities) Fraud ......................................... 52
             Chapter Summary ....................................................... 53




                  REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


CHAPTER 6:       CRIMINAL ENTERPRISES .............................................. 55
                 Overall FBI Criminal Enterprise Investigative Efforts......... 55
                 Narcotic/Illegal Drug Trafficking Organizations ................ 57
                 Street Gangs .............................................................. 67
                 Organized Crime ......................................................... 73
                 Chapter Summary ....................................................... 79

CHAPTER 7:       FUGITIVES ................................................................. 81
                 Impact of Investigative Changes ................................... 83
                 Chapter Summary ....................................................... 86

CHAPTER 8:       BANK ROBBERIES ....................................................... 87
                 FBI Bank Robbery Measured Response Initiative .............. 87
                 FBI Investigative Effort ................................................ 88
                 External Observations and Impact ................................. 89
                 Chapter Summary ....................................................... 90

CHAPTER 9:       IDENTITY THEFT ......................................................... 91
                 FBI Involvement ......................................................... 91
                 Need for Federal Strategy on Identity Theft .................... 92

CHAPTER 10: PUBLIC CORRUPTION ................................................... 94
            Statistical Evaluation of FBI Public Corruption Efforts........ 94
            Public Corruption’s Priority Status .................................. 95
            Impact of Public Corruption Emphasis ............................ 96
            Chapter Summary ....................................................... 98

CHAPTER 11: OTHER CRIME MATTERS ............................................... 99
            Child Pornography ....................................................... 99
            Alien Smuggling and Human Trafficking........................ 101
            Chapter Summary ..................................................... 102

CHAPTER 12: FBI RELATIONSHIPS WITH OTHER LAW ENFORCEMENT
                 AGENCIES .........................................................       103
            FBI Relationships with Law Enforcement Community ......                       103
            Other Federal Agencies ..............................................         104
            State and Local Agencies............................................          104
            Best Practice ............................................................    104

CHAPTER 13: OIG CONCLUSIONS AND RECOMMENDATIONS .............. 105




                       REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE


APPENDIX I:     OBJECTIVE, SCOPE, AND METHODOLOGY ................... 111

APPENDIX II:    PRIOR FBI CRIMINAL INVESTIGATIVE DIVISION
                   ORGANIZATION CHART ....................................... 121

APPENDIX III:   CROSSWALK OF FBI INVESTIGATIVE PROGRAMS AND
                  SUBPROGRAMS .................................................. 122

APPENDIX IV:    AGENT UTILIZATION IN FBI INVESTIGATIVE
                  CLASSIFICATIONS .............................................. 126

APPENDIX V:     AGENCIES USED IN OIG ANALYSIS OF UNITED STATES
                  ATTORNEY CASE MANAGEMENT DATA ................... 128

APPENDIX VI:    CHANGES IN REFERRALS FOR THE CRIMINAL
                  CATEGORIES USED BY THE UNITED STATES
                  ATTORNEYS’ OFFICES ......................................... 129

APPENDIX VII:   LAW ENFORCEMENT AGENCIES CONTACTED DURING
                  FIELDWORK ....................................................... 133

APPENDIX VIII: WEB-BASED SURVEY RESULTS................................. 137

APPENDIX IX:    ADDITIONAL SURVEY ANALYSES............................... 159

APPENDIX X:     LIST OF SURVEY RESPONDENTS ............................... 165

APPENDIX XI:    FEDERAL BUREAU OF INVESTIGATION RESPONSE....... 183

APPENDIX XII:   OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
                  SUMMARY OF ACTIONS NECESSARY TO CLOSE
                  THE REPORT ...................................................... 192




                   REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE


                         CHAPTER 1: INTRODUCTION

      Since the September 11, 2001, terrorist attacks, the Federal Bureau of
Investigation (FBI) has worked to become a more proactive, intelligence-
driven agency. To achieve this goal, the FBI is undergoing an extensive
transformation, driven by new priorities which resulted in a realignment of its
investigative resources from traditional crime areas to terrorism-related
matters. During the past three years, the FBI has devoted more agents to
counterterrorism and counterintelligence, while reducing its investigative
involvement in organized crime, drugs, violent crime, and white-collar crime.
With a more limited FBI presence in these traditional crime areas, the
responsibility to address an increasing number of these issues has fallen to
other federal, state, and local law enforcement agencies. The purpose of this
review was to determine the impact the FBI’s reprioritization has had on other
agencies in the law enforcement community.

Overview of the FBI

     The FBI is the largest investigative agency of the Department of Justice
(DOJ) and is responsible for enforcing more than 200 federal laws. It has the
broadest jurisdiction of any federal law enforcement agency. The FBI is
charged with not only investigating criminal matters such as organized crime,
drugs, and violent crime, but it is also responsible for counterterrorism and
counterintelligence matters.

       The FBI is comprised of divisions and offices within the United States
and around the world. The FBI’s executive management is located at
FBI Headquarters in Washington, D.C. Domestically, the FBI has 56 field
divisions, with approximately 400 resident agencies that report to a respective
field division. 11 The FBI also has several additional, specialized facilities, such
as the Critical Incident Response Group and the FBI Laboratory, as well as
more than 50 Legal Attaché offices located in U.S. embassies and consulates
around the world. As of May 31, 2005, the FBI employed 12,382 special
agents and 17,271 support personnel.

FBI Reprioritization

      After the terrorist attacks of September 11, 2001 (9/11), the FBI began
transforming itself, including the primary emphasis of its investigative efforts.
According to the FBI Director, the reprioritization process was designed to
reshape the FBI into an organization better able to combat the imminent

       11
           FBI domestic offices are referred to as divisions, such as the FBI Chicago Division.
The FBI also refers to its divisions as field offices, such as the FBI Phoenix Field Office. We use
the terms “division” and “field office” interchangeably throughout the report.


                          REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

terrorist threat and to prevent another terrorist attack against the
United States and its citizens. One of the major results of this process was
the issuance of a new set of priorities in May 2002, which established the
order of precedence for the investigative operations of the FBI. These
priorities are presented in the following exhibit.




       As shown, the FBI’s top priorities are counterterrorism and
counterintelligence. In line with the newly established priorities, the FBI
Director formally shifted more than 500 field agents from traditional crime
areas to terrorism-related programs in May 2002. These resources were taken
primarily from the FBI’s Criminal Investigative Division (CID), which addresses
traditional criminal areas such as narcotics trafficking and white-collar crime.
This reprogramming of resources is discussed in further detail in Chapter 3.

       Additionally, the FBI has undergone and continues to undergo several
changes in its organizational structure since 9/11, including the creation of
the Office of Intelligence and the Cyber Division and a restructuring of the
CID. The restructuring of the CID included a resource management initiative
and the implementation of the Criminal Enterprise Plan, which gave the FBI
field divisions more flexibility in investigating criminal organizations. These
CID changes are more fully explained in Chapter 2.

                               -2-
                    REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE

Prior Reviews

        We previously performed two audits related to the FBI’s reprioritization
efforts, issuing our first report in September 2003 and the second in
September 2004. 12 The first review examined the FBI’s casework and
resource utilization before and immediately after 9/11. In that report, we
found that prior to 9/11, although the FBI identified counterterrorism in its
top priorities, the FBI utilized the majority of its agent resources in
traditional criminal investigative areas, such as white-collar crime, violent
crime, organized crime, and drugs. 13 Following 9/11, agent usage on
terrorism-related matters dramatically increased. Additionally, after the
initial response to these terrorist incidents, resource usage related to
counterterrorism stabilized at a level higher than it was prior to 9/11. One
of the recommendations we made in that review was that the FBI Director
explore additional means of analyzing the FBI’s resource utilization among
its various programs. As a result, the FBI Director now receives resource
level reports similar to the analyses we performed in our initial review.

       Our second review focused solely on the internal operations of the FBI
and the changes it had undergone between fiscal years (FY) 2000 and 2003.
The FBI formally moved a significant number of funded personnel from
traditional criminal investigative areas to matters related to terrorism, and
reorganized itself with the intent of becoming a more proactive,
intelligence-driven law enforcement agency. Our analyses found that FBI
activities in FY 2003 were generally in line with its post-9/11 priorities.
Specifically, our analysis of FBI timekeeping data detailed how the FBI was
performing less work in certain traditional criminal investigative areas and
more work in matters related to terrorism.

     The U.S. Government Accountability Office (GAO) has also conducted
several reviews of the FBI’s post-9/11 reprioritization efforts, issuing its most




       12
           See Department of Justice, Office of the Inspector General, Federal Bureau of
Investigation Casework and Human Resource Allocation, Audit Report Number 03-37,
September 2003; Department of Justice, Office of the Inspector General, The Internal
Effects of the Federal Bureau of Investigation’s Reprioritization, Audit Report Number 04-39,
September 2004.
       13
           Prior to the FBI Director’s issuance of the top 10 priorities, the FBI operated under
a three-tiered structure for prioritizing its investigations. Tier One represented the FBI’s
highest priority area, which focused on national and economic security, including terrorism-
related activity.


                                    -3-
                         REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

recent report in August 2004. 14 In this report, the GAO followed up its previous
work regarding the FBI's changes since 9/11. 15 The GAO found that its review
of data was inconclusive on determining the impact the FBI's changes have had
on traditional law enforcement areas.

Audit Approach

       This review was performed as a follow-on to our previous work in which
we focused on the internal operational changes occurring within the FBI. This
audit primarily concentrated on the external effects of the FBI’s shift in
priorities on the law enforcement community. Specifically, our objective was
to determine the impact of the FBI’s reprioritization efforts on other federal,
state, and local law enforcement agencies. As the FBI reduces its
involvement in traditional crime areas, other law enforcement agencies need
to enhance their investigative efforts to compensate for the FBI’s changes. If
not, the potential for certain crimes to go unaddressed increases.

       To accomplish our objective, we reviewed various data and
documentation and solicited feedback from numerous law enforcement
representatives. Specifically, we obtained FBI data related to its allocation
of FBI field agent positions, its actual utilization of FBI field agents, and its
investigative caseload for FYs 2000 through 2004. We focused on the
traditional criminal investigative areas of organized crime, drug trafficking,
violent crime, and white-collar crime.

      Additionally, we interviewed headquarters-level management at the FBI
and other federal law enforcement entities to gain a national perspective.
Within the FBI, we spoke primarily with CID officials and personnel from the
Office of Law Enforcement Coordination. We also obtained feedback from
11 different federal agencies and programs, including the Bureau of Alcohol,
Tobacco, Firearms and Explosives (ATF); the Drug Enforcement Administration


       14
           Government Accountability Office. FBI Transformation: Data Inconclusive on
Effects of Shift to Counterterrorism-Related Priorities on Traditional Crime Enforcement,
Report Number GAO-04-1036, August 2004.
       15
            The GAO previously issued four reports on the FBI’s reprioritization efforts:
(1) Government Accountability Office. FBI Reorganization: Initial Steps Encouraging but
Broad Transformation Needed, Report Number GAO-02-865T, June 21, 2002; (2)
Government Accountability Office. FBI Reorganization: Progress Made in Efforts to
Transform, but Major Challenges Continue, Report Number GAO-03-759T, June 18, 2003;
(3) Government Accountability Office. FBI Transformation: FBI Continues to Make Progress
in Its Efforts to Transform and Address Priorities, Report Number GAO-04-578T, March 23,
2004; and (4) Government Accountability Office. FBI Transformation: Human Capital
Strategies May Assist the FBI in Its Commitment to Address Its Top Priorities, Report
Number GAO-04-817T, June 3, 2004.

                                   -4-
                        REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE

(DEA); and the Executive Office of the President’s High Intensity Drug
Trafficking Area (HIDTA) program. A complete listing of the federal agencies
we visited is contained in Appendix I.

       Further, to obtain the viewpoints of state and local law enforcement
officials, we disseminated a web-based survey to chief law enforcement
executives of 3,514 agencies located in the jurisdictional areas of 12 FBI field
offices: Atlanta, Georgia; Chicago, Illinois; Dallas, Texas; Denver, Colorado;
Detroit, Michigan; Los Angeles, California; Miami, Florida;
New Orleans, Louisiana; New York City, New York; Phoenix, Arizona;
San Francisco, California; and Washington, D.C. 16 These 3,514 agencies
generally encompass all state and local law enforcement agencies operating in
those 12 FBI jurisdictional areas. Exhibit 1-2 provides the number of
recipients and respondents for these locations, as well as the response rate.
In addition to the survey, we interviewed representatives at international and
national law enforcement associations, such as the International Association of
Chiefs of Police and the Major Cities Chiefs Association.

                             EXHIBIT 1-2
             SUMMARY OF SURVEY RESPONDENTS BY LOCATION 17
     FBI Field Office          Number of               Number of         Survey Response
       Jurisdiction            Recipients             Respondents              Rate
   Atlanta                        593                     170                 28.7%
   Chicago                        366                     181                 49.5%
   Dallas                         526                     204                 38.8%
   Denver                         361                     105                 29.1%
   Detroit                        556                     220                 39.6%
   Los Angeles                    159                      71                 44.7%
   Miami                          101                      35                 34.7%
   New Orleans                    362                      75                 20.7%
   New York City                  178                      69                 38.8%
   Phoenix                        129                      45                 34.9%
   San Francisco                  150                      72                 48.0%
   Washington, D.C.                33                      18                 54.5%
           Totals                3,514                   1,265               36.0%
   Source: Office of the Inspector General analysis

       After analyzing the FBI data and survey results, we judgmentally
selected seven of the FBI field office jurisdictions in which to perform
additional audit work. Exhibit 1-3 presents the seven areas visited, which
are highlighted in yellow. The areas shown in gray are the remaining five
jurisdictions to which we disseminated the survey.


       16
         Appendix I contains details on our selection of FBI field office jurisdictions for the
dissemination of the web-based survey.
       17
            Each respondent equates to a distinct state or local law enforcement agency.

                                     -5-
                          REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                            EXHIBIT 1-3
          MAP OF FBI FIELD OFFICE JURISDICTIONS VISITED




  Source: Office of the Inspector General


       At each site visited, we interviewed officials at the main FBI field
division and representatives from at least one FBI resident agency. Further,
we spoke with management at five federal agencies: the ATF, the Bureau of
Immigration and Customs Enforcement (ICE), the DEA, the United States
Attorneys Office (USAO), and the United States Marshals Service (USMS).
We also met with officials from at least five state or local law enforcement
departments per location, including the major police department located in
each city visited. We also selected local law enforcement agencies based on
survey responses, choosing departments that indicated being either
negatively or positively affected by the FBI’s changed priorities. During the
course of our audit, we spoke with approximately 330 officials.

      The results of our review are detailed in Chapters 2 through 13, and
the audit scope and methodology are presented in Appendix I. Most of our
work at the FBI focused on the FBI’s CID, which is responsible for overseeing
the FBI’s traditional crime efforts. Chapter 2 of this report discusses the
FBI’s CID and the structural changes it has undergone since our last review
issued in September 2004. In Chapter 3, we present our overall analyses of
FBI resource data, which identify the changes in the FBI’s criminal
investigative efforts between FYs 2000 and 2004. Additionally, Chapter 3
describes the overall changes occurring in the FBI’s criminal casework and in
the criminal matters the FBI refers to the USAOs.


                                   -6-
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

       In Chapter 4, we discuss the overall effect the FBI’s shift in priorities
has had on the national law enforcement community. In particular, this
chapter incorporates feedback gathered during our interviews with non-FBI
officials, as well as the responses from our survey of law enforcement
officials across the country. Further, we summarize the specific crime areas
affecting other law enforcement agencies’ operations.

      Chapters 5 through 11 of this report detail the impact of the FBI’s
reprioritization within distinct, traditional crime areas, namely financial
crimes, criminal enterprises, fugitives, bank robberies, identity theft, and
integrity in government, as well as other criminal areas such as child
pornography, alien smuggling, and human trafficking. Within each of these
chapters, we identify the FBI’s investigative changes based on interviews
with FBI officials and our review of statistical data, and we describe the
concerns and perspectives of the non-FBI officials we interviewed.

      During fieldwork, we examined the existing relationships between the
FBI and other law enforcement agencies. Chapter 12 of this report contains
details on information we collected regarding the manner in which the FBI
and these other agencies interact. Finally, Chapter 13 presents our overall
conclusions and recommendations for FBI management to consider in
allocating its agent resources and for improving specific areas of its
operations.




                                -7-
                     REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


     CHAPTER 2: THE FBI’S CRIMINAL INVESTIGATIVE
                      DIVISION

      The Criminal Investigative Division (CID) is the primary component
within the FBI responsible for overseeing FBI investigations of traditional
crimes such as narcotics trafficking and violent crime. According to the FBI,
the CID revised its organizational structure during FY 2004 in an effort to
better reflect current trends in criminal activity.

Overview of the CID

       The CID addresses issues four through eight of the FBI’s national
priorities (listed on page 2 in Chapter 1). The organizational structure of the
CID consists of branches, which are further separated into sections and units
that focus on specific crime areas. Prior to the FY 2004 reorganization, the
CID’s structure consisted of two branches: (1) Integrity in Government/Civil
Rights, Financial Crimes, & Operational Support; and (2) Drug, Organized
Crime, Violent Crimes and Major Offenders, and Criminal Intelligence. 18 The
restructuring involved a realignment of sections and units within two newly
named branches: (1) National Crimes, and (2) Criminal Enterprise.
Exhibit 2-1, on the following page, presents the current organizational
structure of the CID.

      Generally, the sections within each branch remained intact after the
restructuring process. However, the Violent Crimes Section was moved from
the new Criminal Enterprise Branch to the National Crimes Branch. Other
than this shift, the National Crimes Branch (previously called the Integrity in
Government/Civil Rights, Financial Crimes, & Operational Support Branch)
did not experience further revisions.

      The Criminal Enterprise Branch experienced more significant change
than the National Crimes Branch. One of the primary modifications was the
creation of the Americas Criminal Enterprise Section (ACES), which
addresses drugs, gangs, and major thefts, and the Transnational Criminal
Enterprise Section (TCES), which continues to investigate organized crime
matters. These sections were formerly known as the Drug Section and
Organized Crime (OC) Section.




      18
           Appendix II contains the CID’s previous organization chart.

                                    -8-
                         REDACTED FOR PUBLIC RELEASE
                                              REDACTED FOR PUBLIC RELEASE


                                                   EXHIBIT 2-1
                                       FBI CRIMINAL INVESTIGATIVE DIVISION
                                               ORGANIZATION CHART




Source: FBI Criminal Investigative Division Organization Chart dated October 25, 2004




                                                         -9-
                                              REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE

Criminal Enterprise Plan

      In addition to its restructuring, the Criminal Enterprise Branch also
experienced a major management policy change. In February 2004, the
FBI Director approved the implementation of the Criminal Enterprise Plan, a
strategy that provided the impetus for restructuring the CID. 19 Essentially,
the Criminal Enterprise Branch attempted to pool resources to enable the
FBI to more effectively investigate criminal enterprises.

       The CID previously operated with separate squads designated to
oversee investigations of specific crimes using a set number of resources.
However, with reduced criminal resources, the FBI has focused its
investigations on higher-threat targets, particularly criminal enterprise
organizations. The FBI concluded that most of today’s criminal enterprises
could not be addressed simply by crime type, as these organizations usually
perpetrate a variety of crimes. Therefore, field agents are no longer
allocated specifically to drug, organized crime, major theft, or street gang
investigations. Beginning in FY 2005, these resources are considered as one
allocation – called criminal enterprise – enabling field managers to assign
staff to investigations according to case needs and an assessment of local
threats.

       According to a senior CID manager, the Criminal Enterprise Plan
concept establishes a new mindset for the FBI. In the past, Special Agents in
Charge (SAC) monitored “burn rates” to ensure they were utilizing agents at
expected levels for distinct crime problems. 20 However, the FBI reported that
SACs were constantly frustrated trying to monitor burn rates while also
attacking the most prominent crime threats. The Criminal Enterprise Plan
attempts to alleviate this situation by providing field offices the flexibility to
utilize resources to attack poly-criminal enterprise operations. According to
senior CID officials, under the enterprise approach field office managers can
assess the different facets of a case and assign agents with the requisite
experience and skills to conduct the investigation. For example, using the
criminal enterprise resource approach to investigate a street gang involved in
theft, drugs, violence, and identity theft, a field office can develop a squad
with expertise in each of those areas, similar to how the FBI creates an
internal task force.


       19
          According to the FBI, its criminal enterprise theory of investigation – building a case
against the entire criminal organization – is not a new investigative model; the innovation exists
in how the FBI views and utilizes its resources in managing criminal enterprise cases.

       20
           The FBI uses the term “burn rate” to refer to the difference between allocated
resources and actual utilized resources. An “overburn” occurs when more resources are utilized
than allocated. In turn, the FBI defines “underburn” as using fewer resources than allocated.

                                     - 10 -
                          REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

       The Criminal Enterprise Plan was a major catalyst in restructuring the
CID in that it realigned units and sections of the FBI. According to the FBI,
the approach enabled a more fluid resource management approach to
addressing criminal enterprise organizations, affording FBI field divisions
flexibility in combating traditional crime problems with fewer resources.




                               - 11 -
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


  CHAPTER 3: FBI RESOURCE AND CASEWORK ANALYSIS

      During the FBI’s reprioritization process, the FBI Director shifted
resources from traditional crime areas to terrorism-related programs. We
obtained and reviewed data on planned and actual utilization of FBI
resources and actual casework data to assess changes in the FBI’s
investigative efforts between FYs 2000 and 2004. 21 Our review focused on
the FBI’s traditional crime-related investigative efforts, specifically the areas
within the FBI’s Criminal Investigative Division (CID), such as
drugs/narcotics trafficking, organized crime, violent crime, white-collar
crime, and civil rights violations.

       Our analyses revealed that the FBI’s CID is operating with significantly
fewer resources than it had in FY 2000. 22 Specifically, the FBI’s funded
agents for CID-related programs in its 56 field offices decreased by
1,143 positions between FYs 2000 and 2004, declining from 6,896 to 5,753
during this time period. However, the FBI actually utilized 2,190 fewer field
agents on traditional crime matters in FY 2004 than it had in FY 2000. In
response to the reduction in criminal agent resources, the FBI directed field
divisions to concentrate the majority of their criminal investigations on the
most significant leads and cases. As a result, the FBI opened fewer criminal
cases and referred fewer criminal matters to the USAOs in FY 2004 than it
did in FY 2000.

FBI Resource Allocations

       The FBI allocates its resources throughout its Headquarters and field
divisions by establishing Funded Staffing Levels (FSLs). One FSL equates to
one funded employee, or one full-time equivalent (FTE). These positions are
assigned according to divisions, investigative programs (or subprograms), or
support categories. For instance, allocated positions for agents in the field
offices are allotted to specific programs, such as white-collar crime. The
assignment of FSLs to the various field divisions, and specifically to
programs, is the primary means by which the FBI implements its priorities
and institutes its operational structure. Resource allocations represent the
levels at which FBI executive management intends to address particular
investigative areas.


       21
          When available and appropriate, we include FY 2005 data. In general, we did not
use FYs 2001 and 2002 data in comparative analyses, as the events of 9/11 and the FBI’s
response to investigating the terrorist attacks skewed utilization data during that time period.
       22
         Our previous report, which included analyses of FBI data between FYs 2000 and
2003, detailed similar results.

                                   - 12 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

       Between FYs 2000 and 2001, the FBI experienced an overall decrease in
field agent FSLs, dropping from 10,474 agent positions to 9,981. 23 Since that
time, the number of allocated positions has steadily risen. The total number of
field agents in FY 2005 (10,911) represents an increase of 437 over the number
of FSLs in FY 2000. Exhibit 3-1 illustrates the FBI’s field agent FSLs for
FYs 2000 through 2005.

                               EXHIBIT 3-1
            TOTAL FUNDED STAFFING LEVELS FOR FBI FIELD AGENTS
                     FISCAL YEARS 2000 THROUGH 2005




                 Source: OIG analysis of FBI Resource Management and Allocation (RMA) Office data


       Exhibit 3-1 also shows the composition of total field agent FSLs in terms
of field agent and field management positions. Field agent positions, which
are non-supervisory, are allocated to specific programs, while field
management positions, which are supervisory in nature, are allocated to field
offices rather than to specific investigative areas. The non-supervisory field
agent allocations mirrored the changes that occurred in the total number of
field agent FSLs: a decline between FYs 2000 and 2001, followed by a steady
increase through FY 2005. The field management positions, however,
experienced an increase in each fiscal year throughout our review period.




       23
          The FBI experienced an overall decline in FSLs from FYs 2000 to 2001. This
reduction was primarily a result of a mandate issued by the Office of Management and Budget
(OMB), which has become known as the “hollow work year” issue. During FY 2001 (but prior
to 9/11), OMB ordered the FBI to reduce its reported number of funded positions because
OMB believed the FBI did not have sufficient money to fund its level of authorized positions.

                                   - 13 -
                        REDACTED FOR PUBLIC RELEASE
                            REDACTED FOR PUBLIC RELEASE

Terrorism and Criminal Field Agent Allocations

      A major element of the FBI’s reprioritization efforts has been to
reallocate FBI personnel resources and transfer agents from traditional
criminal investigative areas to terrorism-related issues. The following charts
provide a FY 2000 to FY 2004 comparison of the allocation of the FBI’s non-
supervisory field agent workforce, according to the type of investigative
matter to which they were assigned.

                                   EXHIBIT 3-2
                    COMPARISON OF FBI FIELD AGENT ALLOCATIONS
                IN TERRORISM AND CRIMINAL INVESTIGATIVE MATTERS
                          FISCAL YEARS 2000 AND 2004 24
                     FISCAL YEAR 2000                               FISCAL YEAR 2004




            Source: OIG analysis of FBI Resource Management and Allocation (RMA) Office data


      In FY 2000 the FBI allocated 75 percent of its field agent workforce to
criminal investigative areas, predominantly organized crime, drugs, violent
crime, and white-collar crime. By FY 2004, the proportion of FBI field agents
involved in criminal-related matters declined to 65 percent.

FBI Field Agent Resource Allocations within Traditional Criminal Programs

      In our September 2004 report, we found that the FBI experienced
reductions in the number of allocated field agent positions to CID programs
from FYs 2000 through 2003. We extended our analyses in this review to
include FY 2004 data and generally did not observe any significant changes
between FYs 2003 and 2004.



       24
           We categorized FBI activities as terrorism-related or criminal-related based on the
program in which the work was captured. We considered terrorism-related work to be
captured in the National Foreign Intelligence, Domestic Terrorism, and National
Infrastructure Protection/Computer Intrusion programs. We considered criminal-related
work to be captured in the Civil Rights, Criminal Enterprise Investigations, Cyber Crime,
Organized Crime/Drug, Violent Crime/Major Offenders, and White-Collar Crime programs.

                                       - 14 -
                            REDACTED FOR PUBLIC RELEASE
                              REDACTED FOR PUBLIC RELEASE

         Exhibit 3-3 details the non-supervisory field agent FSL levels for
   CID-related areas for FYs 2000 through 2004. The data in the table indicates
   that while there was a slight increase in criminal agent-allocated resources
   from FYs 2003 to 2004, the FBI still allotted more than 1,100 fewer field
   agents for traditional crime matters than it had in FY 2000. Therefore, the
   FBI planned to use significantly fewer resources in FY 2004 than it had in
   FY 2000. By far, the 732 agent reduction from drug and organized crime
   matters was the largest decrease among the crime areas.

                                  EXHIBIT 3-3
             FIELD AGENT FUNDED STAFFING LEVELS ALLOCATED TO
                      FBI TRADITIONAL CRIMINAL AREAS
                     FISCAL YEARS 2000 THROUGH 2004 25
                            2000    2001 2002 2003 2004 2004-2000
Drug & Organized Crime      2,279   2,078 1,511 1,521 1,547   -732
Violent Crime               2,004   1,821 1,656 1,710 1,711   -293
White-Collar Crime          2,460   2,404 2,210 2,303 2,342   -118
Civil Rights                 153     153    153  153   153      0
                  TOTALS 6,896 6,456 5,530 5,687 5,753       -1,143
Source: OIG analysis of FBI RMA Office data


   FBI Resource Utilization

          While the FBI develops a resource utilization plan through its FSL
   assignments, actual utilization of its resources often deviates from the plan
   due to local public safety threats and jurisdictional crime trends. The FBI
   tracks actual time worked by its field personnel in its Time Utilization and
   Recordkeeping (TURK) system. Field agent personnel record the percentage
   of time worked on investigative cases, which is converted in TURK to
   Average On-Board (AOB) data. One AOB equals one agent and refers to
   either: (1) one agent working solely in a single investigative area, or
   (2) multiple agents working part-time on the same investigation. For
   instance, three agents spending one-third of their time investigating a
   kidnapping is equivalent to one agent working the case fulltime, or one AOB.
   Unlike resource allocations (or FSLs), AOB is tracked by specific investigative
   classifications, which are assigned to programs or subprograms. 26 An
   example is provided in Exhibit 3-4.

          25
             Allocation figures are displayed according to the FBI’s allocation categories used in
   FYs 2000 through 2004. In FY 2005, the FBI allocated its field agent positions in accordance
   with the CID’s new organizational structure. For example, instead of allocating positions to
   organized crime and drugs, positions are now allocated to Transnational Criminal Enterprises and
   Americas Criminal Enterprises. This change precludes us from comparing resource allocation
   data from FYs 2000-2004 to FY 2005.
          26
               At the beginning of FY 2005, the FBI had over 630 investigative classifications.

                                         - 15 -
                              REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


                                   EXHIBIT 3-4
               FBI INVESTIGATIVE NOMENCLATURE EXAMPLE
           Category                    Name
           Program                     Violent Crime
                 Subprogram            Violent Incident Crimes
                      Classification   Kidnapping

Overall Criminal Agent Resource Utilization

       In our September 2004 review, we reported that in FY 2003 the FBI
utilized substantially fewer agent resources on criminal matters than it had
in FY 2000. The FBI used
                                                      EXHIBIT 3-5
6,664 agents on traditional crime in        FBI CRIMINAL AGENT RESOURCES
FY 2000 compared to 4,639 in                  FISCAL YEARS 2000 AND 2004
FY 2003 – a decline of 2,025 agents.
Our current analysis revealed that
the FBI utilized even fewer agents on
criminal matters during FY 2004 than
during FY 2003.

      The FBI utilized 2,190 fewer
criminal field agent resources in
FY 2004 compared to FY 2000,
declining from 6,664 agents to 4,474.
Essentially, in FY 2004, the FBI was       Source: OIG analysis of FBI TURK data
operating at 67 percent of its FY 2000
criminal agent resource level. These results are displayed in the chart in
Exhibit 3-5.

Criminal Agent Utilization After Implementing the Criminal Enterprise Plan

      In Chapter 2, we discussed the FBI’s development of the Criminal
Enterprise Plan and analyzed actual agent utilization data according to the
CID’s new structure resulting from implementation of the Plan, as seen in
Exhibit 3-6. This analysis identified that the most noticeable reductions
occurred within the Americas Criminal Enterprises and OCDETF programs,
which primarily embody the FBI’s efforts to combat illegal drug trafficking. 27
The reduction in resource utilization in these two programs coincides with
the FBI’s plan to reduce its efforts to investigate drug-related crime. Further
evaluation of agent utilization data is addressed in Chapters 5 through 11.

      27
          OCDETF is the acronym for Organized Crime Drug Enforcement Task Force, a
congressionally funded program administered by the Criminal Division in the DOJ that
focuses on the disruption and dismantling of major drug trafficking organizations.

                                  - 16 -
                       REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE

Additionally, Appendix IV separately identifies the 30 FBI investigative
classifications experiencing the greatest AOB reductions and increases
between FYs 2000 and 2004.

                            EXHIBIT 3-6
     FBI AGENT UTILIZATION CHANGE IN SPECIFIC CRIMINAL AREAS
                    FISCAL YEARS 2000 AND 2004




              Source: OIG analysis of FBI TURK data


Comparison of Resource Allocation to Actual Utilization

      As previously discussed, the FBI reduced the allocation of agent
resources assigned to address traditional crime matters between FYs 2000
and 2004. Additionally, through analysis of FBI agent utilization data, we
found that the FBI was, in fact, utilizing even fewer resources for criminal
investigations than it had allocated.

       In addition to the formally transferred 1,143 allocated field agent
positions away from investigating drugs, violent crime, white-collar crime,
and other traditional crime between FYs 2000 and 2004 (as detailed in
Exhibit 3-3), the FBI utilized over 1,200 fewer agents than it had allocated to
these areas. Specifically, in FY 2004, of the 5,753 field agents allocated to
criminal matters, the FBI utilized 4,474 of these agents – a difference of
1,279 agents. According to senior FBI officials, these agents were diverted
to terrorism-related matters as needs arose. Adding these diverted agents
to the planned reduction of 1,143 allocated field agent positions shows that
the FBI reduced its investigative efforts related to traditional crimes by more
than 2,400 agents, or more than twice the amount originally planned.

                                 - 17 -
                      REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


                          EXHIBIT 3-7
      EVALUATION OF FBI FIELD OFFICE CRIMINAL RESOURCES
                 FISCAL YEARS 2000 AND 2004




       Source: OIG analysis of FBI TURK and RMA Office data


       It was clear from our discussions with FBI Headquarters and field-level
management that FBI field offices were directed to ensure that the FBI’s
national priority areas were adequately staffed and that no terrorism-related
matter went unaddressed, which explains the significant gap in the
utilization and allocation figures. The FBI needs to ensure that it has
accurately evaluated its investigative needs and necessary resource levels
within each area of the FBI’s operations – including both terrorism and non-
terrorism related programs – and translate this information into realistic and
practical field agent allocations.

       Breaking down our comparison of agent allocation and actual utilization
to specific crime areas, we confirmed that the general crime areas
investigated by the FBI experienced resource under-utilization during
FY 2004. As Exhibit 3-8 illustrates, all general crime areas experienced
significant gaps between funded staffing levels and actual utilization.




                                  - 18 -
                       REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


                           EXHIBIT 3-8
     COMPARISON OF FISCAL YEAR 2004 ALLOCATED CRIMINAL AGENT
            POSITIONS AND ACTUAL AGENT UTILIZATION 28




               Source: OIG analysis of FBI TURK and RMA Office data


Reasons for Criminal Agent Underutilization

       As discussed above, FBI criminal programs have utilized fewer agents
than allocated in order to address terrorism-related matters, often using
criminal resources. FBI field office management commented to us that it
would not permit understaffed counterterrorism squads or tolerate any
unaddressed terrorism lead. Besides utilizing criminal resources for terrorism-
related matters, personnel vacancies, temporary duty assignments, and field
division surveillance contributed to the underutilization of criminal agents.

      Personnel Vacancies – According to many FBI officials interviewed,
criminal squads absorb any field division personnel vacancies and are required
to augment any understaffed counterterrorism squads. Field division
management stated that criminal squads would suffer any agent vacancy within
the division and that counterterrorism squads would be fully staffed at all times.

      Temporary Assignments – Temporary assignment responsibilities
remove agents from their field division duties, often for extended periods of
time. We learned from discussions with FBI officials that if these agents are
taken from a criminal squad, that squad will usually operate with one less

      28
           We conducted this analysis according to the CID program areas to which the FBI
allocated resources in FY 2004.

                                  - 19 -
                       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

agent. However, if the agent is chosen from a counterterrorism squad, a
criminal agent will normally fill that vacancy so no counterterrorism squad is
understaffed.

      Surveillance Responsibilities – Each field office staffs a surveillance-
specific unit, such as a Surveillance and Operations Group. This unit is tasked
with providing necessary technical support to investigative cases, allowing
case agents to concentrate on pursuing other case leads. To develop these
groups, each investigative program assigns agents in accordance with the
amount of support that program receives from the surveillance unit
throughout the year. However, with the overall FBI emphasis on
counterterrorism, many offices reported that surveillance resources are often
monopolized by the counterterrorism squads, which have primary use of their
services. As a result, criminal squads are left to conduct surveillance and
technical operations by themselves. These tasks are usually resource-
intensive and time-consuming, thereby preventing agents from pursuing other
leads or performing other case-related work.

FBI Casework Data

      The FBI maintains its universe of data about its cases within its
Automated Case Support (ACS) system. Similar to agent utilization data,
ACS data is tracked at the specific investigative classification level and tracks
the dates of case openings and closings. We analyzed this data to identify
substantial changes in the number of case openings between FYs 2000 and
2004. Our analyses of ACS data help to quantitatively demonstrate an effect
that reduced FBI criminal resources have had on the FBI’s operations.

      We found the FBI opened over 28,000 fewer criminal cases in FY 2004
than it did in FY 2000. 29 During FY 2000, the FBI initiated 62,782 criminal
investigations. In FY 2004, that figure declined 45 percent to 34,451 cases.
Exhibit 3-9 depicts the case openings at the subprogram level for the FBI’s
CID for FYs 2000 and 2004 and shows that each criminal area experienced a
reduction during our 5-year review period. Notably, the Americas Criminal
Enterprises Program, which addresses narcotics trafficking, gang-related
crime, and major theft, experienced the greatest decline in case openings in
terms of percentage, initiating over 50 percent fewer cases in FY 2004 than
in FY 2000. Further, case initiations in Financial Crimes and Violent Crimes
decreased by 6,939 (40 percent) and 15,236 (47 percent), respectively.




       29
          We identified these case openings by segregating the investigative areas for which
the FBI CID was responsible after its reorganization in FY 2004.

                                   - 20 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                               EXHIBIT 3-9
              FBI CASE OPENINGS IN SPECIFIC CRIMINAL AREAS
                       FISCAL YEARS 2000 AND 2004




            Source: OIG analysis of FBI Automated Case Support (ACS) data


Criminal Matters Received by United States Attorneys’ Offices

       In addition to FBI casework data, we evaluated data from the
United States Attorneys’ Offices (USAO), including the number of criminal
matters the FBI and other federal law enforcement agencies referred to the
USAOs during FYs 2000 and 2004. 30 Analysis of this data provides insight
into the effect the FBI’s reduction in investigations of traditional criminal
cases has had on the overall enforcement of criminal activity by the federal
government.

      It is important to note that “criminal matter” is not synonymous with
“criminal case.” A “criminal matter” involves information submitted to a
USAO for review; a “criminal case” only refers to instances in which
defendants have been charged. Therefore, in assessing actual FBI
investigative efforts, we believed the USAO’s “criminal matters” data to be
more appropriate for our review. The USAO tracks criminal matters received
for numerous criminal categories.



       30
           Appendix V lists the federal agencies included in our analyses of USAO criminal
referrals. Appendix VI provides the criminal categories used by the USAOs and details the
number of referrals for each category from the FBI and all agencies combined for FYs 2000
and 2004.

                                   - 21 -
                        REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE

      In FY 2004, the FBI referred approximately 6,100 fewer criminal–related
matters to the USAOs than in FY 2000 (a 27-percent reduction). 31 As the
following exhibit shows, the FBI referred 22,876 criminal-related matters
during FY 2000; this figure declined to 16,725 for FY 2004. Additional
analyses of USAO case management data for specific crime areas are
contained in Chapters 5 through 11.

                                EXHIBIT 3-10
                FBI CRIMINAL MATTERS REFERRED TO THE USAOs
                         FISCAL YEARS 2000 AND 2004




      Source: OIG analysis of United States Attorneys’ (USA) central case management system data


Comments from FBI Personnel on Effects of Reprioritization

       In addition to statistical impact, FBI field division personnel
commented to us on the qualitative effects of the FBI’s criminal resource
reductions. As discussed earlier, FBI officials said that criminal squads often
operate understaffed. Moreover, most field divisions function with fewer
criminal squads compared to four years ago. Additionally, several non-FBI
law enforcement officials and USAO representatives commented to us that
less experienced agents tended to work criminal cases, while
counterterrorism matters were staffed by more experienced agents. FBI
field division management generally confirmed these comments. Thus, the
FBI is investigating criminal matters with less experienced personnel than
that devoted to counterterrorism matters, as well as with a fewer number of
agents and fewer criminal squads. In certain instances, USAO officials
stated that this has resulted in fewer matters being referred to the USAOs.



       31
           The figures presented for criminal-related matters include all non-terrorism related
referrals to the USAOs. For purposes of this report, we considered the matters referred to
the USAOs that are categorized as Internal Security Offenses to be terrorism-related.

                                     - 22 -
                          REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

      Some FBI field managers commented that undermanned squads could
jeopardize the safety of criminal investigative agents. FBI officials reported
that criminal agents often attempted to handle pre-9/11 squad caseloads,
even though each squad operated significantly understaffed. FBI field
managers commended the agents’ work ethic but were concerned that the
agents were going to “burn out” mentally and physically. Additionally, some
FBI officials commented that the morale of criminal agents was diminishing
because most of the recognition went to those agents involved in terrorism-
related matters.




                               - 23 -
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


    CHAPTER 4: SUMMARY OF THE IMPACT ON THE LAW
              ENFORCEMENT COMMUNITY

       We obtained mixed perspectives from other federal agencies regarding
the FBI’s reprioritization from the non-FBI federal law enforcement officials
we interviewed. At the headquarters-level, while some agency officials
stated that they had not observed significant changes in the FBI’s traditional
criminal operations, other agency representatives said they noticed a
reduction in FBI investigative effort in traditional crime matters. At the field-
level, many non-FBI federal officials we interviewed said they had observed
changes in the FBI’s investigative efforts of criminal matters. They
commented that the FBI focused much of its attention on terrorism-related
matters while pulling back in traditional areas such as drugs and fugitive
apprehensions. However, most of these field managers told the OIG they
did not believe the FBI’s new focus critically impaired their agencies.

       In response to our survey, the majority of the state and local respondents
reported a minimal impact as a result of the FBI’s change in priorities. From
the survey responses, we selected several local law enforcement agencies to
visit during our fieldwork, choosing agencies that indicated varying degrees of
impact resulting from the FBI’s reprioritization. Generally, the local law
enforcement representatives we interviewed stated that the FBI had reduced its
investigative efforts in certain traditional crime areas, which in some instances
created an investigative gap.

      The following sections provide detailed accounts of the effects that the
FBI’s shift in priorities has had on law enforcement agencies at the federal,
state, and local levels, including an overview of specific crime areas that were
affected by the FBI’s reprioritization.

Federal Law Enforcement Perspectives

      Headquarters officials at ATF, ICE, and USMS stated that they had not
observed a significant decrease in the FBI’s traditional criminal enforcement
operations. However, a DEA Headquarters official stated that the DEA had
observed a reduction in the FBI’s narcotics-related work. Despite this
reduction in the FBI’s efforts, the DEA official added that the DEA was not
adversely affected. U.S. Postal Inspection Service officials commented that
the FBI worked more closely with their agency since the reprioritization
because the FBI’s resources in this crime area became limited.

      By contrast, many field-level officials at other federal law enforcement
agencies commented that the FBI was involved less in certain traditional
crime matters. However, none of these officials reported negative effects
                                - 24 -
                     REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

caused by this reduction in FBI involvement. Several of these agency
officials said their workload had increased as a result of the FBI’s shift in
priorities, but these officials believed their agencies had been able to address
the additional investigative matters. However, several officials noted that
their agency’s limited resources could potentially hinder their future
investigative efforts in traditional crime areas.

       Specifically, representatives at six of the eight USMS District Offices
we visited commented that their local FBI field offices were handling fewer
fugitive investigations, an observation confirmed by FBI resource and
caseload data. 32 Nevertheless, these USMS field managers asserted that the
USMS is fully capable of addressing fugitive matters.

       Similarly, managers at six of the seven DEA field divisions we visited
commented that the FBI is not as aggressive in working drug-related cases
as it was in the past. FBI data supports these observations. DEA field
managers did not indicate that their operations were adversely affected by
the FBI’s reductions in drug-related work.

      In addition to obtaining comments from federal investigative officials, we
gathered feedback from USAO representatives at each of the seven field sites
we visited. Officials at all these USAOs noted that the FBI currently focuses its
attention on terrorism-related matters, while pulling back in traditional criminal
areas such as drugs and bank robberies. USAO Case Management data
supports these observations. As shown in Exhibit 4-1, the FBI reduced the
number of non-terrorism criminal matters referred to USAOs by 6,151, or
27 percent, between FYs 2000 and 2004, decreasing from 22,876 matters in
FY 2000 to 16,725 in FY 2004. Conversely, the FBI referred 1,048 more
terrorism-related matters to USAOs in FY 2004 than it did in FY 2000,
increasing sevenfold from 150 matters in FY 2000 to 1,198 matters in FY 2004.




       32
           We spoke with USMS officials from the Eastern District of New York and the
Southern District of New York. The FBI New York City Division’s jurisdiction covers these
two districts.

                                   - 25 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                             EXHIBIT 4-1
                NON-TERRORISM AND TERRORISM MATTERS
                   REPORTED TO USAOs FROM THE FBI
                     FISCAL YEARS 2000 AND 2004
       Non-Terrorism Matters                               Terrorism Matters

                                       FY 2000   FY 2004




Source: OIG analysis of USA central case management system data


       Officials at five of the seven USAOs remarked that the FBI’s reduced
efforts in financial crime investigations have left a significant gap that no
other law enforcement agency has filled. These individuals indicated that
while other federal agencies handle such cases, they believe these agencies
are unable to address the issues to the same extent as the FBI in terms of
both the quantity and quality of cases.

       USAO officials made similar comments about the FBI’s reduced
emphasis on drug-related matters. However, some USAO officials said that
the DEA helped fill the gap by submitting additional cases for prosecution.
Chapters 5 through 11 contain more extensive information from USAO
officials as it relates to particular crime areas.

State and Local Law Enforcement Perspectives

      To obtain feedback from state and local law enforcement agencies, we
surveyed 3,514 state, local, and tribal law enforcement agencies located in
the jurisdictional areas of 12 FBI field offices. 33 In total, 1,265 agencies




       33
         The 12 FBI field offices were Atlanta, Chicago, Dallas, Denver, Detroit,
Los Angeles, Miami, New Orleans, New York City, Phoenix, San Francisco, and
Washington, D.C.


                                   - 26 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

responded to our survey, which equated to an overall response rate of
36 percent. 34

       We judgmentally selected 7 of the 12 FBI field office jurisdictions to
conduct fieldwork based on survey responses and analyses of FBI data. 35
We spoke with officials at the major police department located in each city
visited. In addition, at each site we judgmentally selected local law
enforcement agencies to visit. In this selection process, we used responses
to the survey, choosing departments that indicated they were either
negatively or positively affected by the FBI’s reprioritization. In total, we
spoke with officials at 47 departments in these 7 cities. We provide a list of
the agencies contacted in each jurisdictional area in Appendix VII.

Survey Analysis

       The overall responses to the survey indicated a minimal impact on
state and local law enforcement agencies as a result of the FBI’s shift in
investigative priorities and resources. The survey contained several
questions that asked whether the responding agency’s operations in various
investigative areas had been affected by the FBI’s reprioritization.
Participants were provided a scaled response to select whether the impact
was positive or negative, and the magnitude of such impact. A negative
impact was defined as an agency being impaired by the FBI’s shift in
priorities, such as if the agency experienced severe difficulty in handling the
type of investigation listed. A positive impact was defined as an agency
benefiting from the FBI’s reprioritization, such as if the agency significantly
enhanced its operations to successfully address the investigative area in
question.

      In response, many agencies indicated that their efforts in addressing
specific matters were only nominally impacted by any change at the FBI.


       34
           The 1,265 agencies responded in varying degrees. Some agencies answered all
of the survey questions, others answered all multiple choice survey questions except for the
open-ended questions, and others only answered a few questions. Our analyses detailed
throughout this report are based solely upon the number of actual responses to each
question. Appendix X lists the names of each state and local law enforcement agency that
responded to our survey. Some agencies responded more than once, which occurred
primarily with the larger-sized police departments. For example, the Chicago Police
Department submitted 17 individual responses to the survey, which came from its various
bureaus, divisions, and districts. Although not reflected in the figures presented in
Exhibit 1-2, the information provided in these multiple responses from the same agency are
reflected in our survey analyses.
       35
         We visited the following cities: Chicago, Los Angeles, Miami, New Orleans,
New York City, Phoenix, and San Francisco.

                                   - 27 -
                        REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE

The following exhibit presents a graphic display of our survey results for
general investigative areas of computer crime, drugs, organized crime,
terrorism, violent crime, and white-collar crime.

                         EXHIBIT 4-2
       SURVEY RESULTS OF THE IMPACT ON STATE AND LOCAL
         LAW ENFORCEMENT AGENCIES’ INVESTIGATIONS




           Source: OIG analysis of survey responses


       As shown above, at least 59 percent of respondents indicated that
they were not affected by the FBI’s reprioritization in each crime area, with
the exception of their investigative efforts on terrorism-related matters.
Although several noted no effects in terrorism-related matters, 32 percent
indicated that their departments experienced a positive impact from the
FBI’s shift in priorities. In turn, no more than 9 percent of survey
respondents remarked that they were impaired in any one investigative
area. Based on the survey responses, we found that the greatest adverse
effect on state and local law enforcement agencies pertained to white-collar
crime matters. The chapters that follow contain more in-depth analyses of
survey responses related to specific crime areas.

       In addition to determining whether state and local agencies were
affected by the FBI’s reprioritization, we sought the respondents’ opinion on
the FBI’s level of investigative efforts. In particular, we attempted to ascertain
if these agencies observed changes in the degree of FBI involvement in
addressing certain investigative areas. Exhibit 4-3 provides a snapshot of
these survey results.




                                  - 28 -
                       REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


                       EXHIBIT 4-3
 STATE AND LOCAL LAW ENFORCEMENT AGENCIES’ OBSERVATIONS
         OF CHANGES IN FBI INVESTIGATIVE EFFORTS
        COMPARISON OF CALENDAR YEARS 2000 TO 2004




         Source: OIG analysis of survey responses


      As depicted in Exhibit 4-3, the majority (at least 64 percent) noted that
they had not observed a change in the FBI’s level of investigative efforts in
any one area when comparing calendar years 2000 to 2004. Depending on
the investigative category, between 10 and 14 percent of respondents were
unaware, or uncertain, of any changes in the FBI’s efforts in traditional crime
matters.

       The survey also asked questions related to changes in the agencies’
crime rates between calendar years 2000 and 2004 at both an overall level
and within individual crime areas. The results showed that 52 percent
(581 out of 1,109 responses) experienced an increase, by varying degrees, in
their overall crime rate during our review period. In turn, 31 percent noted a
decline between calendar years 2000 and 2004, while the remaining
17 percent indicated no change in the crime rate. The following exhibit
displays the survey results to the question of overall crime rate changes
between calendar years 2000 and 2004.




                                 - 29 -
                      REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


                           EXHIBIT 4-4
     STATE AND LOCAL LAW ENFORCEMENT AGENCIES’ RESPONSE TO
             THE CHANGE IN THEIR OVERALL CRIME RATE
             BETWEEN CALENDAR YEARS 2000 AND 2004




          Source: OIG analysis of survey responses


      Our survey found that even though the FBI has reduced its
investigative effort in traditional crime matters over the last 4 years, state
and local law enforcement agencies indicated a minimal impact on their
operations resulting from the FBI’s shift in priorities and resources.
Additionally, the majority of survey respondents did not observe any change
within FBI operations on traditional crime matters.

Discussions with State and Local Officials

       As mentioned previously, we interviewed officials at 47 state and local
law enforcement agencies within the 7 locations visited. The majority
reported that they were aware of the FBI’s new priorities. However, some of
these officials were concerned about the FBI shifting its resources away from
traditional crime areas to focus them on counterterrorism issues. For
example, officials expressed concerns that because they continue to combat
traditional (non-terrorism) crimes and the FBI is less available to aide in
these local crime-fighting efforts, state and local departments have assumed
a greater investigative role, resulting in a greater caseload for their officers
and detectives. These officials said that while their departments have done
the best they can with available resources, they miss the FBI’s expertise and
the quality of its investigative tools. Particular concerns of these local
officials are discussed within the following chapters according to specific
crime type.


                                 - 30 -
                      REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE

Overview of Affected Crime Areas

       Some FBI officials we interviewed stated that the FBI’s more limited
presence in violent crime and white-collar crime had impaired the law
enforcement community’s efforts to address these crime areas, particularly
financial institution fraud and bank robberies. They added that state and
local law enforcement agencies generally do not have the necessary
resources or jurisdictional authority to effectively address many of these
violations, and they commented that no other law enforcement agency has
been able to compensate entirely for the FBI’s reduced efforts in these
areas.

      Our discussions with other federal agencies generally indicated that
these agencies were willing and in some cases eager to increase their
investigative efforts in those areas in which the FBI has reduced its
involvement. However, our review led us to conclude that there are specific
criminal areas in which the FBI’s shift of its priorities and resources has
affected investigative efforts, as we describe below.

Financial Crimes

       Of the types of criminal acts categorized as financial crimes, financial
institution fraud (FIF) incurred the most noticeable effect from the FBI’s shift
in priorities. From our analyses of FBI data, we found that the FBI was
minimally addressing FIF matters under $100,000 in FY 2004 as compared
to FY 2000. USAO representatives stated that this lessened involvement by
the FBI has created an investigative gap that no other law enforcement
agency has sufficiently filled.

      To a lesser extent, a gap exists within the law enforcement community
related to telemarketing and wire fraud. According to FBI and local law
enforcement officials, other law enforcement agencies have not assumed a
greater role in these areas due to a lack of resources, technical capability,
and jurisdictional authority. Chapter 5 contains more detail on these
financial crime matters.

Criminal Enterprises

       As noted previously, the FBI’s new Criminal Enterprise Branch
oversees all drug, gang, and organized crime investigations. The FBI’s most
significant reduction in agent resources occurred in its drug-related
investigations, resulting in decreased casework and overall investigative
effort in drug crimes. According to DEA field officials, the FBI’s reduced
efforts in drug-related crime had not impaired the DEA’s operations in large

                                  - 31 -
                       REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

metropolitan areas. However, the DEA officials raised concerns that smaller
urban areas were hurt by the FBI’s shift in emphasis because the DEA often
has a limited presence in these areas.

       With regard to gang-related investigations, our analyses revealed that
the FBI initiated more gang-related investigations during FY 2004 than
during FY 2000. Additionally, the FBI did not alter its agent utilization in the
investigation of gang-related matters between FYs 2000 and 2004.
Nonetheless, certain local law enforcement agencies indicated that they
received less investigative assistance from the FBI on gang cases. Further,
they commented that the law enforcement community in many metropolitan
areas could improve communication and coordination regarding gang-related
activity and investigations. A more detailed discussion on gang, drug, and
organized crime-related matters is contained in Chapter 6.

Fugitive Apprehension

       According to FBI data analysis and interviews with FBI and USMS field
managers, the FBI reduced its efforts in fugitive-related investigations since
FY 2000. According to USMS field officials, the FBI’s reduced involvement in
this area did not significantly impair the operations of other law enforcement
agencies. Further details about fugitive matters are contained in Chapter 7.

Bank Robberies

       According to the comments of federal, state, and local officials, the FBI
is no longer investigating bank robberies at the same level as it has in the
past. This was confirmed by our analyses of FBI data. Consequently, most
state and local agencies reported that they had experienced an increased
bank robbery caseload, which exceeded a few of these agencies’
investigative capabilities. Chapter 8 contains additional information on bank
robberies.

Identity Theft

       Identity theft was a major concern for the majority of the local law
enforcement officials we interviewed, and many said they expect criminal
activity in this area to increase in the coming years. They stated that the
nature of identity theft investigations is generally beyond the technical
capability and jurisdictional authority of state and local law enforcement
agencies. Although several federal agencies in addition to the FBI are
involved in addressing identity theft, we found no evidence of a coordinated
approach for combating this crime. Details on identity theft are conveyed in
Chapter 9.

                                - 32 -
                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

Public Corruption

       According to the FBI’s national priorities, public corruption is the FBI’s
highest criminal priority. Yet, the FBI’s agent utilization and casework data
revealed an overall reduction on public corruption matters. Our review
found that some FBI field offices were slow to make changes to emphasize
their public corruption investigations over lesser priority areas. However, in
FY 2005 the FBI has implemented an initiative to ensure that field offices are
appropriately emphasizing public corruption matters, and the FBI has
significantly increased its resource utilization in this area in FY 2005
compared to FY 2004. Chapter 10 contains additional details on public
corruption matters.

Other Crime Areas

       Both FBI and non-FBI law enforcement officials we interviewed cited
problems in investigating child pornography, human trafficking, and alien
smuggling, particularly insufficient resources to adequately address these
crimes. State and local law enforcement agencies, in turn, commented that
they lacked sufficient resources and the technical ability and jurisdictional
authority that often are required to handle these investigations. In addition,
in certain locations we identified a lack of coordination between the FBI and
other agencies on these types of cases. Further details about these crime
problems are discussed in Chapter 11.




                                - 33 -
                     REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


                     CHAPTER 5: FINANCIAL CRIMES

      The FBI’s White-Collar Crime (WCC) program can be separated into
the general areas of financial crimes and integrity in government crimes.
Financial crimes include fraud-related crimes such as corporate, health care,
and bank fraud. Integrity in government involves issues such as public
corruption and government fraud.

       In FY 2004, the FBI allocated 2,342 agent positions for all white-collar
crime matters throughout its field offices, which accounted for 41 percent of
the total resources allotted to program areas within the CID. 36 In conjunction
with its change in focus to terrorism-related matters, the FBI reduced the
number of positions it allocated for white-collar crime by 118 field agent
positions (or almost 5 percent) between FYs 2000 and 2004. As shown
previously in Exhibit 3-3, this was the least significant reduction within the
traditional crime program areas with the exception of Civil Rights.

       In our analysis of Agent On-Board (AOB) data, we found that the FBI
was using approximately 500 fewer agents on white-collar crime matters
when comparing utilization data for FY 2004 to data for FY 2000. During
FY 2000, the FBI utilized 2,385 agents on these investigations while the
number of on-board agents dropped to 1,882 during FY 2004. Exhibit 5-1
compares the allocation of white-collar crime positions to the actual utilization
of FBI resources for FYs 2000 and 2004. During each of these FYs, the FBI
utilized fewer agents on white-collar crime matters than it allocated. The
FY 2004 difference between allocated and actual was six times greater than
FY 2000’s variation.




       36
          The FBI does not separately allocate field agent positions between financial crimes
and public corruption. Thus, the figures reported within this section of the report include all
white-collar crime areas. However, the remainder of this chapter focuses solely on financial
crime matters. Chapter 10 discusses integrity in government crimes.

                                    - 34 -
                         REDACTED FOR PUBLIC RELEASE
                           REDACTED FOR PUBLIC RELEASE

                                    EXHIBIT 5-1
                   ALLOCATION AND UTILIZATION OF FBI AGENTS ON
                           WHITE-COLLAR CRIME MATTERS
                            FISCAL YEARS 2000 AND 2004




                   Source: OIG analysis of FBI RMA Office and TURK data


      The FBI also opened 7,992 fewer white-collar crime cases during
FY 2004 than in FY 2000. In FY 2000, the FBI opened 19,893 cases, whereas
in FY 2004 it opened 11,901 cases.

FBI Financial Crimes Focus

      The FBI is the primary federal investigative agency that investigates
financial crimes. No other federal agency has the investigative authority to
handle the range of financial-related violations as the FBI. Although other
federal agencies are involved in certain areas, such as health care fraud,
these agencies are more narrowly focused in their investigations. The FBI
has the authority to investigate nearly all violations in the financial arena,
including securities, health care, and bank fraud. The FBI’s national financial
crime priorities are listed in Exhibit 5-2.

                                         EXHIBIT 5-2
                    FBI NATIONAL FINANCIAL CRIME PRIORITIES 37
            1.   Securities and Commodities Fraud
            2.   Health Care Fraud
            3.   Financial Institution Fraud
            4.   Money Laundering
            5.   Insurance Fraud
            Source: FY 2005 FBI Program Plans


       37
           The priorities established by FBI Headquarters covered the entire White-Collar Crime
Program, including both public corruption and financial crimes. This list only presents the
financial crime national priorities. However, in relation to all white-collar crime matters, public
corruption is the FBI’s top priority. Moreover, the FBI’s national non-priority areas in financial
crimes include telemarketing fraud and bankruptcy fraud.

                                      - 35 -
                           REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

Overall Changes within the FBI’s Financial Crime Efforts

       In the area of financial crimes, the FBI experienced reductions in agent
utilization and case openings between FYs 2000 and 2004. In August 2002,
the FBI revised its established dollar-related thresholds for addressing
financial crime investigations, which has generally limited its investigations to
high-dollar matters. We found that these changes have affected other law
enforcement agencies in certain jurisdictional areas, especially in the area of
financial institution (or bank) fraud, as detailed in the sections that follow.

FBI Agent Utilization and Casework Data

       Apart from its overall allotments to white-collar crime, the FBI does not
allocate funded agent positions to specific financial crimes except health care
fraud, which is discussed later in this chapter. Therefore, we were unable to
provide an overview of agent allocation changes to financial crimes. However,
we were able to assess the FBI’s actual agent utilization in financial crime
matters. Our analyses show that the FBI’s investigative personnel resources
for financial crime investigations decreased from 1,641 on-board agents in
FY 2000 to 1,335 in FY 2004, or an almost 20 percent reduction.

      We also identified differences in the utilization of agents on financial
crime matters for the seven field offices we visited (presented in Exhibit 5-3).
Six of the seven offices used fewer agents on these investigations during
FY 2004 than in FY 2000, with the Phoenix Field Office experiencing the
greatest reduction of 50 percent.

                           EXHIBIT 5-3
        FBI AGENT UTILIZATION ON FINANCIAL CRIME MATTERS
                  FOR THE FIELD OFFICES VISITED
                   FISCAL YEARS 2000 AND 2004
                         FY 2000          FY 2004   Change in     Change in
    Field Office
                           AOB              AOB      Number        Percent
  Chicago                   71               59        -12          -17%
  Los Angeles              131              103        -28          -21%
  Miami                     70               63         -7          -10%
  New Orleans               28               20         -8          -29%
  New York City            120              125          5           4%
  Phoenix                   28               14        -14          -50%
  San Francisco             41               37         -4          -10%
  Source: OIG analysis of FBI TURK data


     Likewise, the FBI’s casework data showed that the FBI opened
6,939 fewer financial crime cases between FYs 2000 and 2004, decreasing from
17,402 cases to 10,463. Moreover, each of the field offices we visited
                                   - 36 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

experienced at least a 24 percent reduction in financial crime case openings.
Exhibit 5-4 provides data on the changes occurring at each of these offices.

                                EXHIBIT 5-4
                    FBI FINANCIAL CRIME CASE OPENINGS
                       FOR THE FIELD OFFICES VISITED
                        FISCAL YEARS 2000 AND 2004
                       FY 2000          FY 2004
                                                   Change in      Change in
   Field Office          Case             Case
                                                    Number         Percent
                       Openings         Openings
 Chicago                  461              209       -252           -55%
 Los Angeles              425              325       -100           -24%
 Miami                    383              197       -186           -49%
 New Orleans              299              144       -155           -52%
 New York City            413              315        -98           -24%
 Phoenix                  297              100       -197           -66%
 San Francisco            150               94        -56           -37%
 Source: OIG analysis of FBI ACS data


Impact on FBI Financial Crime Operations

       At each site we visited, FBI officials indicated that they place more
emphasis on those financial crime areas near the top of the FBI’s national
priorities (previously presented in Exhibit 5-2). As a result, FBI officials at
many of these locations said they have reduced investigative efforts in low-
dollar financial institution fraud (FIF or bank fraud) matters and low priority
areas like telemarketing fraud and other wire/mail fraud. To identify high-
level investigations, FBI field offices have implemented dollar-related
thresholds to determine whether to open a case. These thresholds and their
effect are discussed in further detail in the FIF section of this chapter.

      We also observed various levels of FBI involvement in financial crime
matters during our site visits. For instance, the FBI Miami Field Office
essentially maintained the same number of financial crime squads between
FYs 2000 and 2004 with only a slight reduction in agent resources. In
contrast, the number of investigative squads focused on financial crime
matters in the FBI Phoenix Field Office declined during this same period from
five white-collar crime squads in FY 2000 to two in FY 2004, both of which
focused almost exclusively on public corruption matters.

Impact on Other Law Enforcement Agencies’ Financial Crime Efforts

      In general, the other federal agencies we visited were primarily
involved in other crime areas and were not heavily involved in financial crime
investigations either before or after the FBI’s reprioritization. Therefore, the

                                   - 37 -
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

FBI’s reduced efforts in financial crimes have not affected their operations.
However, USAO representatives and USAO case management data indicated
that the FBI’s reprioritization has resulted in fewer financial-related matters
being referred for U.S. Attorney review and prosecution. Additionally, several
state and local law enforcement agency officials commented that their
departments and communities were negatively affected by the FBI’s
decreased efforts in certain financial crime areas.

Other Federal Law Enforcement Agencies

       Of all the federal agency officials we interviewed, only USAO officials
commented on the FBI’s reduced financial crime investigative efforts and the
resulting reduction in criminal matters being referred to the USAO for review
and prosecution. According to USAO case management data, actual FBI
financial crime matters referred to the USAOs declined from 6,794 to 4,193
between FYs 2000 and 2004, a reduction of almost 40 percent.

      In certain instances, the USAO representatives commented that they
attempted to encourage other federal agencies, such as the U.S. Postal
Inspection Service or Internal Revenue Service (IRS), to increase their
investigative efforts in financial crime matters. Generally, the USAO officials
we interviewed considered non-FBI agencies to be able to conduct most
financial crime investigations. However, these officials noted that the FBI
remains the premier investigative agency for financial-related matters.
These officials said they did not believe another agency was as capable as
the FBI on highly complex cases or capable of completely backfilling any
investigative gap resulting from the FBI’s reduced financial crime efforts.

       In addition, officials at six USAOs commented on the experience level
of FBI agents who are still handling traditional crime matters, including
financial crime cases. Some of these officials said the FBI took experienced
agents from the white-collar crime area and moved them to
counterterrorism squads. According to these prosecutors, the sophistication
of financial crime cases requires significant experience to effectively address
case needs. With fewer experienced agents left to handle these complex
investigations, these prosecutors commented that the quality of FBI financial
crime cases has been affected.

State and Local Law Enforcement Agencies

      Several of the state and local law enforcement agency representatives
that we interviewed indicated that their operations related to financial crime
matters were negatively affected by the FBI’s changed priorities. They
commented that since the FBI’s shift in priorities there has been less FBI

                               - 38 -
                    REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


involvement on their cases, primarily because the cases did not meet the
FBI’s investigative threshold. In many locations, the officials specifically
noted that FIF investigations were impaired the most. Many remarked that
their agencies did not have sufficient resources or expertise to effectively
handle these matters by themselves. As a result, they believed many FIF
crimes were unaddressed.

      According to our survey of state and local law enforcement officials,
the majority responded that their white-collar crime investigations were not
affected by the FBI’s new priorities, while 106 out of 1,231 respondents (or
9 percent) indicated a negative impact on their investigative efforts in this
area. Exhibit 5-5 presents these survey results.

                           EXHIBIT 5-5
       SURVEY RESULTS OF THE IMPACT ON STATE AND LOCAL LAW
    ENFORCEMENT AGENCIES’ WHITE-COLLAR CRIME INVESTIGATIONS




             Source: OIG analysis of survey responses


      The following sections of this chapter provide more detailed analysis of
the FBI’s investigative changes by specific financial crime areas.
Specifically, we discuss FIF, telemarketing and wire fraud, health care fraud,
and corporate fraud. Additionally, we provide comments obtained from non-
FBI law enforcement officials related to each area, including any perceived
impact on their law enforcement operations.

Financial Institution Fraud (Bank Fraud)

       A variety of criminal acts can be categorized as FIF, including bank
failures, check fraud, and loan fraud. [SENSITIVE INFORMATION
REDACTED]

       In general, FBI officials at each field office we visited stated that their
offices had de-emphasized low-dollar FIF investigations and essentially left

                                 - 39 -
                      REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE

them for other law enforcement agencies to handle. While none of the
offices had completely stopped investigating these matters, all reported that
they limited their efforts to the most significant cases.

Statistical Analyses

       We analyzed FBI agent utilization and casework data to assess the
level of FBI investigations involving FIF matters. Specifically, we determined
the changes occurring within the FBI overall and at the field office level
between FYs 2000 and 2004. Additionally, we reviewed the FBI data
according to the dollar losses involved on these investigations, in particular
FIF matters under $100,000 and those greater than or equal to $100,000.
We performed similar analyses of USAO case management data to identify,
from the USAOs’ perspective, the changes resulting from the FBI’s reduced
emphasis on FIF matters.

       FBI’s Overall FIF Efforts – Our analyses of FBI data support FBI
officials’ reports of decreased investigative efforts on FIF matters. During
FY 2000, 499 agents worked on FIF cases. This number dropped to 337
during FY 2004 – a decrease of 162 agents, or 32 percent. Similarly, the
FBI opened 5,011 fewer FIF cases in FY 2004 than in FY 2000 – decreasing
from 10,383 cases in FY 2000 to 5,372 in FY 2004.

      USAO case management data demonstrates that the FBI was the
primary federal law enforcement agency investigating FIF matters in both
FYs 2000 and 2004. In FY 2000, the FBI contributed 81 percent of all FIF
matters referred to the USAOs. Although this proportion dropped to
67 percent in FY 2004, the FBI remained the predominant agency providing
FIF matters to the USAOs. Between FYs 2000 and 2004, the USAOs received
a total of 1,701 fewer FIF matters from federal agencies. The FBI essentially
accounted for all of this decrease, reducing its FIF referrals by 1,700.

      The 7 FBI field divisions we visited reduced the number of FIF referrals
to their respective USAOs, with 6 divisions decreasing referral numbers at
least 40 percent. The FBI New York City Division was an anomaly,
decreasing its FIF referrals by only 4 percent. The following exhibit provides
the total number of FIF referrals to USAOs. This table also shows overall FBI
referral numbers, as well as referral figures for those field divisions in which
we conducted fieldwork.




                                  - 40 -
                       REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


                             EXHIBIT 5-6
    FINANCIAL INSTITUTION FRAUD MATTERS RECEIVED BY THE USAOs
                     FISCAL YEARS 2000 AND 2004
                                            Number    Percentage
                  FY 2000      FY 2004
                                            Change      Change
All Federal
                           4,000             2,299                -1,701             -43%
Agencies

FBI Field Office
Jurisdictions 38:
All Divisions              3,243             1,543                -1,700             -52%
Chicago                     143                44                   -99              -69%
Los Angeles                  72                43                   -29              -40%
Miami                        52                19                   -33              -63%
New Orleans                 103                24                   -79              -77%
New York City               104               100                    -4               -4%
Phoenix                      13                2                    -11              -85%
San Francisco                34                20                   -14              -41%
Source: OIG analysis of USA central case management system data


     As our analysis of USAO data illustrates, other federal investigative
agencies did not replace the FBI’s reduced efforts in FIF matters.

      FBI’s FIF Efforts Relative to Dollar Loss – From our review of individual
FIF classifications, we found that FBI agents spent nominal time investigating
FIF matters involving losses under $100,000 during FY 2004, [SENSITIVE
INFORMATION REDACTED]. FBI agents were primarily utilized on FIF
investigations involving losses greater than or equal to $100,000. The
following exhibit provides a proportional perspective of FBI agent utilization on
FIF matters for FYs 2000 and 2004.




       38
            The FBI’s field office jurisdictions usually coincide with a USAO district; however, in
some instances an FBI field office jurisdiction includes more than one USAO district. Following
are the FBI field office jurisdictions listed in this exhibit with their corresponding USAOs: FBI
Chicago Division – Northern District of Illinois USAO; FBI Los Angeles Division – Central
District of California USAO; FBI Miami Division – Southern District of Florida; FBI New Orleans
Division – Eastern, Middle, and Western Districts of Louisiana; FBI New York City Division –
Eastern and Southern Districts of New York; FBI Phoenix Division – District of Arizona USAO;
and FBI San Francisco Division – Northern District of California USAO. The figures presented
incorporate the criminal matters submitted to the USAOs within these FBI jurisdictions.



                                    - 41 -
                         REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


                              EXHIBIT 5-7
                     FBI FIELD AGENT UTILIZATION
               ON FINANCIAL INSTITUTION FRAUD MATTERS
                     FISCAL YEARS 2000 AND 2004 39


                 FY 2000                                          FY 2004




   Source: OIG analysis of FBI TURK data


       We further analyzed FIF matters associated with dollar-related losses
of less than $100,000 and those with losses greater than or equal to
$100,000. The FBI experienced overall agent utilization reductions in both
areas, but at a much greater level for the lower-dollar investigations. For
FIF matters under $100,000, the FBI used over 80 percent fewer agents in
FY 2004 than it had in FY 2000, decreasing from 111 on-board agents to 20.
In contrast, the agent utilization decline on FIF matters with losses greater
than or equal to $100,000 was not as substantial. During FYs 2000 and
2004, the FBI utilized 287 and 243 agents, respectively, or a reduction of
44 agents (15 percent).

       Of the field offices we visited, the FBI’s data shows that each office
used fewer agents on FIF investigations under $100,000. Almost all offices
had reduced their efforts on these cases to less than one AOB agent. We also
noted that several offices experienced significant decreases in on-board
agents for FIF investigations greater than or equal to $100,000. Two offices
(New Orleans and New York City) slightly increased the number of agents
involved on these cases during our review period. Exhibit 5-8 details the
agent utilization changes that occurred between FYs 2000 and 2004 at the
FBI field offices we visited, as well as the FBI’s overall agent utilization
changes on such matters.




       39
         Other FIF Matters consist of FBI investigative classifications to which a dollar
amount is not associated.

                                    - 42 -
                         REDACTED FOR PUBLIC RELEASE
                            REDACTED FOR PUBLIC RELEASE


                                 EXHIBIT 5-8
 FBI FIELD AGENT UTILIZATION ON FINANCIAL INSTITUTION FRAUD MATTERS
                         FISCAL YEARS 2000 AND 2004
                      UNDER $100,000                $100,000 AND OVER
 Field Office  FY 2000 FY 2004 Change in     FY 2000     FY 2004   Change in
                 AOB      AOB       AOB        AOB         AOB        AOB
Chicago           4.0      0.1      -3.9       15.8        15.2       -0.6
Los Angeles       0.7      0.1      -0.6       34.8        17.3      -17.5
Miami             0.7      0.1      -0.6        9.7         7.3       -2.4
New Orleans       4.0      0.7      -3.3        3.2         3.9        0.7
New York City     1.8      0.4      -1.4       23.0        23.5        0.5
Phoenix           1.9      0.1      -1.8        2.0         1.4       -0.6
San Francisco     1.0      0.1      -0.9        6.4         2.1       -4.3
Total of Sites
                 14.1      1.6     -12.5       94.9        70.7      -24.2
  Visited
Total of FBI
                111.2     19.7     -91.5      287.3       243.2      -44.1
  Overall
Source: OIG analysis of FBI TURK data


         Evaluation of FBI casework data provided similar results to that of our
   agent utilization analyses. Each of the FBI sites we visited initiated fewer FIF
   investigations during FY 2004 than during FY 2000. Exhibit 5-9 lists the
   changes in the number of case openings occurring within these locations for
   our review period. As evidenced in that exhibit, all but 1 of the 7 field offices
   opened fewer than 10 FIF cases under $100,000 in FY 2004.

                                EXHIBIT 5-9
        FBI CASE OPENINGS OF FINANCIAL INSTITUTION FRAUD MATTERS
                        FISCAL YEARS 2000 AND 2004
                     UNDER $100,000               $100,000 AND OVER
 Field Office  FY 2000 FY 2004   Change     FY 2000    FY 2004    Change
Chicago          114       1       -113       129         46        -83
Los Angeles       6        2         -4        73         55        -18
Miami             27       2        -25        51         16        -35
New Orleans      105      23        -82        35         26         -9
New York City     27       9        -18        85         55        -30
Phoenix          167       2       -165        23          9        -14
San Francisco     44       5        -39        24         12        -12
      Totals     490      44       -446       420        219       -201
Source: OIG analysis of FBI ACS data


   Impact on Law Enforcement Community

         During our fieldwork, we obtained comments from non-FBI law
   enforcement officials regarding the FBI’s reduced FIF efforts.




                                       - 43 -
                            REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

       USAO Perspectives – In our discussions with the USAOs, prosecutors in
the various districts had different views about the impact of the FBI’s reduced
FIF investigative efforts. For instance, [SENSITIVE INFORMATION
REDACTED]. Representatives from both these USAOs stated that the FBI was
referring fewer FIF cases for prosecution and that no other federal agency
had increased the number of FIF matters to compensate for the FBI’s reduced
efforts in this area. However, the USAO official in Chicago indicated that his
office was interested in receiving matters that are below the FBI’s threshold
while the federal prosecutor in San Francisco was satisfied with the FBI
investigating only the most egregious violations. These two prosecutors, as
well as prosecutors from the Southern District of New York, did not believe
that any other law enforcement agency was able to fill the investigative gap
resulting from less FBI effort in this area.

       State and Local Law Enforcement Perspectives – State and local law
enforcement officials at several field office jurisdictions we visited raised
concerns about FIF issues. In particular, they stated that the FBI was less
available to assist their agencies in addressing these crimes. One local official
in South Florida commented that he stopped requesting assistance from the
FBI because he was repeatedly turned down. Several other officials also
remarked that they were aware of the FBI’s dollar-related thresholds, and
many times only approached the FBI when they had a case exceeding those
limits.

      In the past, these local agencies said they relied on the FBI’s
assistance in investigating these crimes. Now, without the FBI’s
involvement, these agencies are left to handle bank fraud matters on their
own. The local officials said this has caused problems because their
agencies do not have sufficient resources or the expertise to effectively
investigate these cases. They said that as a result, many of these crimes
are unaddressed. In addition, the officials said they believed that FIF crimes
could escalate in the coming years.

       In our survey of state and local law enforcement agencies, we asked
participants if the FBI’s shift in priorities had any effect on their
investigations of FIF matters with losses greater than or equal to $100,000
and those under $100,000. The majority reported that their investigation of
these cases was not affected by the FBI’s reprioritization. However, a few
agencies noted an adverse impact on such investigations. Specifically, 101
out of 1,223 responses, or 8 percent, indicated varying degrees of negative
impact on FIF matters under $100,000. Exhibit 5-10 illustrates the survey
results as related to FIF investigations.



                                - 44 -
                     REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


                            EXHIBIT 5-10
              SURVEY RESULTS RELATED TO THE IMPACT ON
            STATE AND LOCAL LAW ENFORCEMENT AGENCIES’
            FINANCIAL INSTITUTION FRAUD INVESTIGATIONS




                 Source: OIG analysis of survey responses

Conclusions on Financial Institution Fraud Matters

       Overall, we determined that FBI field divisions reduced their efforts on
FIF investigations, and it does not appear that any other law enforcement
agency has fully replaced the FBI’s contributions. Consequently, an
investigative gap exists for low-dollar FIF matters. These results were
supported by USAO representatives and state and local law enforcement
officials, who believed that no other agency has filled the gap and that a
portion of FIF crimes are not being investigated.

Telemarketing and Wire Fraud

      According to the FBI, telemarketing fraud, which often transcends state
and international boundaries, is an escalating crime problem. Nonetheless, in
line with its financial crime priorities, since the FBI’s reprioritization it has
reduced its efforts in investigating telemarketing and wire fraud.

       The operations of some state and local law enforcement agencies have
been affected by the FBI’s decreased efforts in telemarketing and wire fraud
matters, although to a lesser extent than for FIF. Telemarketing and wire
fraud crimes tend to cross multiple jurisdictions, which hinder state and local
departments’ investigations. Moreover, FBI officials commented that no
other federal investigative agency has the resources available to devote
significant time to these investigations. As a result, the FBI officials believed
that some of these telemarketing and wire fraud crimes are not being
investigated.

                                 - 45 -
                      REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


Statistical Analyses

       The FBI uses two investigative classifications to track its involvement
in telemarketing and wire fraud matters: Classifications 196A
(Telemarketing Fraud) and 196D (Other Wire & Mail Fraud Schemes). We
analyzed the changes in resource utilization and case openings for each of
these classifications between FYs 2000 and 2004. The analyses were
conducted for the FBI’s overall efforts, as well as at the field office level.
Further, we reviewed USAO case management data to determine the change
in FBI referrals to USAO prosecutors.

      Overall FBI Efforts – The FBI’s agent utilization data indicates fewer
resources were used on Classifications 196A and 196D matters in FY 2004
than in FY 2000. Exhibit 5-11 illustrates the AOB changes that occurred in
these two areas during our review period. As shown, 60 agents addressed
telemarketing fraud in FY 2000, while only 16 were used in FY 2004. This
resulted in a reduction of 44 on-board agents, or 74 percent. Similarly, the
FBI used almost 80 fewer agents on other wire and mail fraud schemes in
FY 2004 than in FY 2000, decreasing from 244 agents in FY 2000 to
165 agents in FY 2004.

                              EXHIBIT 5-11
                    FBI FIELD AGENT UTILIZATION FOR
            CLASSIFICATIONS 196A (TELEMARKETING FRAUD) AND
                196D (OTHER WIRE & MAIL FRAUD SCHEMES)
                    FISCAL YEARS 2000 THROUGH 2004




           Source: OIG analysis of FBI TURK data



                                  - 46 -
                       REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

       Data from the FBI’s ACS system further showed that the FBI reduced its
efforts on these investigative matters. Specifically, the FBI opened 159 fewer
telemarketing fraud cases during our review period –215 cases in FY 2000 to
56 in FY 2004. Likewise, the FBI initiated 1,727 other wire and mail fraud
cases during FY 2000 and 1,062 during FY 2004 – a reduction of 665 cases, or
almost 40 percent.

       USAO case management data were consistent with the reported FBI
reductions in telemarketing fraud investigations. The FBI submitted 18 fewer
referrals on telemarketing fraud matters to USAOs during our review period,
referring 31 such matters in FY 2000 compared to 13 in FY 2004.

       FBI Field Efforts – Based upon FBI data, many of the FBI divisions we
visited experienced reductions in terms of agent utilization and casework for
both telemarketing and wire fraud classifications during our review period.
FBI officials at some of these offices also remarked that they had lessened
their efforts in these fraud areas. For example, an FBI official in Phoenix
stated that, in response to the FBI’s reprioritization efforts, the office had
stopped handling telemarketing fraud cases and disbanded its telemarketing
fraud task force. This official said that telemarketing fraud is a significant
problem in Arizona, and the U.S. Postal Inspection Service has attempted to
increase the number of telemarketing fraud investigations, but there was
only so much it could do with its available resources.

Impact on Law Enforcement Community

       None of the other federal investigative agencies we interviewed during
our site visits were involved in addressing telemarketing fraud or wire fraud.
However, we surveyed state and local law enforcement agencies about
telemarketing and wire fraud matters. The majority of the respondents
(about 60 percent) reported that their operations had not experienced any
consequences, good or bad, from the FBI’s reduced efforts in the
telemarketing and wire fraud arenas. Our survey revealed that 7 percent of
respondents (81 out of 1,224 responses) said they had been negatively
affected in these criminal areas, the same percentage who indicated a
positive impact on their operations resulting from the FBI’s changes.

       Analyses of the survey responses by FBI field office jurisdiction showed
that some jurisdictions indicated a greater impact than others. From this
analysis, agencies within the Denver, Miami, and Phoenix FBI Field Office
jurisdictions experienced the greatest adverse effect related to telemarketing
and wire fraud matters, with 12 percent of respondents in each city indicating
a negative impact. The following exhibit illustrates the results by field office.


                                - 47 -
                     REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


                              EXHIBIT 5-12
           SURVEY RESULTS OF THE IMPACT ON STATE AND LOCAL
               LAW ENFORCEMENT AGENCIES’ TELEMARKETING
                     AND WIRE FRAUD INVESTIGATIONS
               ACCORDING TO FBI FIELD OFFICE JURISDICTION
                   Negative        No          Positive      Not
  Field Office
                    Impact       Impact        Impact     Applicable
Atlanta               4%          56%            9%         31%
Chicago                4%         63%            5%         28%
Dallas                3%          59%            4%         34%
Denver                12%         52%            7%         29%
Detroit               9%          54%           10%         27%
Los Angeles            7%         70%            3%         20%
Miami                 12%         64%            3%         21%
New Orleans            3%         56%           14%         27%
New York City         6%          64%            5%         25%
Phoenix               12%         64%            5%         19%
San Francisco         11%         69%            3%         17%
Source: OIG analysis of survey responses


Conclusions on Telemarketing and Wire Fraud

       Our analyses of FBI data showed that the FBI reduced its investigative
efforts on telemarketing and wire fraud matters, using fewer agents to
address these matters and opening fewer cases since FY 2000. In addition,
some FBI field officials commented that their offices had placed less
emphasis on handling these matters than in the past. Based on the data we
analyzed and the interviews we conducted, it appears that the FBI’s reduced
presence has created an investigative gap in the area of telemarketing and
wire fraud because no other section of the federal law enforcement
community has significantly increased its efforts in this area.

Health Care Fraud

       According to USAO representatives, health care fraud is a significant
criminal problem that is expected to increase during the coming years.
According to the FBI, several FBI field offices rank health care fraud as their
number one white-collar crime problem. In its investigative efforts in this
area, the FBI focuses its health care fraud resources on multi-district cases
of large health care corporations suspected of committing fraud against
government programs and private entities, such as insurance companies,
businesses, or individuals. In addition to the FBI, the Department of Health
and Human Services (HHS) OIG conducts many health care fraud
investigations, either by itself or jointly with the FBI.




                                    - 48 -
                         REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

FBI Investigative Efforts

      Health care fraud is the FBI’s second highest national priority for
financial crime matters. However, our analysis of FBI data showed that
fewer agents were addressing these matters in FY 2004 than in FY 2000,
and that the FBI opened fewer health care fraud cases during this time
period. Additionally, the FBI utilized fewer agents than allocated for health
care fraud investigations.

      Allocated Agent Positions – Beginning in FY 2003, the FBI allocated field
agent positions specifically for health care fraud. Since 1997, the FBI has
received funding for its health care fraud efforts through reimbursement from
a specialized expenditure account created by the Health Insurance Portability
and Accountability Act of 1996 (hereafter referred to as the HIPAA account). 40

       In FY 2003, the FBI allocated 449 funded agent positions to health
care fraud matters. In FY 2004, the total funded staffing level (FSL) had
decreased to 420. According to FBI officials, the number of positions
allocated to health care fraud is calculated by determining how many agents
can be funded by the reimbursement agreement. They said that the number
of allocated agents has decreased since FY 2003 because rising salary costs
resulted in reimbursement for fewer agents. Prior to FY 2003, the FBI did
not specify how many of its white-collar crime FSLs were intended for health
care fraud matters; thus, we were unable to compare the change in funded
positions between FYs 2000 and 2004.

      Actual Agent Utilization – The FBI utilized 418 agents in health care
fraud matters during FY 2000. In FY 2004, this number decreased to
377 agents, a reduction of 41 agents.

      Moreover, the FBI’s utilization of 377 agents on health care fraud
matters in FY 2004 was less than the number of allocated agent positions for
such matters. The FBI intended to use 420 field agents in the area of health
care fraud, a difference of more than 40 agent positions. As noted
previously, we were informed by the FBI that the number of positions
allocated to health care fraud is calculated by determining how many agents
can be funded by the reimbursement agreement. Therefore, this is a
concern because the FBI is utilizing fewer agents on health care fraud
matters than allocated to this area and the FBI is being reimbursed by the
HIPAA Account for its efforts. The GAO recently issued a report on the FBI’s
health care fraud reimbursements and found that the FBI was utilizing fewer

       40
          This account is co-administered by the HHS OIG and the Department of Justice.
The appropriations are in specified amounts for each fiscal year. Since FY 2003, the FBI’s
funding has amounted to $114 million per year. Pub. L. No. 104-191 (1996).

                                   - 49 -
                        REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE

agents than budgeted. 41 In response, the FBI initiated an extensive manual
review to identify other, non-agent salary costs attributable to its health care
fraud efforts. 42 Further, at our exit conference the FBI provided evidence
that it increased its efforts related to health care fraud in FY 2005 compared
to FY 2004.

       Case Openings – Our analysis of FBI ACS data revealed that the FBI
initiated 163 fewer health care fraud cases in FY 2004 than in FY 2000,
equating to a 13 percent reduction. During FY 2000, the FBI opened
1,244 health care fraud investigations compared to 1,081 cases during
FY 2004.

      Field Office Perspectives – Four of the 7 FBI field offices we visited
(Chicago, Los Angeles, Miami, and New York City) accounted for almost
30 percent of the FBI’s total FY 2004 agent utilization on health care fraud
investigations. Each of these offices also had more agents addressing these
matters in FY 2004 than in FY 2000 (as did the San Francisco Field Office).
In contrast, the New Orleans and Phoenix Divisions used fewer agents for
health care fraud in FY 2004 compared to FY 2000.

       According to FBI managers in Miami, South Florida is the epicenter for
health care fraud violations. To help combat this problem, the Miami Division
has dedicated two squads entirely to health care fraud investigations.
However, this FBI official noted that this type of fraud is so problematic in the
division’s jurisdiction that the FBI could easily use a third squad to investigate
these matters.

        To assist in the coordination of health care fraud investigative efforts
in Miami, the FBI constructed an off-site facility dedicated solely to health
care fraud investigations. The purpose of this facility is to allow FBI agents
to work side-by-side on these investigations with personnel from other
agencies, such as HHS OIG investigators and federal prosecutors. The
facility also serves as a central location for storing health care fraud case
files. FBI officials in Miami believed that this facility has enhanced
relationships among various agencies and suggested that other large FBI



       41
         Government Accountability Office. Federal Bureau of Investigation:
Accountability over the HIPAA Funding of Health Care Fraud Investigations Is Inadequate,
Report Number GAO-05-388, April 2005.
       42
          The GAO recommended that the FBI establish policies and procedures to report
and adequately support the costs of its health care fraud investigations. The FBI agreed
with the recommendation and acknowledged the need to establish control mechanisms to
monitor both personnel and non-personnel costs.

                                  - 50 -
                       REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE

offices, such as New York City, Chicago, and Los Angeles, would benefit from
establishing similar facilities.

Impact on Law Enforcement Community

       As mentioned previously, the HHS OIG is the other federal agency
primarily involved in health care fraud investigations. 43 Because most
health care fraud lies outside the jurisdictional purview of state and local law
enforcement agencies, the state and local officials we interviewed did not
raise this issue.

       We obtained the USAO’s perspective on the FBI’s health care fraud
efforts through review of USAO case management data and our interviews
with USAO officials. The USAO data reflected reduced FBI efforts related to
health care fraud over the past 5 years. However, comments from
prosecutors at various USAOs were mixed. While representatives at some
USAOs stated that the FBI was not as active in its health care fraud efforts
as it was prior to 9/11, prosecutors from other USAOs we visited said the
FBI continued its aggressive efforts in combating such violations.

      USAO Case Management Data – Analysis of USAO case management
data demonstrated that the FBI and the HHS OIG, combined, accounted for
approximately 90 percent of health care fraud referrals to the USAOs during
FYs 2000 and 2004. In FY 2000, the FBI made 82 percent of such referrals.
However, as Exhibit 5-14 shows, the FBI decreased its referrals by 231
between FYs 2000 and 2004. Although the HHS OIG provided 77 more health
care fraud matters to the USAOs during this period, the FBI’s 444 referrals
accounted for 70 percent of the total health care fraud matters received by
USAOs in FY 2004 while HHS OIG referrals accounted for 22 percent of the
referred matters. Moreover, total health care fraud referrals declined by
193 matters from FY 2000 to FY 2004, evidencing that despite the HHS OIG’s
increased efforts other law enforcement agencies have not fully compensated
for the FBI’s reduced investigative efforts in this area.




      43
          The HHS OIG was not one of the federal agencies visited during our audit.
Therefore we cannot comment on the impact of the FBI’s reprioritization on the HHS OIG’s
operations.

                                  - 51 -
                       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                             EXHIBIT 5-14
           HEALTH CARE FRAUD MATTERS RECEIVED BY THE USAOs
                      FISCAL YEARS 2000 AND 2004
                                            Number
                    FY 2000     FY 2004               Percent Change
                                             Change
Total Referrals       824         631         -193         -23%
FBI                          675             444            -231        -34%
HHS OIG                        60            137               77       128%
Source: OIG analysis of USA central case management system data


       USAO Officials’ Perspective – Prosecutors at some USAO districts
 mentioned that the FBI’s involvement on health care fraud matters has
 lessened since 9/11, corroborating USAO case referral decreases shown in
 Exhibit 5-14. For example, USAO officials in the District of Arizona
 commented that the FBI’s health care fraud task force was more active prior
 to 9/11 than it is currently. In addition, USAO representatives from the
 Southern District of New York stated that they received significantly fewer
 cases from the FBI in recent months compared to pre-9/11.

 Conclusions on Health Care Fraud

       Our analyses revealed that the FBI has experienced reductions in both
 its overall agent utilization and case openings between FYs 2000 and 2004 on
 health care fraud investigations. Similarly, data from the USAO also showed
 that the FBI referred fewer health care fraud matters to the USAOs in
 FY 2004 than in FY 2000.

      In addition, fewer FBI agents worked health care fraud matters in
 FY 2004 than the FBI had intended (underburn). Since the FBI receives
 congressional funding for its agent positions involved in health care fraud
 matters, we believe that the FBI must accurately convey the number of
 agents that will actually be investigating this crime area.

 Corporate (Securities) Fraud

       Corporate or securities fraud is the FBI’s top priority within the financial
 crimes arena. The FBI has placed increased emphasis on this investigative
 area, primarily a result of the events surrounding the Enron bankruptcy.

 Statistical Analyses

       Our analysis of the FBI’s agent utilization data confirms the prominence
 the FBI puts on this crime area. The FBI had 159 agents involved in
 corporate fraud investigations during FY 2000. In FY 2004, this number rose

                                   - 52 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

to 258 agents, an increase of 62 percent. 44 In contrast to the increase in
resources, the FBI opened 67 fewer corporate fraud cases in FY 2004 than in
FY 2000 (524 cases in FY 2000 to 457 cases in FY 2004).

      According to USAO data, the FBI submitted the majority of criminal
referrals on corporate fraud matters during FYs 2000 and 2004. Specifically,
the FBI’s referrals encompassed 74 percent of all submitted corporate fraud
matters in FY 2000 and 70 percent in FY 2004. The FBI referred 72 more
corporate fraud matters to USAOs during the time period under review,
increasing from 303 referrals in FY 2000 to 375 in FY 2004.

Impact on Law Enforcement Community

       The nature of corporate fraud does not lend itself to state and local law
enforcement involvement. Instead, these violations are generally addressed
by federal agencies, most notably the FBI. An official at the Securities and
Exchange Commission (SEC) stated that the SEC’s efforts differ from the
FBI’s in this area because the SEC primarily focuses on civil matters, while
the FBI investigates criminal violations. This SEC official stated that the FBI
has become more selective in the investigations it conducts, focusing on the
higher dollar, higher profile cases.

Conclusions on Corporate Fraud

      The FBI designated corporate fraud as its top national priority for
financial crimes and has increased the number of agents handling those
matters between FYs 2000 and 2004. Case management data from the
USAO also demonstrated the FBI’s increased emphasis on corporate fraud
matters, showing that the FBI had referred more matters to the USAOs
during FY 2004 than it had during FY 2000. Further, the other law
enforcement entity officials that we interviewed did not indicate that their
agencies had been negatively affected by the FBI’s reprioritization in the
area of corporate fraud.

Chapter Summary

      The FBI reduced its overall investigative efforts on financial crime
matters between FYs 2000 and 2004, resulting in fewer agents handling
these investigations and fewer FBI financial crime case openings. Of the
specific crime areas discussed in this chapter, we noted reduced FBI efforts

       44
           In FY 2000, the FBI used Classification 196C (Securities/Commodities Fraud) to
track its corporate fraud efforts. In FY 2004, it eliminated Classification 196C; instead it
used five classifications: (1) 318A (Corporate Fraud), (2) 318B (Prime Bank and High Yield
Investment Fraud), (3) 318C (Market Manipulation), (4) 318D (Insider Trading), and
(5) 318E (Other Security/Commodities Fraud Matters).

                                   - 53 -
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

(in both agent utilization and case openings) in FIF, telemarketing fraud,
wire fraud, and health care fraud. Corporate fraud was the only area in
which the FBI used additional agents between FYs 2000 and 2004.
Similarly, USAO case management data revealed that the FBI referred fewer
criminal matters to USAOs on FIF, telemarketing fraud, and health care
fraud matters between FYs 2000 and 2004, while submitting more referrals
on corporate fraud matters during this period.

      The FBI’s reduced resources on FIF matters had the most noticeable
impact on the law enforcement community. In particular, the FBI’s reduced
investigative efforts in this area created a gap that other law enforcement
agencies have not filled. The FBI generally focused its resources on FIF
cases involving large dollar losses, while the low-dollar FIF investigations
were seldom initiated. Based upon USAO data, other federal agencies did
not replace the FBI’s reduced effort in FIF matters.

     To a lesser extent, we determined that a gap exists in telemarketing
and wire fraud investigations. These violations often exceed the technical
capability and jurisdictional authority of state and local law enforcement
agencies.

      The FBI’s investigative efforts in health care fraud have also diminished
since FY 2000, even though health care fraud is the FBI’s second highest
national priority for financial crimes. According to USAO data, the FBI
continues to refer the majority of health care fraud matters handled by
USAOs. Although USAO case management data indicated the HHS OIG
increased the number of its health care referrals to USAOs between FYs 2000
and 2004, the increase only compensated for 33 percent of the FBI’s
reduction in such referrals. Thus, it appears that health care fraud is not
being addressed as aggressively as in the past.

      Finally, corporate fraud is the FBI’s highest investigative priority for
financial crime matters. In line with this priority status, the FBI utilized
more agents on these investigations and referred more corporate fraud
matters to the USAOs in FY 2004 than in FY 2000.




                                - 54 -
                     REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                 CHAPTER 6: CRIMINAL ENTERPRISES

      According to the FBI, a criminal enterprise is a structured organization
engaging in acts of criminal conspiracy and/or criminal activity. Among the
common criminal enterprises are drug-trafficking organizations, street gangs,
and organized crime syndicates. These organizations are the focus of the
FBI’s efforts in combating criminal enterprises.

       Overall, the FBI utilized fewer agents on criminal enterprise matters in
FY 2004 compared to FY 2000, and it opened fewer criminal enterprise cases
during this timeframe. While the FBI used fewer agents on narcotics
trafficking and organized crime investigations, the FBI did not alter its agent
utilization on overall gang-related investigative efforts between FYs 2000
and 2004. The following sections discuss the results of our review of the
FBI’s criminal enterprise investigative efforts, as well as the specific areas of
narcotics trafficking, street gangs, and organized crime.

Overall FBI Criminal Enterprise Investigative Efforts

Allocation and Utilization of Agent Resources

       As discussed in Chapter 2, the FBI’s Criminal Enterprise Plan, which was
created in FY 2004, pooled drug, gang, organized crime, and major theft
resource allocations into criminal enterprise allocations. However, FY 2004
field agent resources were allocated according to the CID’s old structure,
before the implementation of the Criminal Enterprise Plan. These allotments
were not altered with the implementation of the Criminal Enterprise Plan in
mid-FY 2004. For FY 2005, the FBI allocated criminal agent positions
according to its new organizational structure. 45

       While we were unable to determine the change in the FBI’s allocation of
criminal enterprise agent positions from FYs 2000 to 2004 because of the
reasons stated above, we were able to identify changes in the actual
utilization of agents on criminal enterprise matters. We also analyzed agent
utilization data at the subprogram level to obtain a more specific perspective
on these changes. As evidenced in Exhibit 6-1, all criminal enterprise
subprograms, except Violent Gangs, experienced on-board agent reductions
between FYs 2000 and 2004, amounting to an overall decrease of
1,285 positions, or 45 percent.




      45
           The new CID organization chart is located on page 9.

                                   - 55 -
                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


                                   EXHIBIT 6-1
 FBI FIELD AGENT UTILIZATION BY CRIMINAL ENTERPRISE SUBPROGRAM
                         FISCAL YEARS 2000 AND 2004 46
                                                   Number   Percent
Subprograms                   FY 2000    FY 2004
                                                   Change   Change
OCDETF 47                       1,062       540        -522  -49%
Mexican/Criminal Syndicates       353        75        -278  -79%
La Costa Nostra/Italian/
                                  437       261        -176  -40%
Labor Racketeering
Major Theft                       251        90        -161  -64%
Colombian/Caribbean               146        35        -111  -76%
Asian                             137        95         -42  -31%
Other Matters 48                   93        67         -26  -28%
Russian/Eurasian                  108        90         -18  -17%
Violent Gangs                     266       315          49   18%
                      TOTALS        2,853      1,568         -1,285           -45%
Source: OIG analysis of FBI TURK data


Case Openings

        The reduction in resources noted above corresponds with a significant
decrease in case openings for criminal enterprise matters. As detailed in
Exhibit 6-2, the number of criminal enterprise cases opened decreased by
3,994, or 52 percent, between FYs 2000 and 2004. Additionally, most of the
criminal enterprise subprograms experienced substantial decreases in case
openings during this period, with 6 of the 9 subprograms showing a reduction
of at least 50 percent. In contrast, violent gangs, which experienced an
increase in agent utilization of 49 agents or 18 percent, had more case
initiations in FY 2004 than in FY 2000, increasing by 58 percent.




       46
          These subprograms comprise the current Americas Criminal Enterprise Section
and the Transnational Criminal Enterprise Section, which constitute the investigative
components of the CID’s Criminal Enterprise Branch.
       47
         This OCDETF figure represents combined totals for the OCDETF subprogram and
the OCDETF – Gangs subprogram. The FBI received 488 reimbursable OCDETF positions in
FY 2004.
       48
         Subprograms Other Matters – Drugs and Other Matters – Organized Crime are
combined within this table.

                                    - 56 -
                         REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


                                EXHIBIT 6-2
            FBI CASE OPENINGS OF CRIMINAL ENTERPRISE MATTERS
                        FISCAL YEARS 2000 AND 2004
                                                              Number           Percent
Subprograms                        FY 2000     FY 2004
                                                              Change           Change
OCDETF47                                 499       202            -297           -60%
Mexican/Criminal Syndicates              671       152           -519            -77%
La Costa Nostra/Italian/
                                         233         90           -143           -61%
Labor Racketeering
Major Theft                            1,556       649           -907            -58%
Colombian/Caribbean                      143        60             -83           -58%
Asian                                    120        102            -18           -15%
Other Matters48                        3,882     1,575          -2,307           -59%
Russian/Eurasian                          80         71             -9           -11%
Violent Gangs                            495       784             289            58%
                       TOTALS          7,679     3,685         -3,994           -52%
Source: OIG analysis of FBI ACS data


Narcotic/Illegal Drug Trafficking Organizations

       The FBI targets various criminal enterprises involved in illegal drug
trafficking. For some criminal enterprises, drug trafficking is the
organization’s primary mission; for others, it is a means to financially
support its other criminal operations. According to the DEA, the
United States is one of the most profitable illegal drug markets in the world,
attracting ruthless, sophisticated, and aggressive drug traffickers.

Overall Allocation of FBI Drug-Related Resources

      As part of its reprioritization efforts, the FBI assessed the areas in
which it had concurrent jurisdiction with other law enforcement agencies,
particularly with the DEA. As a result, the FBI significantly shifted resources
away from investigating drug-related crime more than any other criminal
area over the last 4 years.

      Specifically, the FBI reduced drug-related field agent allocations from
890 agents in FY 2001 to 339 in FY 2004. 49 This 551-agent reduction
accounts for almost half of the reduction in the FBI’s total criminal agent FSL
allocation of 1,143 positions. The FBI also staffs its drug-related
investigations with reimbursed OCDETF agent positions. Between FYs 2000
and 2004, the number of FBI OCDETF positions decreased by 45 positions
from 533 to 488, a reduction of 8 percent. As noted in Exhibit 6-1, the FBI
       49
          In FY 2000, the FBI allocated drug and organized crime resources together; it
separately apportioned agent positions to these sections in FYs 2001 through 2004.

                                    - 57 -
                         REDACTED FOR PUBLIC RELEASE
                           REDACTED FOR PUBLIC RELEASE

actually used 540 agents on OCDETF matters during FY 2004. While this
number is above the reimbursed number of 488 positions, it is significantly
less than the 1,062 agents that actually worked OCDETF matters in FY 2000.

Overall FBI Agent Utilization on Drug-Related Matters

      FBI Headquarters managers stated that most Mexican and Colombian
criminal enterprise investigations involved drug-related matters, so we focused
our analyses of the FBI’s narcotics trafficking efforts on three subprogram
areas: (1) Mexican/Criminal Syndicates, (2) Colombian/Caribbean, and
(3) OCDETF. Exhibit 6-3 provides data on the resource reductions in FBI drug-
related investigations. As the exhibit demonstrates, the FBI operated its drug-
related efforts in FY 2004 at less than half the staffing level it utilized in
FY 2000. Specifically, the Mexican/Criminal Syndicates subprogram utilized
278 fewer agents in FY 2004 as compared to FY 2000, a decline of 79 percent
in investigative resources. The Colombian/Caribbean subprogram experienced
a decline of 111 agents, down from 146 agents in FY 2000 to only 35 in
FY 2004. In addition, the FBI used over 50 percent fewer agents on OCDETF
matters in FY 2004 than in FY 2000.

                           EXHIBIT 6-3
 FBI FIELD AGENT UTILIZATION WITHIN DRUG-RELATED SUBPROGRAMS
                   FISCAL YEARS 2000 AND 2004
                                                             Number   Percent
 FBI Subprogram                          FY 2000   FY 2004
                                                             Change   Change
 OCDETF                                    891       420      -471     -53%
 Mexican Criminal Syndicates               353       75       -278     -79%
 Colombian/Caribbean                       146       35       -111     -76%
                           TOTALS         1,390     530       -860    -62%
 Source: OIG Analysis of FBI TURK data


Overall FBI Drug-Related Casework

      The significant decline in the number of FBI agents investigating drug-
related crime has affected the number of drug-related cases opened by the
FBI. Comparing case openings in the OCDETF, Mexican/Criminal Syndicates,
and Colombian/Caribbean subprograms, the FBI opened 874 fewer cases in
FY 2004 than in FY 2000, a decrease of 70 percent. Exhibit 6-4 displays the
FBI case openings in these subprograms.




                                      - 58 -
                           REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                             EXHIBIT 6-4
            FBI CASE OPENINGS OF DRUG-RELATED MATTERS
                     FISCAL YEARS 2000 AND 2004
                                              Number  Percent
   FBI Subprogram           FY 2000  FY 2004
                                               Change Change
   OCDETF                      432      160     -272   -63%
   Mexican/Criminal Syndicates             671    152    -519       -77%
   Columbian/Caribbean                     143     60     -83       -58%
                      TOTALS              1,246   372    -874       -70%
   Source: OIG Analysis of FBI ACS data


       Aside from the decrease in the number of case openings, we also
observed a reduction in the number of case serials associated with FBI drug-
related investigations. FBI agents show evidence of their work on a case by
submitting documents to the appropriate case file. Each document entry
receives a serial, or tracking, number. Therefore, in evaluating the level of
effort the FBI afforded drug investigations, the difference in the number of
serials opened within each FY for a specific crime category provides additional
perspective on the level of effort within active cases. In FY 2004, the FBI filed
50 percent fewer case serials on OCDETF matters than it had in FY 2000,
declining from 391,275 serials to 195,954.

      FBI officials acknowledged that its shift in resources away from
narcotics has resulted in fewer drug-related cases. [SENSITIVE
INFORMATION REDACTED]

Overall FBI Referrals of Drug-Related Matters to the USAOs

      In addition to FBI casework statistics, we assessed the FBI’s
investigative efforts in drug-related matters by analyzing information from
USAOs. Specifically, we computed the change in the number of criminal
matters reported to USAOs by federal investigative agencies for all drug-
related violations, which is presented in Exhibit 6-5. Our analysis showed
that the federal agencies submitted almost 2,000 fewer drug-related matters
to the USAOs in FY 2004 than in FY 2000, a 10-percent reduction. In line
with the FBI’s resource and casework reductions, overall FBI drug-related
matters referred to federal prosecutors decreased by about 50 percent
between FYs 2000 and 2004, from 3,292 referrals in FY 2000 to 1,699 in
FY 2004.




                                   - 59 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                            EXHIBIT 6-5
        OVERALL DRUG-RELATED MATTERS RECEIVED BY THE USAOs
                    FISCAL YEARS 2000 AND 2004
                                             Number    Percent
                          FY 2000   FY 2004
                                              Change   Change
   All Agencies            20,331   18,368    -1,963    -10%
   FBI                               3,292          1,699            -1,593   -48%
   DEA                              10,053         10,296              243      2%
   ICE                               5,683          4,834             -849    -15%
   ATF                                 464            779              315     68%
   Source: OIG analysis of USA central case management system data


      The USAO tracks drug-related matters in three specific categories:
(1) drug trafficking, (2) OCDETF, and (3) simple drug possession. During
FY 2004, drug-trafficking violations comprised 85 percent of the overall drug-
related matters referred to USAOs, while OCDETF matters accounted for an
additional 14 percent of all drug matters received by the USAOs. The
remaining one percent consisted of simple drug possession referrals. We
performed additional analyses of drug trafficking and OCDETF referrals to
USAOs.

       Drug-Trafficking Matters – The FBI, DEA, ATF, and ICE accounted for
96 percent of the total 15,543 drug trafficking matters received by the USAOs
during FY 2004. As Exhibit 6-6 shows, between FYs 2000 and 2004, total
drug-trafficking matters received by the USAOs remained at nearly the same
level, decreasing by only one percent. However, there were significant
changes among federal agencies submitting the drug trafficking matters. For
instance, the FBI decreased its drug trafficking referrals by 905, or
44 percent, between FYs 2000 and 2004, while the DEA increased its drug
referrals by 811 during this period, covering a majority of the FBI’s reduction.
Also noteworthy is that the ATF more than doubled its drug-trafficking
referrals to the USAOs between FYs 2000 and 2004.

                            EXHIBIT 6-6
          DRUG TRAFFICKING MATTERS RECEIVED BY THE USAOs
                    FISCAL YEARS 2000 AND 2004
                                             Number    Percent
                          FY 2000   FY 2004
                                              Change   Change
   All Agencies            15,665   15,543     -122      -1%
   FBI                                2,072         1,167            -905     -44%
   DEA                                7,621         8,432             811      11%
   ICE                                5,036         4,622            -414      -8%
   ATF                                  316           677             361     114%
   Source: OIG analysis of USA central case management system data




                                   - 60 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

       As shown in the preceding table, other federal law enforcement
agencies, particularly the DEA and the ATF, appeared to compensate for the
FBI’s decrease in drug trafficking matters, as total referrals to USAOs did not
significantly change between FYs 2000 and 2004.

      OCDETF Matters – Similar to drug-trafficking referrals, the FBI, the
DEA, the ATF, and ICE comprised 96 percent of the total OCDETF matters
received by the USAOs during FY 2004. 50 However, unlike drug trafficking
referrals, overall OCDETF matters received by the USAOs decreased by
34 percent between FYs 2000 and 2004, as evidenced in Exhibit 6-7. 51
Moreover, each of these agencies referred significantly fewer OCDETF matters
between FYs 2000 and 2004. As in the drug-related matter referrals, the FBI
accounted for the greatest reduction in the number of OCDETF referrals,
dropping from 1,127 OCDETF matters in FY 2000 to 485 in FY 2004.

                             EXHIBIT 6-7
                OCDETF MATTERS RECEIVED BY THE USAOs
                     FISCAL YEARS 2000 AND 2004
                                              Number                            Percent
                           FY 2000   FY 2004
                                               Change                           Change
   All Agencies             4,008     2,628    -1,380                            -34%
   FBI                                1,127           485            -642         -57%
   DEA                                2,192         1,760            -432         -20%
   ICE                                  365           193            -172         -47%
   ATF                                  128            91             -37         -29%
   Source: OIG analysis of USA central case management system data


       The FBI’s reduction in these OCDETF referrals correlates to its resource
reductions in OCDETF and general drug-related investigations and the
resulting decreases in cases.

Drug-Related Resource Changes within FBI Field Divisions

      At the FBI field office level, we reviewed the FBI’s agent utilization
data in the three drug-related subprogram areas: (1) Mexican/Criminal

       50
          Many law enforcement agencies participate in the OCDETF program, which
provides reimbursable funding for drug trafficking investigations meeting certain criteria.
OCDETF cases involve multiple agencies and target well-established and complex
organizations that direct, finance, or engage in illegal narcotics trafficking and related
crimes.
       51
          According to the Associate Director of the Executive Office for OCDETF, in FY 2002
the OCDETF Program Guidelines were revised to instruct participants to focus OCDETF
resources on coordinated, nationwide investigations of major drug trafficking and money
laundering organizations. As a result of these revised guidelines, EOUSA officials told us that
they expected the number of OCDETF matters referred to the USAOs to decrease.

                                   - 61 -
                        REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE

Syndicates, (2) Colombian/Caribbean, and (3) OCDETF. This analysis
afforded insight into changes within those investigative areas.

       Exhibit 6-8 illustrates the 10 FBI field divisions with the greatest agent
utilization reductions for these 3 drug-related subprogram areas combined.
The Miami Division experienced the greatest decrease in agent utilization,
declining by 69 agents between FYs 2000 and 2004. Five of the other
10 field divisions are located on or near the U.S. southwest border: El Paso,
Houston, Los Angeles, Phoenix, and San Antonio.

                            EXHIBIT 6-8
          FBI FIELD DIVISIONS EXPERIENCING THE GREATEST
      AGENT UTILIZATION REDUCTIONS IN DRUG-RELATED MATTERS
                BETWEEN FISCAL YEARS 2000 AND 2004




          Source: OIG analysis of FBI TURK data


Impact of FBI Drug-Related Resource Changes within the Field

       Effect on FBI Drug Squads and Related Casework – One of the major
effects from the FBI’s reduction in agents assigned drug cases was the impact
on squads focusing on drug crime. In FY 2000, the Miami Division had at least
nine drug squads; however, at the time of our review in April 2005, it operated
with only three such squads. Similarly, the Phoenix Division used at least
four separate drug squads in its pre-9/11 narcotics trafficking investigative
efforts. During our visit to Phoenix in March 2005, FBI managers informed us
that they scaled back to two drug squads. These FBI officials in Phoenix
further commented that they believe that operating with fewer drug squads

                                  - 62 -
                       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

and resources caused drug crime in their jurisdiction to be significantly under-
addressed by the FBI. The New York City Division did not reduce the number
of its drug squads but operated each squad at significantly reduced staffing
levels.

       With fewer resources and fewer squads addressing drug-related crime,
FBI field divisions, as a whole, opened fewer drug cases in FY 2004 than they
did in FY 2000, as evidenced in Exhibit 6-4. Of the seven field offices where
we conducted fieldwork, Exhibit 6-9 shows that six experienced substantial
reductions in case openings. The FBI Los Angeles and Chicago Divisions were
among the top five divisions experiencing the greatest decreases in case
openings. Compared to FY 2000, the Los Angeles Division opened 93 percent
fewer drug cases in FY 2004, declining from 72 case openings in FY 2000 to
only 5 in FY 2004. In contrast, the New Orleans Division initiated two more
cases during FY 2004 than it opened in FY 2000.

                                EXHIBIT 6-9
             FBI COMBINED CASE OPENINGS FOR SUBPROGRAMS
            OCDETF, MEXICAN AND COLOMBIAN ORGANIZATIONS
                       FISCAL YEARS 2000 AND 2004
                                                Number  Percent
       Field Division       FY 2000    FY 2004
                                                Change  Change
 Chicago                       57         21      -36    -63%
 Los Angeles                   72          5      -67    -93%
 Miami                         46         31      -15    -33%
 New Orleans                    8         10        2     25%
 New York City                 33         19      -14    -42%
 Phoenix                       24         11      -13    -54%
 San Francisco                 24          9      -15    -63%
                   TOTALS     264        106     -158    -60%
 Source: OIG analysis of FBI ACS data


      In addition to field offices initiating fewer drug cases, FBI field
managers reported that the timeliness and quality of such investigations has
been impaired. FBI representatives in the New York City and San Francisco
Divisions stated that it takes their offices longer to close drug cases than it
had prior to the shift in resources because fewer agents work on each drug
case; however, both divisions asserted that the quality of work had not
suffered. [SENSITIVE INFORMATION REDACTED]

      Nearly all of the FBI field divisions we visited submitted fewer drug-
related matters to federal prosecutors. Five of the seven FBI divisions
referred fewer drug-related matters to their respective USAOs between
FYs 2000 and 2004. As the following exhibit reflects, the Los Angeles,
Miami, and New Orleans Divisions submitted significantly fewer drug matters

                                   - 63 -
                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE

to the USAOs in FY 2004 than in FY 2000. In contrast, there were nominal
increases in the Phoenix and Chicago Divisions.

                             EXHIBIT 6-10
         FBI REFERRALS OF DRUG-RELATED MATTERS TO THE USAOs
                      FISCAL YEARS 2000 AND 2004
FBI Field Office                             Number  Percent Change
                         FY 2000   FY 2004
Jurisdictions38:                             Change
Chicago                     68        70          2         3%
Los Angeles                 76        41        -35       -46%
Miami                       91        57        -34       -37%
New Orleans                 73        38        -35       -48%
New York City              113        96        -17       -15%
Phoenix                     38        39          1         3%
San Francisco               27        22         -5       -19%
                 TOTALS    486       363       -123       -25%
Source: OIG analysis of USA central case management system data


       During our fieldwork, comments from representatives at various USAOs
on the FBI’s drug-related efforts supported our data analyses. For example,
[SENSITIVE INFORMATION REDACTED]. Exhibit 6-10 shows that the FBI
Los Angeles Division did, in fact, refer fewer drug-related matters to the USAO
between FYs 2000 and 2004. Additionally, officials at the Eastern District of
Louisiana USAO observed that the FBI reduced its drug-related work, which is
reflected in the fewer number of such FBI referrals in the preceding table.

        DEA Resource Adjustments – Other law enforcement officials we
interviewed commented on the reduction of FBI drug resources and the
resultant diminished FBI effort in narcotics-related matters. In particular,
DEA Headquarters officials stated that the DEA recognized the FBI’s resource
reductions and incorporated that factor into its decisions related to allocation
of DEA agents to its field divisions. According to DEA and FBI managers, the
DEA attempted to place additional resources in those locations where the FBI
greatly decreased its drug-related investigative effort. The locations with
the largest actual DEA agent increases are displayed in Exhibit 6-11. All of
these field divisions, except Chicago, were among the 10 locations in which
the FBI reduced its drug resources the most, as indicated in Exhibit 6-8.
However, resources in the DEA’s New York, Miami, and Los Angeles offices
still fell significantly short of the FBI’s drug-related reductions. In contrast,
the DEA El Paso Division compensated fully for the FBI’s shift in priorities,
while the DEA Chicago Division increased its on-board agents by more than
double the FBI’s agent reduction.




                                    - 64 -
                         REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


                             EXHIBIT 6-11
            ON-BOARD AGENTS IN SELECT DEA FIELD DIVISIONS
                      FISCAL YEARS 2000 AND 2004
                                          DEA Agent    FBI Agent
   Field Division 52 FY 2000   FY 2004
                                           Increase    Decrease
   Chicago             182       213          31          -15
   El Paso             102       127          25          -25
   Los Angeles         280       299          19          -57
   Miami               404       428          24          -69
   New York            346       374          28          -63
   Source: OIG analysis of DEA on-board agent data


      A DEA Headquarters executive who oversees the agency’s domestic
and international operations told us that he believed the DEA would be able
to handle a greater number of drug cases than in the past, filling at least
some of the gap left by the FBI’s reduction of investigative resources in this
crime area. DEA field division managers echoed this sentiment, generally
agreeing that their offices have been and will continue to be able to address
the drug trafficking crime in their respective jurisdictions in light of the FBI’s
reduced drug investigation efforts.

      For example, officials at the Chicago DEA Division stated that because
the FBI is investigating fewer drug-specific cases the DEA has experienced an
increased number of requests from local law enforcement agencies regarding
drug-trafficking matters in the Chicago metropolitan area, and they believe the
DEA has been able to address these requests. Similarly, officials at the DEA in
New Orleans said they have compensated for the FBI’s reduction in drug
investigations by adding more agents to their office’s investigative operations.

       [SENSITIVE INFORMATION REDACTED]

      Local Law Enforcement Perspective – Generally, local law enforcement
agencies reported to us that they consider the DEA its primary federal contact
for drug-related crime issues. For example, in California both the Los Angeles
Police Department and the Los Angeles County Sheriff’s Department consider
the DEA its principal partner in drug-related operations. Additionally, the
San Jose, California, Police Department also considers the DEA its primary
partner in drug-related matters. Local police departments in the Phoenix,
Miami, and New Orleans metropolitan areas expressed similar viewpoints.
Even though officials at many local law enforcement agencies viewed the DEA
as their primary federal contact for narcotics-related matters, representatives
at some of the local police departments we visited commented that the FBI

       52
           There are 21 DEA field divisions compared to 56 for the FBI. Therefore, DEA field
divisions generally encompass larger geographic jurisdictions than FBI field divisions.

                                    - 65 -
                         REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

was more involved in their departments’ drug-related investigations prior to
the FBI’s shift in resources than the FBI had been recently. Overall, the state
and local law enforcement officials we interviewed indicated that their
agencies were not negatively affected by the FBI’s reprioritization in the area
of drug-related crime.

Drug Task Force Operations

       In our discussions with law enforcement representatives, we were told
by numerous officials that a multi-agency task force is an essential tool in
investigating certain crime matters such as narcotics trafficking. Task force
operations bring together law enforcement personnel, and at times industry
representatives, to cooperatively address a pervasive crime issue. Several
officials stated that task forces provide “the biggest bang for the buck” by
multiplying each agency’s efforts through utilizing each others’ resources
and expertise. During our audit fieldwork, we learned of two particularly
effective drug task forces that assisted in coordinating agencies’ efforts in
addressing narcotics trafficking.

       OCDETF Strike Force – The OCDETF Strike Force (Strike Force) in
New York City is an example of a task force operation. The Strike Force, which
began operation in May 2004, is a co-located, co-managed, multi-agency task
force with over 20 investigative squads. The Strike Force is comprised of over
200 participants from various agencies, including the ATF, DEA, FBI, ICE,
Internal Revenue Service, New York City Police Department (NYPD), New York
State Police, and USAOs of the Eastern and Southern Districts of New York.
Participants are detailed to one of the investigative squads so that each squad
consists of personnel from multiple agencies. Management is shared
throughout agencies on the Strike Force, from executive management to
squad supervisors. The Strike Force’s top-level management consists of a
Chief (a DEA Associate SAC) and two Deputy Chiefs (an FBI Assistant SAC and
an NYPD official).

       During the development of this Strike Force, the FBI stated it would
allocate 40 agents to this effort. However, at the time of our review, only
25 FBI agents participated on the Strike Force and FBI officials in the
New York City Division expressed concern that the FBI may be required to
reduce its resource contribution even further. A DEA Headquarters official
commented that an FBI withdrawal from the Strike Force would be a
significant blow to the task force’s capabilities and effectiveness.

      Officials from the FBI, DEA, ATF, and ICE New York City Divisions, as
well as the Southern District of New York USAO and the NYPD, endorsed the


                               - 66 -
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

value of the Strike Force, considering it successful even in its infancy and
calling it a model for large-scale, multi-agency task force ventures.

       High Intensity Drug Trafficking Area (HIDTA) Initiative – On a smaller
scale as compared to the OCDETF Strike Force in New York City, the Chicago
FBI and DEA divisions have developed a co-located, commingled narcotics
squad. This squad was formed as part of the HIDTA initiative to attack drug
trafficking organizations listed on the Department of Justice’s Consolidated
Priority Organization Target (CPOT) list. FBI and DEA division managers we
interviewed considered this squad a success and cited the cooperation of the
agents as the primary factor contributing to its achievements.

Conclusions on Narcotics Trafficking

      Since 9/11, the FBI has significantly reduced the number of resources it
devotes to drug-related investigations. FBI field divisions have decreased the
number of drug squads, the number of agents on the remaining squads, the
number of drug cases opened, and the number of drug-related criminal
matters referred to the USAOs. Moreover, our analyses showed that the
USAOs received 10 percent fewer drug-related matters from federal
investigative agencies in FY 2004 than in FY 2000 and that the majority of this
reduction occurred in OCDETF matters.

      DEA officials commented that the FBI’s work in drug cases is important
to the national effort to address drug crime; however, these officials did not
believe the FBI’s reduced drug investigative efforts have negatively affected
the DEA’s efforts in combating drug crime. Similarly, representatives at the
state and local law enforcement agencies we visited indicated that their drug-
related efforts had not been negatively affected by the FBI’s reprioritization.

Street Gangs

      In many communities across the country, particularly urban settings,
gang-related crime is a grave threat to public safety. Gangs are involved in
many crimes that threaten the security and well-being of many
communities. Traditionally, gang activity has encompassed the drug trade
and violent crime. However, according to some local law enforcement
agency officials, gangs are becoming more sophisticated and are becoming
involved in other criminal activity, including identity theft.

Overall FBI Gang-Related Agent Utilization

     The FBI did not allocate field agent resources specifically to gangs in
FYs 2000 through 2004. Therefore, we were unable to compare the overall

                                - 67 -
                     REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

change in funded positions dedicated to this area during this period.
Instead, we relied on more specific FBI agent utilization data to assess
changes in the FBI’s gang-related effort. As Exhibit 6-1 demonstrates, the
Violent Gangs subprogram was the only FBI criminal enterprise subprogram
area to experience a personnel increase between FYs 2000 and 2004.
However, OCDETF matters focusing on gangs experienced a decrease during
this period. When added together, the FBI did not alter its overall gang-
related investigative effort between FYs 2000 and 2004, committing about
435 agents in each FY, as shown in Exhibit 6-12.

                                 EXHIBIT 6-12
        FBI FIELD AGENT UTILIZATION ON GANG-RELATED MATTERS
                        FISCAL YEARS 2000 AND 2004
                                               Number Percent
      Subprogram           FY 2000    FY 2004
                                               Change Change
      Violent Gangs          266        315       49    18%
                     53      171        120      -51   -30%
      OCDETF - Gangs
                 TOTALS      437        435       -2     0%
      Source: OIG analysis of FBI TURK data

Overall FBI Gang-Related Case Openings

      Although the FBI committed approximately the same amount of
resources toward investigating gang-related matters in FY 2004 as it did in
FY 2000, it increased the number of gang-related case openings between
FYs 2000 and 2004 by 264 cases. As Exhibit 6-13 shows, the FBI initiated
826 cases in FY 2004 and 562 cases in FY 2000, a 47-percent increase.

                                EXHIBIT 6-13
                    FBI GANG-RELATED CASE OPENINGS
                       FISCAL YEARS 2000 AND 2004
                                              Number                      Percent
      Subprogram          FY 2000    FY 2004
                                              Change                      Change
      Violent Gangs         495        784      289                         58%
                    53       67         42      -25                        -37%
      OCDETF - Gangs
                  TOTALS          562          826            264           47%
      Source: OIG analysis of FBI ACS data




       53
          The FBI tracks agent utilization and case openings for OCDETF investigations with
connections to gang-related crime, which are not captured in the FBI’s Violent Gangs
subprogram. We were able to separately identify these OCDETF gang-related matters and
include these figures in this section of the report.

                                   - 68 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

FBI Field Divisions’ Gang-Related Resource Changes

       As evidenced in Exhibit 6-14, some FBI field divisions focused fewer
resources on gang-related matters from FY 2000 to FY 2004 while others
increased their efforts. The Los Angeles and Baltimore Divisions decreased
their agent utilization the most, with nine fewer agents working gang-related
investigations in FY 2004 compared to FY 2000, amounting to 17-percent
and 50-percent reductions in these respective divisions. Conversely, the
New York City and Chicago Divisions increased the number of agents
working gang-related investigations, utilizing 19 (or 146 percent) and 17 (or
68 percent) more agents, respectively.

                              EXHIBIT 6-14
  FBI FIELD DIVISIONS EXPERIENCING THE GREATEST INCREASES AND
     DECREASES IN AGENT UTILIZATION ON GANG-RELATED MATTERS
                  BETWEEN FISCAL YEARS 2000 AND 2004
                                             Number   Percent
 Field Division       FY 2000     FY 2004
                                             Change   Change
 Los Angeles             52          43        -9      -17%
 Baltimore               18           9        -9      -50%
 Washington, D.C.        32          24        -8      -25%
 Atlanta                 12           8        -4      -33%
 Miami                   12           8        -4      -33%
 New York City                  13       32          19            146%
 Chicago                        25       42          17             68%
 Philadelphia                    7       16           9            129%
 Newark                          9       15           6             67%
 Source: OIG analysis of FBI TURK data

FBI Field Divisions’ Gang-Related Casework Changes

      The resource utilization changes represented in Exhibit 6-14 do not
entirely correspond to the change in gang-related case openings between
FYs 2000 and 2004. For instance, while the Atlanta, Miami, and Washington,
D.C. Divisions experienced agent utilization reductions of at least 25 percent
between FYs 2000 and 2004, each nonetheless opened more gang-related
cases in FY 2004 than in FY 2000, as evidenced in Exhibit 6-15.




                                   - 69 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                            EXHIBIT 6-15
    FBI GANG-RELATED CASE OPENINGS AT THE FIELD DIVISION LEVEL
                   FISCAL YEARS 2000 AND 2004
                                           Number      Percent
 Field Division     FY 2000     FY 2004
                                           Change      Change
 Los Angeles           15          21         6          40%
 Baltimore             15          13        -2         -13%
 Washington, D.C.      18          28        10          56%
 Atlanta                8          21        13         163%
 Miami                  8          16         8         100%
 New York City                  24      50            26            108%
 Chicago                        15      64            49            327%
 Philadelphia                   10      44            34            340%
 Newark                         22      62            40            182%
 Source: OIG analysis of FBI ACS data


      Of those divisions shown in Exhibit 6-14 as experiencing the greatest
increase or decrease of agents involved in gang investigations, Exhibit 6-15
shows that only the Baltimore Division opened fewer cases in FY 2004. The
Philadelphia Division increased its gang-related case openings threefold, rising
from 10 cases in FY 2000 to 44 in FY 2004. This increase of 34 cases occurred
concurrently with the 9-agent increase it experienced in actual agent utilization.
The Chicago Division, with 17 additional agents working gang-related
investigations, also significantly increased its gang-related case initiations
during this period, opening 49 additional cases in FY 2004 than in FY 2000.

FBI Safe Streets Task Forces

       In January 1992, the FBI announced its Safe Streets Violent Crime
Initiative, which was designed to allow field offices the ability to address
street gang and drug-related violence through the establishment of FBI-
sponsored task forces. These task forces are referred to as the FBI’s Safe
Streets Task Forces (SSTF). An SSTF is a multi-agency task force comprised
of FBI agents, local police, and other federal law enforcement agents that
traditionally focused its efforts on violent crime matters, such as fugitives,
gangs, and major theft. In October 2004, the FBI CID Assistant Director
stated that the FBI would be expanding its efforts in combating gangs,
particularly through its SSTFs.

      In FY 2000, the FBI committed over 820 agents to 180 SSTFs
nationwide. In December 2004, about 550 FBI agents participated in
143 SSTFs, a decrease of approximately 270 agents and 37 task forces.
Recently, the FBI announced that it will add 25 new SSTFs to specifically
target violent gangs.


                                   - 70 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

ATF’s Perspective on Gang-Related Matters

      In addition to the FBI, many other law enforcement agencies combat
gang crime issues, especially local police and sheriff’s departments. At the
federal level, the ATF, DEA, and ICE also perform gang-related
investigations. 54 As an ATF Headquarters official stated, with so many law
enforcement agencies investigating gangs the possibility of investigative
duplication is significant.

       Management at ATF Headquarters stated that there is a duplication of
effort in the anti-gang arena among the FBI, ATF, and other DOJ
components. FBI and ATF officials in New York City and San Francisco also
commented that there was a duplication of effort in gang investigations
between the FBI and the ATF, as well as with other agencies.

       We found during our fieldwork in March 2005 that sufficient
communication and coordination of gang-related investigations did not occur
at several locations we visited. For example, FBI New York City Division
officials acknowledged that communication with the ATF on gang activity
within the city of New York could improve. 55 Additionally, representatives
from the ATF San Francisco Division stated that while gang issues
constituted its number one investigative focus, there was no coordination
with the FBI’s on-going gang efforts.

Overall Impact on Law Enforcement Community’s Gang-Related Efforts

       In most cases, representatives from local law enforcement agencies
did not indicate a significant change in the FBI’s investigative presence in
gang matters. However, a few local officials indicated the FBI’s involvement
in this investigative area has diminished in the past 4 years. For instance,
representatives at the Oakland, California, Police Department remarked that
FBI assistance in the police department’s violent crime matters decreased by
approximately 60 percent since 9/11.




       54
           ICE recently announced a national plan to become involved in attacking the
nation’s prevailing gang problem, focusing particular attention on the Mara Salvatrucha
(MS-13) gang.
       55
           The ATF New York Division SAC believed that the ATF’s communication with the
FBI New York City Division on gang-related issues was good in the jurisdictional areas
outside of New York City. He further stated that his Division was not heavily involved in
gang-related investigations within New York City but was handling such matters in the
Division’s other jurisdictional areas.

                                   - 71 -
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

Top Gangs Meetings

        In discussions with law enforcement personnel in Chicago, which has
significant gang problems, we were informed about monthly meetings
among the federal and local law enforcement community. All law
enforcement agencies that investigate gangs in the Chicago area meet once
a month to discuss their gang-related operations. These meetings were
established by the Chicago Police Department and attended by law
enforcement agencies including the ATF, FBI, DEA, ICE, the Northern District
of Illinois USAO, and the Cook County Sheriff’s Department. ATF, DEA, and
FBI officials in Chicago believe the meetings aided gang investigations
throughout the city.

      In our discussions with law enforcement agencies at other locations that
do not have these types of monthly coordination meetings, many managers
stated that it would be useful to incorporate such a practice with regard to
gang-related issues in their cities. We believe the FBI and other federal
agencies in locations with significant gang problems should consider
developing such working groups with each other and their state and local
counterparts.

DOJ Anti-Gang Initiative

        At our exit conference, the FBI informed us of a new DOJ anti-gang
initiative. Under this initiative, the Department intends to examine the
possibility of creating an integrated gang database and co-locating the various
anti-gang intelligence and information systems maintained within the
Department. In addition, the USAOs are to establish an “Anti-Gang
Coordinator” position responsible for preparing a comprehensive, district-wide
anti-gang strategy and coordinating such investigations at the federal, state,
and local levels. Further, the DOJ established the policy that all jurisdictions
with multiple anti-gang task forces or initiatives should co-locate such
activities if feasible. In July 2005, the FBI promulgated guidance on this
anti-gang initiative to its field offices and directed them to work with the local
USAOs in implementing the new strategy.
Conclusions on Street Gangs

       Overall, the FBI’s reprioritization efforts have not affected the number
of agents working on gang-related matters. FBI agent utilization data
illustrated that the FBI essentially maintained the same level of agents
investigating gang-related matters in FY 2004 that it had in FY 2000.
Additionally, the FBI opened almost 50 percent more gang-related cases in
FY 2004 than in FY 2000.


                                - 72 -
                     REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

Organized Crime

      In addition to drug trafficking enterprises and street gangs, the other
main type of criminal enterprise that the FBI investigates is organized crime.
Contemporary organized crime within the United States has expanded
beyond historical La Cosa Nostra and Italian syndicates to include, for
example, Asian and African organizations, as well as those of Russian and
Albanian descent.

Overall FBI Organized Crime Resources

        As illustrated in Exhibit 6-16, the FBI specifically allocated 700 field
agent resources for organized crime matters in FY 2001. 56 During FY 2004,
the FBI assigned 720 organized crime resources to the field, an increase of
20 agents. The FBI’s allocations of agents for organized crime matters showed
little change in each of the last four FYs, as shown in the following exhibit.

                                  EXHIBIT 6-16
                        FBI ALLOCATION OF FIELD AGENTS
                         FOR ORGANIZED CRIME MATTERS
                        FISCAL YEARS 2001 THROUGH 2004




                          Source: OIG analysis of FBI RMA Office data

       In our discussions with FBI Headquarters personnel, we found that the
following FBI subprograms predominantly comprise the FBI’s investigative
efforts in organized crime matters: (1) La Cosa Nostra and Italian
organizations, (2) Asian organizations, and (3) Russian and Eurasian
organizations. We analyzed actual agent utilization data for these
three subprograms and found that although the FBI’s allocation of agents
remained relatively static over the past 4 years, the FBI actually decreased
its agent utilization rate in organized crime matters since FY 2000.
Specifically, the FBI decreased its overall organized crime agent utilization

       56
          In FY 2000, the FBI allocated drug and organized crime resources as a total; it began
separately apportioning agents to these sections in FYs 2001 through 2004. Therefore, we
were only able to compare the change in allocated organized crime resources between FYs 2001
and 2004.

                                   - 73 -
                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE

by 236 agents between FYs 2000 and 2004, as shown in Exhibit 6-17. Thus,
while the FBI did not plan for the organized crime resource levels to be
affected by its reprioritization, it appears that a significant reduction has
occurred over the last few years.

                            EXHIBIT 6-17
     FBI FIELD AGENT UTILIZATION ON ORGANIZED CRIME MATTERS
                    FISCAL YEARS 2000 AND 2004
                                               Number  Percent
 FBI Subprogram           FY 2000    FY 2004
                                               Change  Change
 La Cosa Nostra and Italian              437   261      -176        -40%
 Asian                                   137    95       -42        -31%
 Russian and Eurasian                    108    90       -18        -17%
                    TOTALS               682   446      -236        -35%
 Source: OIG Analysis of FBI TURK data


Overall FBI Organized Crime Casework

      Analysis of FBI organized crime case openings for the three subprogram
areas noted in the previous section shows fewer cases opened in FY 2004
than in FY 2000. In total, the FBI initiated 170 fewer cases in these
subprograms, with 143 fewer case openings in La Cosa Nostra and Italian
organized crime matters alone during this time period. This overall decline
corresponds to a 39-percent reduction, as illustrated in Exhibit 6-18.

                                  EXHIBIT 6-18
                      FBI ORGANIZED CRIME CASE OPENINGS
                           FISCAL YEARS 2000 AND 2004
                                                      Number        Percent
FBI Subprogram                 FY 2000    FY 2004
                                                      Change        Change
La Cosa Nostra and Italian             233     90        -143        -61%
Asian                                  120     102       -18         -15%
Russian and Eurasian                    80      71        -9         -11%
                   TOTALS              433     263      -170         -39%
Source: OIG analysis of FBI ACS data


       An FBI Headquarters official confirmed that the FBI was underutilizing
organized crime resources and opening fewer such cases. He attributed this
to the FBI field divisions’ commitment to fulfilling the FBI’s mandate of
addressing all counterterrorism leads. In complying with this requirement,
field divisions took resources from their traditional criminal squads, which
generally resulted in reductions in both agent utilization and case openings


                                    - 74 -
                         REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

in traditional crime areas. At the field offices we visited, FBI managers
confirmed this occurrence.

Overall Organized Crime Matters Referred by the FBI to the USAOs

      Exhibit 6-19 shows the six federal agencies referring the most
organized crime matters to the USAOs in FYs 2000 and 2004. These
agencies comprised at least 97 percent of all organized crime matters
received by the USAOs during this timeframe. The FBI accounted for
83 percent of all organized crime matters submitted to the USAOs in
FY 2000, but this percentage dropped to 75 percent in FY 2004.

                             EXHIBIT 6-19
            ORGANIZED CRIME MATTERS RECEIVED BY THE USAOs
                     FISCAL YEARS 2000 AND 2004
                                              Number     Percent
                          FY 2000   FY 2004
                                              Change     Change
 All Agencies               545       378       -167      -31%
 FBI                                 451           283             -168   -37%
 ICE                                  37            21              -16   -43%
 Internal Revenue Service             26            12              -14   -54%
 U.S. Secret Service                  11            10               -1    -9%
 DEA                                   5            15               10   200%
 ATF                                   6            26               20   333%
 Source: OIG analysis of USA central case management system data


       In total, comparing FYs 2000 and 2004, the FBI referred 168 fewer
organized crime matters to the USAOs, with 451 matters received in
FY 2000 and 283 in FY 2004. As evidenced in Exhibit 6-19, the FBI’s referral
reduction matches the total decrease of organized crime matters received by
the USAOs during our review period. Although the ATF and DEA increased
their referrals by a combined total of 30, this increase did not compensate
for the FBI’s reduction in organized crime-related referrals.

FBI Organized Crime Resources within Field Divisions

       We found that FBI agent allocations among field divisions for organized
crime matters varied considerably. Exhibit 6-20 illustrates the eight FBI field
divisions receiving the greatest organized crime allocations in FY 2004. The
New York City Division’s 212 funded agent positions for organized crime
matters were considerably more than any other field division. Additionally, the
chart shows the actual number of on-board agents used to investigate




                                   - 75 -
                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE

organized crime matters in the field divisions’ jurisdictions. 57 In each of these
field divisions, organized crime resources were utilized below the planned
level. For example, the New York City Division used only 143 of its
212 positions allocated to investigate organized crime.

                            EXHIBIT 6-20
     FBI FIELD OFFICES WITH THE GREATEST NUMBER OF ALLOCATED
   ORGANIZED CRIME AGENTS AND CORRESPONDING AGENT UTILIZATION
                          FISCAL YEAR 2004




            Source: OIG analysis of FBI Resource Management and TURK data

      Looking specifically at agent utilization reductions in organized crime
matters between FYs 2000 and 2004, we found that the New York City
Division’s reduction of 64 on-board agents accounted for the greatest
decrease, as shown below in Exhibit 6-21.




       57
           The organized crime agent utilization figures were derived in summing the agent
on-board data for the following three FBI subprograms: (1) La Cosa Nostra and Italian Criminal
Enterprises, (2) Asian Criminal Enterprises, and (3) Russian and Eurasian Criminal Enterprises.
We recognize the fact that other organized crime investigations may occur in other FBI Criminal
Enterprise Branch subprograms. However, we relied on information provided by an FBI
Headquarters official, stating these three subprograms predominantly comprise the FBI’s
organized crime investigative efforts.

                                    - 76 -
                         REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


                            EXHIBIT 6-21
 FBI FIELD DIVISIONS EXPERIENCING THE GREATEST AGENT UTILIZATION
         INCREASES OR DECREASES IN ORGANIZED CRIME MATTERS
                     FISCAL YEARS 2000 AND 2004
                                             Number     Percent
      Field Division    FY 2000   FY 2004
                                             Change     Change
New York City             207       143        -64       -31%
Newark                     68        44        -24       -35%
Los Angeles                43        23        -20       -47%
Chicago                    51        35        -16       -31%
San Francisco              32        17        -15       -47%
Philadelphia               28        18        -10       -36%
Las Vegas                  19        10         -9       -47%
Washington, D.C.           13         5         -8       -62%
San Antonio                              1    8        7           700%
Miami                                   16   20        4            25%
Detroit                                 15   19        4            27%
Source: OIG analysis of FBI TURK data


       Although most of the FBI’s field divisions experienced reductions in
organized crime agent utilization, there were a few divisions that had an
increase. The San Antonio, Miami, and Detroit Divisions increased by at
least one on-board agent in organized crime matters between FYs 2000 and
2004. The San Antonio Division increased from one to eight agents during
this time period, equaling its intended FY 2004 resource level.

      FBI Miami Division personnel stated that their office’s efforts to
investigate organized crime were not affected by the FBI’s shifting of
resources. However, although the Miami Division experienced an increase in
agent utilization between FYs 2000 and 2004, it utilized only about 20 of the
planned 35 organized crime agents it was allocated for FY 2004.

FBI Organized Crime Casework among Field Divisions

        Exhibit 6-22 shows the FBI’s organized crime case openings for those
field divisions that we visited. The Los Angeles Division opened 19 fewer
organized crime cases in FY 2004 than in FY 2000, declining from 32 case
initiations to 13. The San Francisco Division experienced a reduction of
18 case openings, opening 9 investigations in FY 2004 compared to 27 in
FY 2000. Further, the New Orleans Division did not open any organized crime
cases in FY 2004. The table also shows that the New York City Division, which
we previously reported utilized 64 fewer agents in FY 2004 than it did in
FY 2000, actually increased its organized crime case openings by 6 during this
period.



                                    - 77 -
                         REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


                               EXHIBIT 6-22
        FBI ORGANIZED CRIME CASE OPENINGS BY FIELD DIVISION
                       FISCAL YEARS 2000 AND 2004
                                               Number    Percent
      Field Division      FY 2000    FY 2004
                                               Change    Change
Los Angeles                  32         13       -19       -59%
San Francisco                27          9       -18       -67%
Chicago                      22         17        -5       -23%
Miami                        14         12        -2       -14%
New Orleans                   7          0        -7      -100%
Phoenix                       1          3         2        67%
New York City                34         40         6        18%
                  TOTALS    137         94       -43       -31%
Source: OIG analysis of FBI ACS data


Organized Crime Matters Referred to the USAOs by FBI Field Divisions

      For the FBI field divisions we visited, the number of organized crime
matters received by the USAOs from the FBI for FYs 2000 and 2004
correlated with each office’s change in case openings. The San Francisco,
Miami, Los Angeles, and Chicago Divisions’ case opening reductions displayed
in Exhibit 6-22 corresponded with decreases in the number of organized
crime matters referred to their respective USAOs, as reflected in Exhibit 6-23.

                              EXHIBIT 6-23
            ORGANIZED CRIME MATTERS RECEIVED BY THE USAOS
                      FISCAL YEARS 2000 AND 2004
FBI Field Office                             Number  Percent Change
              38         FY 2000    FY 2004
Jurisdictions :                              Change
San Francisco               31         10      -21        -68%
Miami                       15          6       -9        -60%
Los Angeles                 13          8       -5        -38%
Chicago                     10          8       -2        -20%
New Orleans                  3          1       -2        -67%
Phoenix                      0          0        0          0%
New York City               77         79        2          3%
                 TOTALS    149        112      -37        -25%
Source: OIG analysis of USA central case management system data


Impact on Law Enforcement Community

       In those FBI offices in which we conducted fieldwork, most of the
divisions experienced reductions in agent utilization, reductions in organized
crime case openings, and reductions in referrals to USAOs. The one anomaly
was the FBI’s New York City Division. While experiencing resource reductions
in its organized crime investigative efforts, the New York City Division
continued to refer similar numbers of organized crime matters to the USAOs.

                                    - 78 -
                         REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

The Southern District of New York USAO in Manhattan confirmed that the FBI
has maintained its efforts in pursuing organized crime. Further, federal
prosecutors and local police department officials communicated their desire
that the FBI continue its assistance in organized crime matters. USAO
representatives stressed the need to continue prosecuting organized-crime
matters in New York. They also stated that the growing networks of Russian
and Asian organized crime require intervention by federal law enforcement.
These USAO officials consider the FBI’s role in these efforts to be critical.

      In the other FBI field divisions reviewed, officials commented on the
negative effect of the FBI’s reduced effort in organized crime investigations.
For instance, officials from the Central District of California USAO in
Los Angeles, noting the reduction in organized crime matters received from
the FBI, stated that the FBI Los Angeles Division needed more agents to
address such issues. Additionally, officials at the Southern District of Florida
USAO in Miami remarked that the FBI Miami Division’s four squads dedicated
to criminal enterprise investigations had been reduced to two, which
decreased investigative outcomes.

Conclusions on Organized Crime Matters

       Overall, the FBI’s reprioritization has not affected the number of agents
allocated to work organized crime matters. However, agent utilization data
illustrated that the FBI decreased the actual number of agents investigating
organized crime matters, resulting in fewer organized crime case openings
and referrals to the USAOs since FY 2000.

Chapter Summary

       The FBI decreased the number of agents assigned to criminal enterprise
matters by 45 percent between FYs 2000 and 2004, most notably in drug-
trafficking and organized crime matters. During this same period, the FBI’s
agent utilization in gang-related matters changed little. FBI criminal
enterprise case openings generally reflected the FBI’s resource utilization
changes, declining in drug-trafficking and organized crime. However, the FBI
initiated 47 percent more gang-related investigations in FY 2004 than in
FY 2000.

       Overall, the FBI’s drug-related matters were affected the greatest, which
correlates with the FBI’s policy decision to most significantly reduce its
resources targeting drug cases. However, neither the DEA nor the state and
local law enforcement agencies contacted indicated that they had been
negatively affected in this area by the FBI’s reprioritization.


                                - 79 -
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

     Conversely, the FBI intended to slightly increase its organized crime
agents, but actually reduced its agent utilization in this area by 35 percent
between FYs 2000 and 2004 and several USAO officials indicated that this had
a negative effect in their jurisdictions.




                               - 80 -
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                           CHAPTER 7: FUGITIVES

       FBI officials at the headquarters and field office level commented that
they were not pursuing fugitive investigations as aggressively as they had in
the past in light of the FBI’s reprioritization and reallocation of resources.
While officials at USMS Headquarters indicated that they had not observed a
reduced effort by the FBI in this area, USMS officials at several of the district
offices we visited remarked that they had noticed a lessened effort by the
FBI in fugitive-related matters although they said this change had not
affected their ability to address an increased caseload. The majority of state
and local law enforcement agency representatives we interviewed did not
indicate that their work had been negatively affected by any changes in the
FBI’s efforts with respect to fugitive-related matters.

      We analyzed FBI agent utilization and casework data to determine the
changes occurring in the FBI’s overall fugitive-related efforts, as well as
within specific field offices.

The FBI’s Overall Fugitive-Related Efforts

       The FBI uses several investigative classifications that are categorized as
fugitive-related matters. According to an FBI official, the majority of fugitive
investigations fall within one of three investigative classifications:
(1) Classification 088A (Unlawful Flight to Avoid Prosecution (UFAP) – Crime of
Violence); (2) Classification 088B (UFAP – Property +$25,000 etc.); or
(3) Classification 088C (UFAP – All Others). We focused our data analyses on
these three areas and found that the FBI has reduced its efforts in fugitive-
related matters since FY 2000. Specifically, we found that the FBI’s combined
utilization of agents on these three investigative classifications decreased from
181 to 55 on-board agents between FYs 2000 and 2004, an almost 70 percent
reduction. Exhibit 7-1 provides details on the changes for each of the FBI’s
primary fugitive classifications during our review period.

                                 EXHIBIT 7-1
    FBI FIELD AGENT UTILIZATION IN FUGITIVE-RELATED MATTERS
                       FISCALS YEARS 2000 AND 2004
 Investigative Classification            FY 2000 FY 2004 Difference
 088A – UFAP – Crime of Violence           170      53      -117
 088B – UFAP – Property +$25,000 etc.        4       1       -3
 088C – UFAP – All Others                    7       1       -6
       Totals                              181      55      -126
 Source: OIG analysis of FBI TURK data


       Additionally, our analyses show that the FBI opened nearly 13,000 fewer
fugitive cases during FY 2004 than it had in FY 2000 in these classifications.
                                   - 81 -
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

In FY 2000, the FBI initiated 14,800 fugitive investigations, while in FY 2004
that number decreased to 1,808 – an 88 percent reduction. When looking
specifically at individual classifications, we identified the majority of the FBI’s
fugitive cases in FYs 2000 and 2004 were categorized as Classification 088A
matters. This particular area also experienced the greatest reduction in case
openings during the 5-year review period. Specifically, the FBI opened
13,387 Classification 088A cases during FY 2000 and only 1,721 during
FY 2004, a reduction of 11,666 cases that accounts for 90 percent of the
overall decrease in fugitive case openings. Our review of the number of case
serials inputted for fugitive cases further show the FBI’s decreased fugitive
effort. In FY 2004, the FBI filed 119,643 fewer case serials on fugitive-related
matters than it had in FY 2000, declining from 168,715 serials to 49,072.

FBI Field Division Fugitive-Related Efforts

       The information gathered during our site visits supports the changes
reflected in our analyses of FBI data. FBI officials at each field office we
visited said they had reduced their emphasis on fugitive cases. In some field
offices, this has meant elimination of separate fugitive-related squads. For
example, the Chicago Field Office used to have a separate squad focusing
solely on fugitive matters. After 9/11, this squad was merged with two other
violent crime squads. Thus, the office currently has one squad addressing
three separate crime areas, while previously it had a distinct squad handling
each matter on its own. Prior to the reorganization, the fugitive squad was
comprised of eight FBI agents, as well as task force officers from other law
enforcement agencies. The current violent crime squad, in which fugitive
investigations are handled along with other criminal investigations, consists of
12 FBI agents and other task force members.

      We analyzed the FBI’s agent utilization and casework data related to
each location’s fugitive efforts. Exhibit 7-2, which details the changes
experienced by the field offices between FYs 2000 and 2004, shows that
each office we visited has undergone considerable reductions in both
categories.




                                - 82 -
                     REDACTED FOR PUBLIC RELEASE
                            REDACTED FOR PUBLIC RELEASE


                                  EXHIBIT 7-2
                   CHANGES IN AGENT UTILIZATION & CASEWORK
                          RELATED TO FUGITIVE MATTERS
                                                         58
                      BETWEEN FISCAL YEARS 2000 AND 2004
                                             FY 2000   FY 2004                         Change in
                  FY 2000 FY 2004  Change
 Field Office                                 Cases     Cases                            Cases
                    AOB     AOB    in AOB
                                             Opened    Opened                           Opened
Chicago             7.26    3.33    -3.93      441         51                             -390
Los Angeles         9.11    3.88    -5.23      315         59                             -256
Miami               6.32    1.81    -4.51      867         22                             -845
New Orleans         1.20    0.26    -0.94       36          4                              -32
New York City      10.35    1.34    -9.01      382          0                             -382
Phoenix             3.47    1.77    -1.70      334         35                             -299
San Francisco       5.84    2.10    -3.74      358         34                             -324
Source: OIG analysis of FBI TURK and ACS data


         Officials at nearly every USMS district office visited remarked about the
   decline in the FBI’s investigative efforts in pursuing fugitives, commenting that
   the number of cases the FBI is now handling in this area has dropped
   considerably. Additionally, some USMS officials said that it seems to take the
   FBI a longer period of time to address the fugitive cases it works.

   Impact of Investigative Changes

          The FBI’s shift in priorities away from fugitive matters had various
   effects on other law enforcement agencies. For example, USMS officials at
   the sites we visited commented that their fugitive caseloads had increased
   since FY 2000, which they perceived as a result of the FBI’s reduced efforts in
   this area. Additionally, during our interviews some state and local law
   enforcement representatives expressed concerns regarding the FBI’s work on
   fugitive investigations. The following sections present the different concerns
   articulated by non-FBI agency officials.

   Increased Fugitive Caseload

          Some USMS officials at the district offices we visited indicated that
   their fugitive caseloads have increased since FY 2000. Besides the increase
   in their caseloads, these officials remarked that state and local law
   enforcement agencies have been contacting the USMS more often for
   assistance on fugitive matters.

         The USMS district officials said their offices have been able to handle the
   additional fugitive-related matters. However, many discussed the limited

          58
              The table provides the combined totals for the FBI’s these three primary fugitive
   investigative classifications: Classifications 088A, 088B, and 088C.

                                       - 83 -
                            REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE

resources with which the USMS has to conduct its duties. In particular, they
expressed concerns regarding their ability to maintain their increased
caseloads with current personnel and funding levels.

State and Local Fugitive Assistance

       When a local department contacts the FBI for assistance on a fugitive
matter, the FBI will often obtain a federal warrant, charging the subject with
“Unlawful Flight to Avoid Prosecution” (UFAP). Once a UFAP is obtained, no
other federal law enforcement agency can take on the matter unless the FBI
first annuls the UFAP. Although the majority of state and local officials we
interviewed did not comment on the FBI’s fugitive efforts, officials at one
department raised concerns about the FBI’s work on UFAP investigations.
Specifically, they explained that they have over 30 UFAPs with the FBI that
have been outstanding for prolonged periods of time. They stated that if the
FBI does not intend to address these cases, it should inform the department
so that it can pursue other avenues to apprehend the felons, such as
requesting assistance from other agencies.

      According to USMS representatives, state and local agencies have
requested USMS assistance on the apprehension of fugitives more frequently
now than in the past. They further noted that this increase is partly a result
of the FBI taking a longer period of time to address fugitive investigations.

USMS and FBI Coordination of Fugitive Efforts

       Both the FBI and USMS have task forces involved in the apprehension
of fugitives, and each solicits participation from state and local law
enforcement agencies. 59 According to USMS Headquarters officials, state
and local law enforcement agencies do not have adequate resources to
participate in both FBI and USMS task forces; thus, they must choose one or
the other. The USMS officials further stated that more times than not, these
agencies opt for the FBI’s fugitive task forces because the FBI-led task force
is able to offer them overtime funding and vehicles. As a result, the USMS
officials believed that their agency’s fugitive task force operations had been
negatively affected by the FBI’s fugitive efforts.

       For example, USMS Headquarters solicited feedback from various USMS
districts as to the occurrence of duplicate fugitive task forces and any
resulting impact. Of the 20 districts that responded, 19 indicated that the FBI
had an existing fugitive-related task force in place or was creating such a task
       59
           The OIG recently conducted a detailed evaluation of the USMS’s fugitive apprehension
efforts. See Department of Justice, Office of the Inspector General. Review of the United States
Marshals Service’s Apprehension of Violent Fugitives, Report Number I-2005-008, July 2005.

                                    - 84 -
                         REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE

force. We reviewed the USMS district submissions and found that in at least
two locations the USMS reported that it had been negatively affected by the
FBI’s fugitive task forces because members had left the USMS task force and
joined the FBI.

       It is clear from our discussions with USMS and FBI Headquarters
officials that the two agencies are not effectively communicating or
coordinating their efforts in the area of fugitive apprehension. FBI
Headquarters officials stated that the FBI and the USMS have met to discuss
the coordination of fugitive apprehension efforts but no concrete resolution
has resulted from these discussions. Moreover, officials responsible for
overseeing fugitive operations at both agencies acknowledged the lack of a
coordinated approach, and we believe that the relationship between these
two agencies could be improved.

Survey Results on Impact

       Our survey results indicated that the majority of responding state and
local law enforcement agencies had been minimally affected in the area of
fugitives as a result of the FBI’s reprioritization. Specifically, only 5 percent
of the respondents noted a negative impact from the FBI’s reduction in
fugitive-related investigations. Exhibit 7-3 is a graphical representation of
the survey results.

                             EXHIBIT 7-3
           SURVEY RESULTS OF THE IMPACT ON STATE AND LOCAL
                     LAW ENFORCEMENT AGENCIES’
                  FUGITIVE-RELATED INVESTIGATIONS




                   Source: OIG analysis of survey responses




                                 - 85 -
                      REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

Chapter Summary

      FBI data indicates a decline in the number of agents used for fugitive
investigations. In addition, FBI data shows almost 90 percent fewer fugitive
cases being opened in FY 2004 than in FY 2000. Comments by both FBI and
USMS field officials concur with the results of our data analyses. In addition,
our review indicated that the coordination and communication between the
FBI and the USMS on fugitive matters needs improvement.




                               - 86 -
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                      CHAPTER 8: BANK ROBBERIES

      Another area in which the FBI has reduced its efforts is the
investigation of bank robberies. Both FBI and non-FBI officials agreed that
the FBI is no longer addressing bank robberies at the same level as in the
past. Many of the state and local law enforcement representatives we
interviewed also cited the FBI’s reduced involvement in this area.

FBI Bank Robbery Measured Response Initiative

        The FBI has sole jurisdiction among federal law enforcement agencies
to investigate bank robberies. 60 In addition, the offense can be investigated
by local law enforcement agencies. In March 2001, FBI Headquarters
implemented a “measured response” initiative designed to scale back the
number of FBI bank robbery investigations. The initiative stated that a
“measured response in no way means no response.” It is also important to
note that the FBI’s initial decision to reduce its efforts related to bank
robberies was announced prior to 9/11 and the FBI’s reprioritization. The
initiative described the circumstances in which the FBI would continue to
aggressively respond, which were: (1) violent bank robberies (e.g., a
weapon was displayed or a gang-related robbery); (2) robberies in which a
significant financial loss occurred; or (3) situations involving serial robbers
and/or criminal organizations that cross jurisdictional boundaries.

       After 9/11 and the FBI’s resulting reprioritization, the “measured
response” initiative continues to exist and has been reiterated in memoranda
disseminated to FBI field offices on several occasions. During our site visits,
many FBI officials remarked that the FBI currently investigates only violent or
takeover-style bank robberies. For “note jobs” (a non-violent bank robbery in
which a note is used), the FBI opens a case, inputs information obtained from
local law enforcement regarding the incident into its analytical database, and
closes the case immediately thereafter. According to these FBI officials, the
FBI does not conduct an actual investigation in these types of bank robberies.

       In contrast, FBI officials at some offices stated that they continue to
respond and investigate all bank robberies, although fewer agents are sent to
investigate each incident than in the past. FBI officials in these districts said
it was important to work these cases because it helped strengthen
relationships with state and local partners.




       60
           If a bank robbery involves a weapon, the ATF has jurisdiction over the weapons-
related issues and can therefore perform a criminal investigation.

                                   - 87 -
                        REDACTED FOR PUBLIC RELEASE
                           REDACTED FOR PUBLIC RELEASE

  FBI Investigative Effort

        According to the FBI’s TURK system, the actual number of agents
  handling bank robberies decreased by nearly 30 percent between FYs 2000
  and 2004. Specifically, an average of 316 agents handled these cases in
  FY 2000 compared to 225 agents in FY 2004. Exhibit 8-1 illustrates the
  changes that occurred within the field offices we visited. Each office, except
  New York City, experienced an agent utilization reduction in bank robbery
  matters.

                                   EXHIBIT 8-1
                  FBI AGENT UTILIZATION ON BANK ROBBERIES
                           FISCAL YEARS 2000 AND 2004
                                     FY 2000   FY 2004 Number              Percent
Field Office
                                       AOB       AOB   Change              Change
Chicago                                14.2       9.0    -5.2               -37%
Los Angeles                            21.1      14.8    -6.3               -30%
Miami                                   7.7       7.1    -0.6                -8%
New Orleans                             4.5       3.7    -0.8               -18%
New York City                           7.3       8.7     1.4                19%
Phoenix                                 5.8       2.5    -3.3               -57%
San Francisco                          13.1       9.0    -4.1               -31%
Totals of Field Offices Visited        73.7      54.8   -18.9               -26%
Overall Totals for Entire FBI         315.5     225.0   -90.5               -29%
Source: OIG analysis of FBI TURK data


        According to FBI casework data, the FBI opened 1,067 more bank
  robbery cases during FY 2004 than in FY 2000. This increase is primarily a
  result of the FBI opening a case file for each bank robbery committed for the
  purpose of inputting all incidents into its analytical database. In reviewing the
  number of case serials inputted for bank robbery cases, the FBI actually
  decreased its bank robbery effort by 19 percent between FYs 2000 and 2004.
  We consider the casework serial figures and the FBI agent utilization data
  more reflective of the FBI’s actual investigative efforts in this area, since case
  openings for bank robbery matters does not necessarily reflect any actual
  investigation on the FBI’s part.

          The FBI’s decreased involvement in bank robbery investigations resulted
  in it referring fewer such matters to the USAOs. In total, the FBI forwarded
  10 percent fewer bank robbery matters to the USAOs since FY 2000,
  decreasing referrals from 2,019 in FY 2000 to 1,809 in FY 2004. In both
  FYs 2000 and 2004, the FBI contributed 98 percent of the bank robbery
  matters received by the USAOs.




                                      - 88 -
                           REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

External Observations and Impact

      The majority of the officials we interviewed at state and local law
enforcement agencies commented about the FBI’s reduced involvement in
bank robbery investigations since 9/11. For example, officials at the
Scottsdale, Arizona, Police Department and Tucson, Arizona, Police
Department stated that the FBI's response to bank robberies is probably the
most noticeable reduction that has occurred and that this reduction has
created a marked void. The officials at these two local agencies said that
the FBI’s reprioritization has placed an extra burden on many of the local
agencies who now must handle an increased bank robbery caseload.

      Officials at other state and local departments commented that the FBI
continues to assist on bank robbery cases. Many of these cases involved
armed or serial perpetrators and therefore the FBI’s participation was in line
with the FBI Headquarters “measured response” guidelines issued in
March 2001. For example, officials at the West Palm Beach, Florida, Police
Department remarked that the FBI was very much involved in the
investigation of a recent string of bank robberies that occurred in the city.

       Officials from the Ventura County, California, District Attorney’s Office
and the Ventura County, California, Sheriff’s Department told us that each
local law enforcement agency in the county had noticed an almost complete
withdrawal of FBI involvement in traditional crime matters, especially bank
robberies. Ventura County officials cited several specific bank robberies that
the FBI failed to assist local law enforcement agencies with the investigations.
For example, the Ventura County officials cited a string of liquor store
robberies in Ventura County in December 2004. Subsequent to the liquor
store robberies, the same suspects robbed banks located in five different
grocery stores, taking over the entire building each time. In each incident the
assailants were armed with automatic weapons. In March 2005, the suspects
were apprehended by local law enforcement officers while attempting to rob
one of the grocery store banks a second time. The investigation revealed that
the suspects were conducting their criminal activities in at least three counties,
using money laundering to purchase real estate in and out of the state.

      Ventura County officials stressed to us that the FBI was not involved in
the investigation of any of these incidents, even though these bank robbery
cases involved at least two of the criteria specifically articulated in the FBI’s
“measured response” initiative for bank robbery investigations. We discussed
this matter with FBI officials in the Los Angeles Division who reported that
they were unaware of the situation and agreed to look into the issue.



                                - 89 -
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

       The results of our web-based survey shed additional light on the impact
that the FBI’s shift in investigative priorities has had on state and local law
enforcement agencies’ efforts to investigate bank robberies. Overall,
approximately 10 percent of respondents (128 out of 1,232 responses)
responded that their agency’s operations were negatively affected to some
degree by the FBI’s reduced involvement in bank robbery investigations.
Approximately 9 percent of participants (107 out of 1,232 responses)
indicated a positive effect of the FBI’s reprioritization on their investigative
efforts, while the remaining responses noted either no impact or were
inapplicable.

       Several USAO representatives commented that the FBI has not
investigated bank robbery cases as much as it had in the past. For example,
USAO officials from the Southern District of Florida noted fewer bank
robbery cases were brought to the USAO by the FBI. As a result, these
officials reported that they are considering a new initiative under which
certain cases investigated by local law enforcement could be referred for
federal prosecution. USAO representatives in the Southern District of
New York also observed a decrease in the number of bank robbery cases the
FBI investigated over the past 4 years. The Assistant U.S. Attorneys we
interviewed in New York also noted that there has not been a decrease in
the number of bank robberies in their jurisdiction, and they said they would
like to see more FBI resources allocated to investigate these cases because
federal courts have more severe sentences than state courts.

       Some FBI Headquarters and field officials commented that state and
local law enforcement agencies are fully capable of handling most bank
robbery investigations, especially the larger police and sheriff’s departments.

Chapter Summary

       Both FBI and non-FBI officials agreed that the FBI was no longer
addressing bank robberies as aggressively as it had prior to 9/11. These
statements were corroborated by our analyses of FBI data, which revealed
that the FBI used fewer agents on such matters in FY 2004 than in FY 2000.
According to state and local officials, the primary effect of the FBI’s reduced
role in bank robberies was an increase in their caseloads. In a few instances,
we were informed of bank robbery caseloads that were exceeding state and
local law enforcement capabilities.




                               - 90 -
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


                   CHAPTER 9: IDENTITY THEFT

       The crime nearly all local law enforcement agencies cited as the most
critical for federal involvement was identity theft. The nature of this crime
often places the victim and offender in separate geographical jurisdictions –
different cities, different states, or even different countries. Additionally,
many identity theft offenses are technically complex and exceed the abilities
of local law enforcement to successfully investigate. Taken together, these
jurisdictional and technical impediments generally affect local law
enforcement agencies’ ability to address identity theft offenses.

       In testimony before the U.S. Senate Judiciary Committee on April 13,
2005, the FBI’s Assistant Director for the Criminal Investigative Division stated
that “Identity theft has emerged as one of the dominant white-collar crime
problems of the 21st Century.” In this same hearing, he commented that
identity theft usually is not a singular crime; normally it is associated with
other thefts or frauds, such as mortgage fraud and health care fraud.
Moreover, he stated that identity theft crimes are normally perpetrated via the
Internet. These factors make identity theft a complex crime to investigate.

      Many law enforcement officials we interviewed said that identity theft
has become a major crime problem affecting their constituents. For example,
representatives from several local police departments in Arizona, including
the Mesa Police Department and Tucson Police Department, listed identity
theft as one of their predominant crime problems and the officials expected
continued increase in such incidents. Officials from the Miami-Dade County,
Florida, Police Department remarked that identity theft is “out of control” in
South Florida. Los Angeles County, California, Sheriff’s Department officials
stated identity theft has become a significant, high-profile crime problem over
the past 4 years.

       Several local police agency representatives noted the need for a
national plan to combat identity theft; a plan they said must come from the
federal government. In particular, Miami-Dade County, Florida, Police
Department officials stated that a void exists in law enforcement’s response
to this crime and that a federal agency needs to assume a larger role in
combating this problem.

FBI Involvement

      Identity theft has only recently become recognized as a major crime
matter. Therefore we cannot assess the impact on identity theft
investigations resulting from the FBI’s shifting of priorities and resources.
According to FBI data, the FBI opened 36 cases that were strictly identity
theft matters in FY 2004 and utilized 2.5 on-board agents to specifically
                                - 91 -
                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

address identity theft issues in FY 2004; statistics are not available for
FY 2000 because the FBI had not yet created a specific subprogram for
identity theft. However, as previously stated, identity theft is often part of
larger fraud schemes and the FBI may have been involved in many more
identity theft investigations through cases tracked under different
investigative classifications, like health care fraud or bank fraud. FBI
officials provided the OIG with a report that presented the number of
pending FBI investigative cases with an identity theft link. During FY 2004,
the total number of such pending cases was nearly 900 for the entire FBI,
including its legal attaché offices.

       Some FBI offices participate in identity theft task forces, such as the
Chicago Metropolitan Identity Fraud Task Force. This task force includes
local, state, and federal law enforcement agencies, as well as representatives
from the private sector, such as the banking industry. In addition, the FBI
participates on the Southern California High Technology Task Force led by the
Los Angeles County, California, Sheriff’s Department, which focuses on
identity theft.

Need for Federal Strategy on Identity Theft

       The survey results indicated that the majority of responding state and
local law enforcement agencies had been minimally affected in the area of
identity theft as a result of the FBI’s reprioritization. Specifically, only
10 percent of the respondents noted a negative impact on their agencies
investigative efforts in identity theft matters resulting from the FBI’s
reprioritization. Exhibit 9-1 is a graphical representation of the survey
results.

                             EXHIBIT 9-1
           SURVEY RESULTS OF THE IMPACT ON STATE AND LOCAL
                     LAW ENFORCEMENT AGENCIES’
                   IDENTITY THEFT INVESTIGATIONS




                     Source: OIG analysis of survey responses

                                - 92 -
                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


       Many law enforcement agencies are involved in identity theft
investigations, such as the U.S. Postal Inspection Service (USPIS), U.S.
Secret Service, ICE, and local police and sheriff departments. However, few
local police departments consider themselves capable of investigating many
identity theft cases. For example, officials at several local agencies in the
Miami area explained that these crimes often surpass their agencies’
expertise. Some of these officials remarked that their departments can
address a few of these incidents but not the massive number of such
violations that occur. They believed that the involvement of the federal
government is crucial to fighting this growing crime problem.

       Moreover, with several different federal agencies investigating identity
theft cases, local law enforcement officials said they are, at times, confused
about which agency to turn to for assistance. Overwhelmingly, local law
enforcement agencies conveyed the need for the development of a federal
strategy to combat identity theft at all levels of law enforcement.




                                - 93 -
                     REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


                CHAPTER 10: PUBLIC CORRUPTION

       Public corruption is the FBI’s highest criminal investigative priority, and
its fourth highest priority overall. The FBI has the authority to investigate
corruption across all levels of government – local, state, and federal – and
across all branches – legislative, executive, and judicial. Consequently, the
FBI is the primary investigative agency for public corruption matters. Local
law enforcement agencies and federal Offices of Inspectors General also
investigate corruption matters involving employees of their respective
agencies.

      According to FBI field managers, public corruption investigations often
require difficult, time-consuming source development. USAO officials agreed
with these statements and noted that public corruption cases take longer to
develop than other public integrity cases, such as government fraud, due to
the complex and sensitive nature of the investigations.

Statistical Evaluation of FBI Public Corruption Efforts

       The FBI’s public corruption resource allocations are included within its
white-collar crime allotments and are not specifically identified as public
corruption allocations. Therefore, we could not determine specific funded
staffing levels (FSL) for public corruption matters. However, we were able to
evaluate the actual FBI agent utilization in the public corruption area.
Overall, between FYs 2000 and 2004, the FBI utilized 36 (or 8 percent)
fewer agents on public corruption matters, decreasing from 465 agents in
FY 2000 to 429 agents in FY 2004. The FBI initiated 849 public corruption
cases during FY 2000 and 834 such cases during FY 2004. Viewing the FBI’s
activity through a different lens, we found that the number of serials
inputted in public corruption cases declined 23 percent between FYs 2000
and 2004.

      Using fewer resources and opening fewer public corruption cases, the
FBI forwarded 63 fewer public corruption matters to the USAOs comparing
FYs 2000 and 2004 – 673 referrals in FY 2000 compared to 610 in FY 2004.
This 9-percent decline correlated with the USAOs’ overall 7-percent decline
in public corruption matters received from all agencies. The FBI accounted
for about 75 percent of public corruption matters received by the USAOs in
both FYs 2000 and 2004.

FBI Field Divisions

      We also conducted agent utilization analyses at the field level and
looked specifically at the seven field divisions that we visited. As Exhibit 10-1

                                 - 94 -
                      REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE

demonstrates, FBI field divisions experienced disparate changes between
FYs 2000 and 2004 in their level of public corruption effort. While the
Chicago Division increased the number of agents investigating public
corruption by seven agents, the Los Angeles and New York City Divisions
each decreased by six and eight agents, respectively.

                           EXHIBIT 10-1
        FBI FIELD AGENT UTILIZATION AND CASE OPENINGS ON
         PUBLIC CORRUPTION MATTERS AT DIVISIONS VISITED
                    FISCAL YEARS 2000 AND 2004
                          Agent Utilization            Case Openings
 Field Division     FY 2000 FY 2004 Change       FY 2000 FY 2004 Change
 Chicago               23        30          7      34       40        6
 Los Angeles           20        14         -6      29       40       11
 Miami                 13        17          4      47       18      -29
 New Orleans           20        23          3      22       20       -2
 New York City         25        17         -8      18       19        1
 Phoenix                9        12          3      18       17       -1
 San Francisco          8         9          1      12       14        2
 Source: OIG analysis of FBI TURK and ACS data


       Additional analyses of FBI ACS data for these field offices reflected
differing results – some offices opened more cases during FY 2004 than
during FY 2000, while others initiated fewer investigations. One of the most
noticeable changes occurred within the Miami Field Office. In FY 2000,
Miami opened 47 public corruption cases compared to 18 in FY 2004, a
62 percent reduction. In contrast, the Los Angeles Field Office opened
35 percent more public corruption cases in FY 2004 than it had in FY 2000,
moving from 29 investigations in FY 2000 to 40 in FY 2004, even though it
utilized fewer agents on public corruption matters during this time period.

Public Corruption’s Priority Status

      Our fieldwork indicated that some FBI offices assessed their public
corruption efforts and decided that changes were necessary to adequately
combat this high priority crime area. For instance, although the Phoenix Field
Office had reduced the number of its white-collar crime squads from five to
two, the two remaining squads primarily focused on addressing public
corruption matters. Similarly, the Miami Field Office devoted two squads to
combat the significant corruption problems in South Florida.

      At the New Orleans Field Office, public corruption was placed ahead of
cyber crime in its prioritization of investigations because of the problem public
corruption posed in the New Orleans area. In fact, according to FBI officials,
the New Orleans Field Office has the third largest public corruption problem in

                                  - 95 -
                       REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

the country. To address these issues, the office established a separate public
corruption squad at its Baton Rouge Resident Agency.

       However, it appeared that some field offices were not giving these
matters sufficient priority. For example, FBI officials in the New York City
Division stated to us that since New York City is a premier financial center,
corporate fraud and high-profile bank fraud matters must be considered a
higher priority than public corruption. As a result, the New York City Division
experienced a reduction in agent utilization on public corruption matters
during FY 2004 as compared to FY 2000, while case openings remained
relatively static over the same period of time.

       In January 2005, the FBI initiated an effort to review the public
corruption efforts within its field offices. As a result, the New York City
Division was developing a second public corruption squad to provide
additional resources to investigate public corruption within the Division’s
jurisdiction. Further, at our exit conference the FBI provided evidence that it
had significantly increased its public corruption efforts in FY 2005 compared
to FY 2004.

Impact of Public Corruption Emphasis

       FBI field division managers stated that any additional public corruption
resources they received were often agents transferred from government
contract fraud investigations. Therefore, according to FBI field managers,
many government contract squads within FBI field divisions were reduced,
rolled into general white-collar crime squads, or completely eliminated.

      For instance, the Chicago Division previously had a public corruption
squad and a government contract squad. Currently, the office operates
two public corruption squads and no government contract squad. Similarly,
the FBI’s New York City Division indicated that it intends to follow Chicago’s
lead and convert its only government contract fraud squad into its second
public corruption squad.

      Exhibit 10-2 shows the changes in agent utilization and case openings
in government fraud matters for FYs 2000 and 2004. The data shows that
agent resources investigating these matters were reduced by 51 percent,
while case openings declined by 56 percent.




                               - 96 -
                    REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


                              EXHIBIT 10-2
           OVERALL FBI EFFORTS ON GOVERNMENT FRAUD MATTERS
                       FISCAL YEARS 2000 AND 2004
          AGENT UTILIZATION                   CASE OPENINGS




Source: OIG analysis of FBI TURK and ACS data


      We also reviewed agent utilization and casework data at the field office
level. As evidenced in Exhibit 10-3, all the field offices that we visited
experienced decreases in agent utilization for government fraud matters
from FY 2000 to FY 2004. The data shows that the San Francisco Division
did not have a single agent investigating government contract fraud during
FY 2004. By contrast, the Los Angeles Division utilized 12 agents on
government fraud matters in FY 2004. Compared to FY 2000, each office
opened fewer government fraud cases during FY 2004. In fact, all offices
except New Orleans experienced case opening reductions in excess of
50 percent compared to FY 2000 figures.

                            EXHIBIT 10-3
         FBI FIELD AGENT UTILIZATION AND CASE OPENINGS ON
          GOVERNMENT FRAUD MATTERS AT DIVISIONS VISITED
                     FISCAL YEARS 2000 AND 2004
                          Agent Utilization             Case Openings
Field Division      FY 2000 FY 2004 Change       FY 2000 FY 2004    Change
Chicago                 8        4          -4      25        2       -23
Los Angeles            17       12          -5      47       16       -31
Miami                   3        1          -2       4        0        -4
New Orleans             3        2          -1      15        8        -7
New York City           9        4          -5      21        8       -13
Phoenix                 4        1          -3       9        3        -6
San Francisco           7        0          -7       7        3        -4
Source: OIG analysis of FBI TURK and ACS data




                                    - 97 -
                         REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

Chapter Summary

      Although public corruption is the FBI’s fourth highest national priority,
the FBI utilized fewer resources in this area in FY 2004 than it did in
FY 2000. This decline resulted in fewer case openings during FY 2004 and
less activity in public corruption cases, as evidenced by the 23-percent
decline in case serials. Additionally, the FBI’s reduced investigative efforts
corresponded with fewer public corruption matters referred to the USAOs.




                                - 98 -
                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


              CHAPTER 11: OTHER CRIME MATTERS

       In addition to the traditional crime areas discussed in Chapters 5
through 10, law enforcement officials raised concerns related to other crime
areas during our fieldwork. For example, FBI and non-FBI officials discussed
problems in their investigative efforts to combat child pornography, human
trafficking, and alien smuggling. The primary problem for federal agencies,
according to these officials, including the FBI, was a lack of resources to
adequately address these crimes. Moreover, state and local law
enforcement agencies often lacked sufficient resources and the technical
capability or jurisdictional authority that may be required for these
investigations. In addition, we heard concerns about coordination issues
arising between the FBI and ICE in each of these criminal areas.

Child Pornography

      According to FBI, ICE, and local law enforcement officials, online child
pornography (or child sexual exploitation) is an escalating crime problem.
Groups involved in child pornography are not necessarily located in the same
geographic area, or even the same country. The FBI and ICE are the two
primary federal law enforcement agencies that investigate child pornography
matters. However, in pursuing these cases, each of these agencies has
established its own approach: the FBI developed the Innocent Images
National Initiative (Innocent Images) and ICE created the Operation Predator
program.

FBI Investigative Efforts

       The FBI implemented the Innocent Images initiative in 1995 to:
(1) identify, investigate, and prosecute sexual predators who use the
Internet and online services to exploit children sexually; (2) establish a
law enforcement presence on the Internet as a deterrent to subjects that
use it to exploit children; and (3) identify and rescue child victims.
Through this initiative, the FBI focuses on individuals who indicate a
willingness to travel across state lines for the purposes of engaging in
sexual activity with a minor, as well as those who produce and distribute
child pornography. The FBI’s Cyber Division oversees the FBI’s
investigative efforts in child pornography matters.

      Our analysis of FBI agent utilization data indicates that the FBI has
enhanced its efforts in child pornography matters between FYs 2000 and
2004. Overall, the FBI used 110 agents in this area during FY 2000, which
increased by over 100 percent to 242 agents in FY 2004. Similarly, the FBI


                                - 99 -
                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

significantly increased its child pornography investigations opened during the
past 4 years, increasing from 60 cases in FY 2000 to 2,647 cases in FY 2004.

      Despite the FBI’s increased efforts, officials at several FBI field offices
stated that the volume of child pornography far outweighs the FBI’s available
resources for investigating these matters, which officially fall under the FBI’s
Cyber Crime Program. As a result, some field divisions often focus only on
the most significant cyber crime incidents, which often pertain to non-child
pornography issues, such as computer intrusions.

      Some FBI field offices, including New Orleans, Phoenix, and
San Francisco, are involved in task force operations that combine FBI
resources with other agencies in combating child pornography. For example,
the FBI San Francisco Division participates on two such task forces, one of
which includes ICE.

      In contrast, other FBI offices we visited did not coordinate their child
pornography efforts with any other federal agencies. FBI managers in
Chicago, Miami, and New York City each acknowledged that although ICE
was involved in child pornography investigations, there has not been
coordinated efforts between the two federal agencies.

Perspective from Other Law Enforcement Agencies

      ICE officials in the field expressed similar sentiments on coordination
between the FBI and ICE. Some ICE offices, such as New Orleans and Phoenix
(which are involved in child pornography task forces with the FBI), did not
report any friction between the two agencies on child pornography matters. In
contrast, ICE managers in the Chicago and New York City offices commented
that no coordination existed between the FBI and ICE on child pornography
matters. For example, ICE managers in Chicago stated that the FBI has not
been receptive to working with ICE in this area, nor has the FBI shared any
investigative information with ICE. Consequently, ICE officials expressed
concerns regarding duplication of investigative effort in this criminal area. The
Special Agent in Charge at the FBI Chicago Division told us that he would
discuss this matter with ICE officials.

     Representatives from several state and local law enforcement agencies
commented that they needed assistance from federal law enforcement in
combating child pornography. Certain local officials remarked that child
pornography cases entail a level of technological expertise beyond that
possessed by many local departments. Additionally, they indicated that
many of these crimes are beyond their jurisdictional boundaries.



                                - 100 -
                     REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE

Alien Smuggling and Human Trafficking

       Alien smuggling and human trafficking are two criminal activities that
fall under U.S. immigration and naturalization laws. Alien smuggling
involves the illegal transportation of foreign persons across U.S. borders,
while human trafficking is, essentially, a modern-day slave trade where
victims are forced against their will into prostitution or labor offering little or
no pay.

      Alien smuggling and human trafficking are often committed by criminal
enterprises. Moreover, law enforcement officials have commented on the
potential of terrorism-related persons or equipment being transported into
the United States during these criminal operations.

Perspective from Other Law Enforcement Agencies

       According to ICE managers in Los Angeles, the USAO wanted the FBI,
ICE, and the Department of Labor to be jointly involved in each human
trafficking investigation, which these officials stated was occurring at the
time of our fieldwork in April 2005. These ICE officials also believed that this
strategy worked well.

       According to ICE managers in Phoenix, their office has experienced a
significant increase in the number of immigration-related cases, while
simultaneously undergoing reductions in resource levels. As a result, these
officials noted that their office is unable to address every alien smuggling case.

FBI Perspective

       During our site visits, FBI managers in Phoenix remarked that alien
smuggling is a significant crime problem in Arizona due to its location on the
Southwest Border. Despite the extent of the problem, these officials stated
that the office was investigating only a handful of alien smuggling cases
because they do not have available resources to devote to this criminal
activity.

      FBI managers in Los Angeles commented that a duplication of effort
exists between the FBI and ICE in human trafficking and alien smuggling and
indicated that a clarification of investigative responsibility is greatly needed.
They said that, in Los Angeles, the FBI joined ICE’s human trafficking task
force to help reduce duplicative efforts.

     According to FBI officials, they have drafted a memorandum of
understanding and are actively seeking to coordinate with ICE on alien


                                 - 101 -
                      REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

smuggling and human trafficking matters. However, this document has not
been finalized.

Chapter Summary

      FBI and ICE officials we interviewed during our audit cited problems in
investigating child pornography, human trafficking, and alien smuggling.
These federal agencies were primarily concerned about the amount of
resources available to adequately address these crimes. State and local law
enforcement agency officials commented that they also lacked sufficient
resources. In addition, these officials stated that their agencies lacked the
technical ability and jurisdictional authority often required to handle these
investigations. Moreover, in certain locations we identified a lack of
coordination between the FBI and ICE on these types of cases.




                               - 102 -
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


       CHAPTER 12: FBI RELATIONSHIPS WITH OTHER
              LAW ENFORCEMENT AGENCIES

      Good communication and positive working relationships between law
enforcement agencies are critical for effective and efficient law enforcement.
Given its broad investigative jurisdiction, the FBI has significant contact with
other law enforcement personnel on the federal, state, and local levels. The
FBI’s relationships with its law enforcement partners are crucial in combating
crime, both reactively and proactively.

      According to FBI managers and other law enforcement officials, the
overall relationships between the FBI and other agencies have improved
over the last few years. At the field level, other federal, state, and local law
enforcement agencies generally reported in our interviews that they
considered their relationships with the FBI to be good.

FBI Relationships with Law Enforcement Community

      As part of the FBI’s reprioritization, the FBI Director emphasized the
necessity of establishing partnerships with other federal, state, and local law
enforcement agencies. For example, he cited the formation of these
partnerships as one of the FBI’s new priorities. Additionally, the FBI Director
established the FBI Office of Law Enforcement Coordination (OLEC) in
March 2002 to enhance the FBI’s relationships with state and local law
enforcement agencies. The OLEC’s mission is to establish and maintain
partnerships between the FBI, state and local law enforcement entities, and
national organizations such as the International Association of Chiefs of
Police, for the purpose of mutual assistance and cooperation.

       Management personnel at FBI Headquarters told us they recognized
the increasing importance of building better relationships among law
enforcement agencies and the communities they serve. Statements by
officials at many of the FBI field offices reflected the Director’s emphasis on
establishing cooperative efforts with members of the law enforcement
community. In general, they believed they had positive working
relationships with other law enforcement agencies. Several FBI field division
managers emphasized that professional relationships are dependent on the
personalities of those involved. They noted that the discovery of
communication gaps between agencies regarding the events leading up to
the 9/11 terrorist attacks on the United States highlighted the need for
improving relationships within the law enforcement community.




                                - 103 -
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

Other Federal Agencies

      Within the field, non-FBI officials remarked that problems would arise at
times among federal divisional offices, but most of these were addressed and
corrected at the field level. Additionally, we spoke with almost 90 non-FBI
federal law enforcement officials and nearly all remarked that their relationships
with the FBI were good to outstanding. In addition, the majority commented
that their interactions with the FBI had improved over the past few years.

State and Local Agencies

      Almost every state and local law enforcement representative that we
interviewed acknowledged a good relationship with the local FBI field office, and
reported that this relationship appeared to become stronger over the past few
years. Additionally, many local law enforcement agencies indicated that the
FBI’s sharing of information with local departments has improved since 9/11.
One example cited was the dissemination of intelligence bulletins. However,
much of this information is terrorism-related, and several local officials
indicated that they would like the FBI to share more of its intelligence and
research regarding traditional crime areas, such as gangs and organized crime.

      However, local law enforcement officials were concerned about
maintaining working relationships when FBI agents are frequently
transferred, either through the FBI’s reprioritization from criminal to
terrorism-related squads or through normal career transfers. These
movements required new agents to rebuild relationships and re-establish
trust with local departments, all of which requires time and commitment.

Best Practice

       In several areas we visited, monthly meetings of law enforcement
agency managers within a jurisdiction were highly regarded. According to
many officials, these meetings fostered and maintained good working
relationships among the law enforcement community. Additionally, these
meetings provided an opportunity for agencies to share ideas and information
surrounding current investigative efforts. For example, these meetings were
being held in both Chicago and Phoenix, and all parties involved agreed that
these meetings were beneficial. Further, FBI managers at other field divisions
stated that such meetings were not occurring in their jurisdictions and might
be worthwhile to replicate.




                               - 104 -
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


CHAPTER 13: OIG CONCLUSIONS AND RECOMMENDATIONS

       After 9/11, the FBI reoriented its investigative efforts away from many
traditional criminal areas to focus on counterterrorism. Comparing FY 2004
to FY 2000, the FBI planned to use 1,143 (17 percent) fewer resources in its
criminal programs during FY 2004. However, according to FBI agent
utilization data, the FBI actually reduced its criminal resources more than
twice as much as it had intended. In turn, the FBI opened fewer criminal
cases and referred fewer criminal matters to the USAOs in FY 2004 than in
FY 2000.

       To examine the effect the FBI’s reprioritization has had on other law
enforcement agencies, we interviewed representatives at numerous federal,
state, and local law enforcement agencies. Additionally, we disseminated a
web-based survey to 3,514 state and local law enforcement agencies to
obtain a large-scale perspective on the impact that the FBI’s reprioritization
has had on their operations. Overall, the results of the survey indicated that
most state and local law enforcement agencies did not believe that criminal
investigations in their jurisdictions were greatly affected by the FBI’s
reprioritization. However, according to our follow-up discussions with
representatives of the law enforcement community in seven FBI field
jurisdictions, the effect was more pronounced in some jurisdictions and in
some criminal areas.

      As a result of our review, we provide the following conclusions and
recommendations for the FBI to consider in allocating its agent resources
and for improving specific areas of its operations.

FBI Resource Projection

       In FY 2004, the FBI allocated 5,753 field agents for criminal matters,
but only utilized 4,474 of these agents on such issues – a difference of
1,279 agents. A similar underutilization of FBI agents on criminal matters
also existed in FY 2003. According to FBI Headquarters and field-level
managers, FBI field offices were directed to ensure that the FBI’s national
priority areas were adequately staffed and that no terrorism-related matter
went unaddressed. These officials further stated that this explains the
significant gap in the utilization and allocation figures. However, the FBI
needs to make sure that its allocations of field agents to both terrorism and
non-terrorism programs are practical, effective, and based upon sound
evaluations of need.

      1.    We recommend the FBI ensure that it has accurately evaluated
            its investigative needs and necessary resource levels within each

                               - 105 -
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

            area of the FBI’s operations – including both terrorism and non-
            terrorism related programs – and translate this information into
            realistic field agent allocations.

Financial Institution Fraud

       The FBI significantly reduced its investigative efforts for fraudulent
activity involving financial institutions (such as banks). Principally, the FBI
scaled back its handling of lower dollar cases [SENSITIVE INFORMATION
REDACTED]. We agree that the FBI must prioritize its investigations and
first address the most egregious criminal activities. However, discussions
with USAOs and analysis of USAO data revealed that no other federal agency
has replaced the reduced FBI effort in this crime area. Therefore, an
investigative gap exists for financial institution fraud (FIF), [SENSITIVE
INFORMATION REDACTED].

Telemarketing/Wire Fraud

      According to FBI officials, FBI field offices are only nominally involved
in the investigation of telemarketing and wire fraud. Additionally, no other
law enforcement agency has assumed a significantly larger investigative role
in these areas. Therefore, an investigative gap also exists for telemarketing
and wire fraud.

Health Care Fraud

      The FBI was provided funding on a reimbursable basis to address
health care fraud issues. Through this funding, the FBI allocates agents to
specifically address health care fraud issues. In FY 2004, the FBI allocated
420 reimbursable agent positions towards this endeavor. However, our
review of FBI agent utilization data showed that the FBI used approximately
380 agents for health care fraud matters.

      In its April 2005 report, the GAO noted the FBI’s failure to utilize
agents at the level at which it was being reimbursed. In its response to this
finding, the FBI stated that its health care fraud investigative effort included
other costs besides agent salaries. Nonetheless, the FBI overestimated the
number of agents it would dedicate to health care fraud matters by over
40 positions. At our exit conference, the FBI provided evidence that it
increased its efforts related to health care fraud in FY 2005 compared to
FY 2004.

      2.    We recommend the FBI ensure that it accurately conveys to
            Congress the number of agents it will dedicate to health care
            fraud using reimbursable funds.

                                - 106 -
                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE



Drugs

       Since 9/11, the FBI significantly reduced the number of agents working
on drug-related matters. Consequently, the FBI has opened fewer drug-
related cases and has submitted fewer drug-related criminal matters to the
USAOs in FY 2004 than it had in FY 2000. Specifically, our analysis of USAO
data revealed that the FBI had submitted almost 1,600 fewer drug-related
criminal matters to the USAOs in FY 2004 than it had in FY 2000. Other
federal law enforcement agencies, particularly the DEA and ATF, increased the
number of drug trafficking matters that they referred to the USAOs between
FYs 2000 and 2004. However, these increases did not fully compensate for
the overall decrease in drug-related matters referred to the USAOs. The DEA
field managers we interviewed stated that their drug-related efforts had not
been negatively affected by the FBI’s reprioritization in the large metropolitan
areas, but some of these officials were concerned that an investigative gap
existed in smaller population centers surrounded by rural areas. Many of the
state and local law enforcement officials we interviewed noted that their
operations had not been adversely affected by the FBI’s change in priorities.

Gangs

      Gang-related crime is a serious problem in many jurisdictions.
Numerous federal agencies, in addition to many local law enforcement
departments, investigate gang-related criminal activity. With multiple
agencies involved, communication and coordination are essential to effectively
investigating gang crime. The Chicago law enforcement community has
established a working group that meets monthly to discuss each agency’s
gang investigations, to share gang-related intelligence, and to formulate a
comprehensive gang strategy. All federal and local agencies in the Chicago
area that address gang crime participate in these meetings. In other cities,
however, we discovered an uncoordinated approach in gang matters among
the FBI and other law enforcement agencies. FBI field division managers in
other cities indicated that coordination meetings would benefit the fight
against gangs in their jurisdictions.

      At our exit conference, the FBI informed us of a new DOJ initiative, led
by the USAOs, aimed at improving coordination, increasing information
sharing, and reducing duplication of efforts in combating gangs. In July 2005,
the FBI promulgated guidance on this anti-gang initiative to its field offices and
directed them to work with the local USAOs in implementing the new strategy.




                                - 107 -
                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

      3.    We recommend the FBI ensure that field offices are coordinating
            their anti-gang investigative efforts and executing the DOJ anti-
            gang initiative.

Fugitive Apprehension

       The FBI’s reprioritization process involved assessing the criminal areas
in which the FBI has concurrent jurisdiction with other federal law
enforcement agencies and deciding which of these areas were appropriate
for reduction of FBI involvement. One of these areas is the apprehension of
fugitives, where responsibility is shared with the USMS. FBI agent utilization
data demonstrates that the FBI significantly reduced its involvement in
fugitive-related matters over the past four years, partly because of the work
of the USMS in this area. However, a notable lack of coordination between
the FBI and the USMS exists in the fugitive apprehension arena.

      4.    We recommend the FBI seek to better coordinate fugitive
            apprehension efforts with the USMS.

Public Corruption

      Despite the priority status of public corruption cases, our review
disclosed that public corruption was addressed by the FBI at a slightly
reduced level in FY 2004 compared to FY 2000. Additionally, we found that
the FBI’s largest field office, the New York City Division, only recently
evaluated its public corruption needs in light of the offense’s priority status
within the FBI. According to the FBI, it has established an initiative to
ensure that all field offices are appropriately prioritizing public corruption
matters. Further, at our exit conference the FBI provided evidence that it
had significantly increased its public corruption efforts in FY 2005 compared
to FY 2004.

Bank Robberies

       Both FBI and non-FBI officials we interviewed agreed that the FBI is no
longer addressing bank robberies at the same level as in the past. In a few
instances, we were informed of bank robbery caseloads that were exceeding
state and local law enforcement capabilities. The FBI’s diminished
involvement in this crime area is consistent with the FBI’s bank robbery
“measured response” policy established in March 2001, which was designed
to scale back the FBI’s involvement in bank robbery investigations and focus
its involvement on violent, serial, or take-over style acts. In most field
offices, we found that the FBI adhered to the measured response policy,
which continues to be in existence.


                                - 108 -
                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

Identity Theft

      The crime of identity theft is an increasing problem in the United States.
Several local law enforcement officials reported that their agencies do not have
the ability or jurisdictional authority to effectively address this crime. Several
federal agencies, including the FBI, are involved in combating identity theft.
However, our review revealed that the federal investigative response to these
matters is often uncoordinated and local law enforcement officials said they
are, at times, confused about which agency to turn to for assistance.
Overwhelmingly, local law enforcement agencies conveyed the need for the
development of a federal strategy to combat identity theft at all levels of law
enforcement.

      5.    We recommend the FBI pursue the formation of a multi-agency
            working group to develop and implement a national strategy to
            combat identity theft. This group should include, at a minimum,
            representatives from within the DOJ, including the FBI, as well
            as the U.S. Postal Inspection Service, the U.S. Secret Service,
            ICE, and local law enforcement.

Operational Coordination with ICE

       Because the FBI and ICE share responsibility for investigating several
crimes, coordination of operations involving such shared authority is important
to the effective use of both agencies’ resources. In our discussions with FBI
and ICE field managers, we identified three criminal areas in which these
agencies need to improve their coordination and communication: (1) child
pornography, (2) alien smuggling, and (3) human trafficking. At the exit
conference, FBI officials informed us that they are working with ICE on a
memorandum of understanding related to alien smuggling and human
trafficking matters. This agreement has not been finalized.

      6.    We recommend the FBI continue to work with ICE to develop
            agreements for coordinating FBI and ICE investigations of
            human trafficking and alien smuggling, as well as child
            pornography.

Best Practice

       During our discussions with FBI field managers, we identified a practice
that the FBI should consider in other FBI field divisions. Law enforcement
officials in Phoenix and Chicago hold monthly meetings of operations
management personnel from various agencies. All participants with whom we
met believed these meetings were useful in fostering communication and the
sharing of information. Additionally, FBI managers at other field divisions
                                - 109 -
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

stated that such meetings were not taking place in their jurisdictions but
believed that the meetings would be beneficial.

      7.    We recommend the FBI pursue regular meetings among law
            enforcement officials, similar to the meetings held in Phoenix
            and Chicago, in more jurisdictions.




                               - 110 -
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                                 APPENDIX I
   APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY

Audit Objective

      The objective of this audit was to assess the change in FBI
investigative resources devoted to criminal areas and assess the impact of
these changes on other federal, state, and local law enforcement entities.

Scope and Methodology

      We performed our audit in accordance with the Government Auditing
Standards issued by the Comptroller General of the United States and included
such tests of the records and procedures that we considered necessary to
accomplish the audit objective. The informational nature of our audit objective
did not require that we perform testing of the FBI’s compliance with laws and
regulations or overall internal control structure. To accomplish our objective,
we interviewed officials at various law enforcement agencies, conducted a
web-based survey of state and local law enforcement agencies, and analyzed
computer-processed data from the FBI and Executive Office for United States
Attorneys (EOUSA).

Interviews

      Much of our work centered on interviews with officials at various
federal, state, and local law enforcement agencies, which were conducted at
the headquarters and field office levels. These interviews, as well as
documentation obtained during interviews, provided perspective on the
effects that the FBI’s shifting priorities and resources had on it and the law
enforcement community as a whole. In total, we interviewed 328 law
enforcement representatives.

      Of these interviews, 65 were conducted with executive personnel at
federal agencies and programs in the Washington, D.C., area. Specifically,
we spoke with 23 officials at FBI Headquarters, including the Executive
Assistant Director for Law Enforcement Services and the Assistant Directors
for the Criminal Investigative Division and the Office of Law Enforcement
Coordination. We also spoke with FBI officials at the FBI Academy in
Quantico, Virginia, and the National Joint Terrorism Task Force in McLean,
Virginia. Additionally, we interviewed 42 headquarters representatives at
the following federal law enforcement agencies and programs:




                               - 111 -
                    REDACTED FOR PUBLIC RELEASE
                             REDACTED FOR PUBLIC RELEASE
                                                                                      APPENDIX I
    •   ATF                                               •   ICE
    •   DEA                                               •   Organized Crime and Drug
    •   Executive Office for U.S.                             Enforcement Task Force
        Attorneys (EOUSA)                                     (OCDETF) Program
    •   Executive Office of the                           •   Securities and Exchange
        President’s High Intensity Drug                       Commission
        Trafficking Area (HIDTA)                          •   U.S. Secret Service 61
        Program                                           •   U.S. Marshals Service
    •   Financial Crimes Enforcement                      •   U.S. Postal Inspection
        Network (FinCEN)                                       Service


       Further, we spoke with four officials at the following international and
national law enforcement agency associations: International Association of
Chiefs of Police (IACP), Major Cities Chiefs Association, and Major County
Sheriff’s Association. We also spoke with 259 law enforcement representatives
of federal, state, and local law enforcement agencies and departments during
our visits to seven FBI field office jurisdictional areas. At each site, we
interviewed officials at the FBI, ATF, DEA, ICE, U.S. Attorneys Office (USAO),
and USMS. Further, we interviewed state and local law enforcement
representatives at a minimum of five departments per site. For these state and
local interviews, we judgmentally selected police departments based upon
responses to our web-based survey, choosing agencies that indicated they had
been either negatively or positively affected by the FBI’s reprioritization.
Additionally, we spoke with the primary police department located in each city
visited. For example, while in Chicago, we met with officials from the Chicago
Police Department. The table in Appendix VII lists the agencies contacted at
each location.

Survey and Computer-Processed Data

      In an attempt to obtain more thorough insight on the effects the FBI’s
reprioritization had on local law enforcement agencies, we developed and
deployed a web-based survey to 3,514 state and local law enforcement
agencies located in 12 FBI field office jurisdictions. Details regarding the
survey are discussed later in this appendix.

      To further understand the results of the FBI’s reprioritization, we
analyzed data provided by the FBI and the EOUSA. Specifically, we conducted
analyses of FBI statistical data on its resource allocation, resource utilization,
and casework. Additionally, we requested and analyzed U.S. Attorney Office


        61
             The U.S. Secret Service provided feedback in written form instead of a face-to-face
interview.

                                        - 112 -
                             REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                              APPENDIX I
(USAO) data on the number of criminal matters the USAOs received from
federal law enforcement agencies, particularly the FBI.

      To examine the FBI’s human resource utilization, we examined data
from the FBI’s Time Utilization Recordkeeping (TURK) system – a module of
the FBI’s payroll system – for the period of September 26, 1999, through
September 18, 2004. 62 The TURK system contains work-hour and Average
On-Board (AOB) data for most FBI agents and support involved with
investigative matters. To examine the types and quantity of cases the FBI
investigated for the same period, we analyzed data from the Automated
Case Support (ACS) system.

       In September 2003, we issued an audit report on FBI Casework and
Human Resource Utilization. 63 During that audit, we performed tests to
establish the reliability of the computer-processed data from the TURK and
ACS systems. For both systems, we reviewed management controls and we
performed data validity tests at the FBI Chicago Division. Based on these
test results and the FBI’s confirmation of data, we concluded the data was
sufficiently reliable to achieve our audit objective. 64 Therefore, we did not
repeat this process for our current audit.

Data Analysis

      We performed analyses of FBI resource allocation, resource utilization,
and casework data to identify trends and note significant changes in the
FBI’s operations from September 26, 1999, through September 18, 2004.
We also reviewed U.S. Attorney criminal matters data for FYs 2000 through
2004, as well as the responses to our web-based survey. In total, this data
amounted to 2,752,582 records.

FBI Human Resources

     We conducted analyses of FBI Funded Staffing Levels (FSL) and
Agent On-Board data.


       62
           This time period represents FYs 2000 through 2004, the five latest years for which
full FY data was available.
       63
          Department of Justice, Office of the Inspector General. Federal Bureau of
Investigation Casework and Human Resource Allocation, Audit Report Number 03-37,
September 2003.
       64
           FBI field agents are responsible for reporting the proportion of their time worked
in FBI investigative classifications. Therefore, the data derived from the FBI TURK system
are only as valid as the information reported by FBI agents.

                                   - 113 -
                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                                APPENDIX I
       Funded Staffing Level – We used the FBI’s FSL figures established by
the Resource Management and Allocation Office to analyze agent resource
allocations. We obtained field division FSLs for each program and each fiscal
year, for both agents and support personnel for FYs 2000 through 2004. We
also received FSLs for FBI Headquarters, organized by Division level, for the
same period. These FSLs represented the final allocations set for each fiscal
year, reflecting any mid-year adjustments. We reviewed the FBI’s agent
allocations, focusing on changes in FSLs between FYs 2000 and 2004. The
total FSL data amounted to 9,834 records.

       Average On-Board (AOB) – TURK generally records percentages of
time worked for both agents and support personnel in the FBI’s 56 field
offices (Headquarters personnel do not record their time in TURK). TURK
data collection is divided into 13 TURK periods per fiscal year; each TURK
period is 4 weeks. Each agent records the percentage of time worked each
day according to FBI investigative classifications (the percentages are based
on a 10-hour day for agents and an 8-hour day for support personnel). 65
These percentages are recorded and the result is averaged to show time
worked in a specific classification equivalent to a full-time employee, which
the FBI calls Average On-Board (AOB).

       For example, if three agents within a particular field office each spent
one-third of their time (33 percent) on Bank Robbery – FBI Investigative
Classification 091A – within a given TURK period, the AOB for that field office
(in Classification 091A, within the TURK period) would be equal to 1 agent AOB
(100 percent of 1 agent-equivalent). The FBI considers the TURK system’s AOB
data to be the best way to assess the actual time worked by FBI employees in
specific FBI investigative programs, subprograms, and classifications. In this
report, we use the term AOB and on-board agent interchangeably.

      The FBI retroactively adds employee leave and miscellaneous time into
the TURK record of each employee at the program/subprogram level. The FBI
does this through use of an automated Investigative Program Allocator, which
prorates the data back into each record based on that employee’s activity in the
previous six pay periods. Therefore, to most accurately represent the FBI’s
AOB actualities, we requested separate data runs for AOB at the FBI’s
investigative classification level and at the FBI’s program/subprogram level.
Hence, only when presenting data at the classification level do we use data
from the classification runs.


       65
           The FBI assigns each of its cases to an investigative classification based on the
nature of the case. The investigative classification is the greatest level of detail for which
the FBI tracks resource utilization. Each classification is assigned to a program and, if
appropriate, a subprogram.

                                    - 114 -
                         REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                                   APPENDIX I
      The classification level data run was provided in a text file, which we
imported into a database file. The data run contained 611,333 records, each
containing the following fields:

      Field Name                  Field Description
      • Field Office:             City of FBI Field Office
      • Employee Indicator:       Agent or Support
      • Fiscal Year:              2000 through 2004
      • Turk Period:              1 through 13
      • Program:                  Numeric Indicator
      • Subprogram:               Alpha Indicator
      • Classification:           Alpha-Numeric Indicator
      • Average On-Board:         AOB for the program/subprogram/
                                  classification designated

      The program level data run possessed the same fields noted above
except for the Classification field. This data run, provided in a text file and
imported into a database file, contained 410,902 records. We compared
FYs 2000 and 2003 AOB figures at the program and classification level to the
figures verified by the FBI in our Federal Bureau of Investigation
Reprioritization report issued in September 2004 to confirm that our current
data and analysis methodology were correct.

       Based on analyses of the AOB data at both the program and
classification levels, we judgmentally selected 12 FBI field divisions for
possible locations to conduct additional work: Atlanta; Chicago; Dallas;
Denver; Detroit; Los Angeles; Miami; New Orleans; New York City; Phoenix;
San Francisco; and Washington, D.C. We requested unclassified AOB data
runs at the classification and program levels according to these offices’
resident agencies. A resident agency is a satellite office to one of the FBI’s
56 field divisions. The unclassified classification level data run, provided in a
text file, was imported into a database file containing 302,293 records, each
including the following fields:

      Field Name                  Field Description
      • Field Office:             City of FBI Field Office
      • Resident Agency:          Name of FBI Resident Agency Office
      • Employee Indicator:       Agent or Support
      • Fiscal Year:              2000 through 2004
      • Turk Period:              1 through 13
      • Program:                  Numeric Indicator
      • Subprogram:               Alpha Indicator
      • Classification:           Alpha-Numeric Indicator
      • Average On-Board:         AOB for the program/subprogram/
                                  classification designated

                                - 115 -
                     REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                           APPENDIX I

       The unclassified program level Resident Agency data run for the
12 field divisions contained the same fields noted above except for the
Classification field. This data run was supplied in a text file and imported
into a database file containing 503,147 records.

       Agent Utilization – We elected to analyze AOB data by fiscal year. To do
this, we totaled the AOB for all TURK periods within each fiscal year for each
investigative program, subprogram, or classification. Next, we divided this
total by the number of TURK periods (13) to obtain the average agents working
a particular program, subprogram, or classification in a given fiscal year.

       Analysis at the Program/Subprogram Level – We evaluated AOB data
to identify internal operational changes in FBI investigative efforts occurring
as a result of the FBI’s reprioritization and internal reorganization.
Therefore, to assess the change in agent utilization, we focused our analysis
on comparing AOB totals between FYs 2000 and 2004, while looking for
conspicuous differences in AOB for FYs 2003 and 2004. This approach
afforded a view of AOB both before and well into the FBI’s reprioritization
efforts, revealing the areas of greatest change in actual agent-time worked.

      In order to accurately compare the change in agent utilization at the
program level, we adjusted AOB data to reflect the FBI’s program
composition during FY 2004. During FY 2004, the FBI initiated the Criminal
Enterprise Plan, subsequently resulting in the restructuring of the FBI’s
Criminal Investigative Division (CID). The implementation of this plan
resulted in new program names and the transferring of particular
subprograms and units. The FBI Program Crosswalk in Appendix III displays
the current FBI program and subprogram architecture. 66 Generally, we
analyzed FBI program change according to its current structure. 67

      Analysis at the Investigative Classification Level – Besides conducting
analyses of resource utilization at the program/subprogram levels, we also
performed analyses down to the classification level. We computed the
change in agent AOB for each classification between FYs 2000 and 2004,
noting those classifications experiencing significant changes. Appendix IV
shows the classifications experiencing the greatest AOB reductions and
increases between FYs 2000 and 2004.

       66
          The latest transformation of CID was initiated in May 2004 following the
announcement of the Criminal Enterprise Plan. The TURK system continued to track data
according to CID’s former structure for the remainder of FY 2004. It began recording data
according its current organization for FY 2005.
       67
         A current CID Organization Chart is located on page 9 of this report. Appendix III
shows the FY 2005 program and subprogram composition.

                                   - 116 -
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                                APPENDIX I
FBI Casework

      For our analyses of the FBI’s casework, we received a data run from
the ACS system, and focused on cases opened from September 26, 1999,
through September 18, 2004. The data run was provided in a text file and
imported into a database file containing 762,350 records, separated into the
following fields:

     Field Name              Field Description
     •   File Type:          “u” for unclassified
     •   Office Code:        Two digit alpha designation for office of origin
     •   Case ID:            Universal Case File Number (UCFN)
     •   Class               Classification of case
     •   Previous Class:     Previous classification of case if reclassified
     •   Subclass:           Subclassification of case
     •   Program:            Name of Program
     •   Subprogram:         Name of Subprogram
     •   Open Date:          yyyymmdd format
     •   Close Date:         yyyymmdd format
     •   Days Pending:       Numeric identification of days the case is open
     •   Delete Code:        “D” designation when case is destroyed

      In reviewing the data, we discovered 7,183 cases in the database that
were designated as having been destroyed. Of these 7,183 cases, we found
2,756 that contained opening and closing dates. We determined that we
could include these 2,756 cases in any analyses involving case opening and
closing dates, while we needed to eliminate those that contained no open and
close dates. We therefore retained the 2,756 destroyed cases that contained
open and close dates and eliminated the remaining 4,427 cases that did not.
These 4,427 cases reflected one percent of the remaining database of
370,622 cases on which we performed our analyses.

       We confined our casework analysis to the data we obtained from the
ACS system, and did not review individual case files to determine the actual
level of effort expended on any single case. Thus, if a case was open during
a particular timeframe, we considered it to be worked during that period.

       Case Openings – The number of cases opened in a given time period
demonstrates the types of cases the FBI was investigating. In order to
conduct such an evaluation, we first organized the cases according to the
fiscal years in which they were opened. Then, we analyzed the difference in
case openings between FYs 2000 and 2004 for FBI programs, subprograms,
and investigative classifications. This analysis afforded perspective on the


                               - 117 -
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                           APPENDIX I
changes in the FBI’s level of investigative effort in different criminal areas,
as well as the FBI’s overall traditional crime operations.

       Case Serials – The FBI’s ACS system records each document entry into
a case file as a serial. In discussion with an FBI Headquarters official, we
were informed that the number of serials inputted into a case during a given
time period would afford an indication of the amount of effort devoted to a
case. We agreed that this analysis would provide such perspective and
requested a copy of such reports of activity. We obtained a document
detailing the number of serials opened for the FBI as a whole, according to
particular investigative classification categories for FYs 1999 through 2004.
We analyzed the number of serials opened in a given FY, specifically
evaluating the difference in serial quantities for certain investigative
categories between FYs 2000 and 2004.

U.S. Attorney Criminal Matters Received

      We requested U.S. Attorney data for all felony categories in the
94 federal judicial districts for certain federal law enforcement components
(and their task forces where appropriate). 68 The components used in our
analyses of criminal matters received by the USAOs are listed in Appendix V.
We believe these agencies encompass the majority of the federal
investigative efforts in the types of crimes under review.

      In analyzing the data files provided by the EOUSA, we concluded that
data involving criminal matters received by the USAOs provided the best
perspective on the level of effort an investigative agency afforded a
particular criminal category. Criminal matters refer to those investigative
cases referred to USAOs for review and possible prosecution. A matter
becomes a prosecution case once defendants are charged. Thus, the
number of USAO cases would not reflect investigative effort as well as the
number of criminal matter referrals. Therefore, we analyzed the number of
criminal matters received in particular federal crime violation categories. We
assessed the change from FY 2000 to FY 2004 for all agencies combined and
for specific agencies, chiefly the FBI. We converted the original text files
into a database file containing 22,130 records. The following details the field
categories for the U.S. Attorney data we evaluated:




       68
           This data also includes matters handled by U.S. Magistrate Courts, which hear
Class A & B misdemeanor cases. An EOUSA representative stated that many of these
misdemeanor cases involved immigration issues or arrests in national parks. She did not
believe, given the scope of our review, that the data we used was skewed to an invalid or
unreliable status given this inclusion.

                                   - 118 -
                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                               APPENDIX I
       Field Name                       Field Description
       • Fiscal Year                    2000 through 2004
       • District                       Name of U.S. judicial district
       • Agency                         Alpha indicator of federal agency
       • Program Category               Name of federal crime violation category
       • Matter Receive Count           Number of criminal matters received by USAOs

Web-Based Survey of State and Local Law Enforcement Agencies

       In order to obtain a large-scale perspective on the impact that the FBI’s
shift in resources has had on state and local law enforcement agencies, we
conducted a web-based survey. We set the parameters of the survey to
focus on state and local law enforcement agencies located in the jurisdictional
area of FBI field offices, and we judgmentally selected 12 jurisdictions:
Atlanta; Chicago; Dallas; Denver; Detroit; Los Angeles; Miami; New Orleans;
New York City; Phoenix; San Francisco; and Washington, D.C. During the
selection process, we considered three primary factors: (1) FBI field agent
utilization changes in traditional crime areas, (2) FBI field office size in terms
of agent FSLs, and (3) geographic location to obtain a nationwide
perspective.

      After identifying the jurisdictional areas, we queried an electronic
directory of law enforcement agencies for determining our survey
population. 69 The law enforcement agencies we concentrated on were state,
county, municipal, tribal, and others, such as airport and railroad police. In
contrast, we excluded specialized local agencies like university campus
police departments. In total, our survey population amounted to 3,514 state
and local law enforcement agencies, which generally encompassed all such
agencies in the 12 jurisdictional areas.

       Since the electronic directory did not contain e-mail addresses, we
notified our population about the survey through an initial letter and
reminded them later with a postcard. Each was addressed to the chief law
enforcement executive. We also followed up by calling larger departments,
such as the Chicago Police Department and New York City Police Department,
and encouraged their participation. State and local officials accessed the
survey using a distinctive Internet address dedicated to the survey. In total,
we obtained 1,265 responses from our population of 3,514 state and local law




       69
           The FBI Office of Law Enforcement Coordination provided a listing of the
jurisdictional areas of each FBI field office by county, which assisted in our query of the
electronic directory.

                                    - 119 -
                         REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                             APPENDIX I
enforcement agencies, a response rate of 36 percent. 70 The following table
provides a breakdown of the survey respondents by location. A listing of all
agencies that responded to the survey is located in Appendix X.

             SUMMARY OF SURVEY RESPONDENTS BY LOCATION
   FBI Field Office   Number of     Number of       Survey
      Jurisdiction    Recipients   Respondents   Response Rate
   Atlanta                593           170          28.7%
   Chicago                366           181          49.5%
   Dallas                 526           204          38.8%
   Denver                 361           105          29.1%
   Detroit                556           220          39.6%
   Los Angeles            159            71          44.7%
   Miami                  101            35          34.7%
   New Orleans            362            75          20.7%
   New York City          178            69          38.8%
   Phoenix                129            45          34.9%
   San Francisco          150            72          48.0%
   Washington, D.C.        33            18          54.5%
          Totals        3,514         1,265         36.0%
   Source: Office of the Inspector General analysis


      Conducting any survey lends itself to various types of errors related to
survey responses. For example, questions might be interpreted differently by
agency representatives, or agency officials might use a different basis for
answering questions, such as readily available agency data or one’s own
experience. In addition, respondents might not be uniformly conscientious in
expressing their views or they may be influenced by concerns about how their
answers might be construed by the OIG, the FBI, or the public. We
incorporated various steps to limit these errors. For instance, we performed a
survey beta-test with local law enforcement agencies to address differences in
how questions were interpreted. We also solicited comments from the FBI’s
Criminal Investigative Division and Office of Law Enforcement Coordination
about the content and clarity of the survey. We modified our survey questions
based upon the beta-test results and comments received from the FBI.

      The survey responses were contained in a database format within the
survey software program. For analysis purposes, we exported the survey
database, which contained 130,593 records, to another software program to
conduct our examination of the responses. Detailed results of our survey
are contained in Appendix VIII.



       70
           Each of the 1,265 respondents equates to a distinct state or local law enforcement
agency. We did receive more than one response from some agencies. These multiple responses
are not reflected in deriving our response rate but are included in our survey analyses.

                                    - 120 -
                         REDACTED FOR PUBLIC RELEASE
                                           REDACTED FOR PUBLIC RELEASE
                                                                                          APPENDIX II
             APPENDIX II: PRIOR FBI CRIMINAL INVESTIGATIVE DIVISION
                              ORGANIZATION CHART




Source: FBI Criminal Investigative Division Organization Chart as of September 11, 2003

                                                      - 121 -
                                           REDACTED FOR PUBLIC RELEASE
                                                    REDACTED FOR PUBLIC RELEASE
                                                                                                                         APPENDIX III
                 APPENDIX III: CROSSWALK OF FBI INVESTIGATIVE PROGRAMS AND
                                        SUBPROGRAMS
                                   FYS 2000 THROUGH 2005

                               FY 2000                                           FY 2004
      FY 2000                                    FY 2004 Programs                                   FY 2005 Programs    FY 2005 Subprograms
                            Subprograms                                       Subprograms
                        • Foreign                                        • Foreign
                                                                                                                       • Foreign
                          Counterintelligence                              Counterintelligence
National Foreign                                 National Foreign                                 National Foreign       Counterintelligence
                        • FBI Security                                   • FBI Security
Intelligence                                     Intelligence                                     Intelligence         • FBI Security
                        • International                                  • International
                                                                                                                       • International Terrorism
                          Terrorism                                        Terrorism
National
                                                 Computer Intrusion      • Computer Intrusion     Computer Intrusion
Infrastructure/         No Subprograms                                                                                      No Subprograms
                                                 Program                 • Critical Assets 71     Program
Computer Intrusion
                                                                         • Counterterrorism                            • Counterterrorism
                                                                           Preparedness                                  Preparedness
                                                                         • Domestic Terrorism                          • Domestic Terrorism
Domestic Terrorism      No Subprograms           Domestic Terrorism                               Domestic Terrorism
                                                                           Operations                                    Operations
                                                                         • Weapons of Mass                             • Weapons of Mass
                                                                           Destruction                                   Destruction Operations




            71
                 The Critical Assets subprogram was originally the Infrastructure Protection subprogram.


                                                               - 122 -
                                                    REDACTED FOR PUBLIC RELEASE
                                                  REDACTED FOR PUBLIC RELEASE
                                                                                                                        APPENDIX III
                                FY 2000                                          FY 2004                                          FY 2005
     FY 2000                                      FY 2004 Programs                                  FY 2005 Programs
                             Subprograms                                      Subprograms                                      Subprograms
                      •   Antitrust                                    •   Antitrust                                    •   Antitrust 72
                      •   Bankruptcy Fraud                             •   Bankruptcy Fraud                             •   Bankruptcy Fraud
                      •   Environmental                                •   Environmental                                •   Environmental
                          Crimes                                           Crimes                                           Crimes
                      •   Financial Institution                        •   Financial Institution                        •   Financial Institution
                          Fraud                                            Fraud                                            Fraud
                      •   Fraud Against the                            •   Fraud Against the                            •   Fraud Against the
                          Government                                       Government                                       Government
                      •   Health Care Fraud                            •   Health Care Fraud                            •   Health Care Fraud
                      •   Insurance Fraud                              •   Insurance Fraud                              •   Insurance Fraud
                      •   Intellectual Property
White-Collar Crime        Rights                  White-Collar Crime                               White-Collar Crime
                      •   Money Laundering                             • Money Laundering                               • Money Laundering
                      •   Public Corruption                            • Public Corruption                              • Public Corruption
                                                                                                                        • Other Matters –
                                                                                                                          Public Corruption/
                                                                                                                          Government Fraud
                      • Securities/                                    • Securities/                                    • Securities/
                        Commodities Fraud                                Commodities Fraud                                Commodities Fraud
                      • Telemarketing Fraud                            • Telemarketing Fraud                            • Telemarketing Fraud
                      • Other Matters                                  • Other Matters                                  • Other Matters
                                                                       • Other Wire & Mail                              • Other Wire & Mail
                                                                         Fraud Schemes                                    Fraud Schemes




         72
            The Antitrust, Bankruptcy Fraud, Environmental Crimes, Fraud Against Government, and Public Corruption subprograms were
  managed by the Integrity in Government/Governmental Fraud Unit at FBI Headquarters. This and the Civil Rights Unit comprise the Integrity
  in Government Civil Rights Section. Still, for data tracking purposes, the Public Corruption/Governmental Fraud Unit subprograms are
  recorded within White-Collar Crime.

                                                             - 123 -
                                                  REDACTED FOR PUBLIC RELEASE
                                             REDACTED FOR PUBLIC RELEASE
                                                                                                                   APPENDIX III
                            FY 2000
FY 2000 Programs                          FY 2004 Programs      FY 2004 Subprograms        FY 2005 Programs       FY 2005 Subprograms
                         Subprograms
                   •   Asian Criminal                           • Asian Criminal
                       Enterprise                                 Enterprise
                   •   Columbian/                               • Columbian/ Caribbean
                       Caribbean
                   •   Community                                • Community Outreach
                       Outreach Program                           Program
                                                                                                                 • Asian/African Criminal
                   •   OCDETF                                   • OCDETF
                                                                                                                   Enterprises
                   •   La Cosa Nostra                           • La Cosa Nostra/Italian
                                                                                                                 • La Cosa Nostra/Italian
                                                                  Organized
Organized Crime/                          Organized Crime/                                 Transnational           Criminal Enterprises/
                                                                  Crime/Labor
Drugs                                     Drugs                                            Criminal Enterprise     Labor Racketeering
                                                                  Racketeering
                                                                                                                 • Eurasian Criminal
                                                                                                                   Enterprises
                   • Mexican Criminal                           • Mexican Criminal
                                                                                                                 • Other Matters
                     Syndicates                                   Syndicates
                   • Russian/Eastern                            • Russian/Eastern
                     European/Eurasian                            European/Eurasian
                   • Other Matters                              • Other Matters-Drugs
                                                                • Other Matters-
                                                                  Organized Crime
                                                                                                                 • Central/South American
                                                                                                                   Criminal Enterprises
                                                                                                                 • Mexican Criminal
                                                                                                                   Enterprises
                                                                                                                 • Major Criminal
                                                                                                                   Enterprises
                                                                                           Americas Criminal     • Caribbean Criminal
    No Program         No Subprograms          No Program          No Subprograms
                                                                                           Enterprise              Enterprises
                                                                                                                 • Major Theft
                                                                                                                 • Violent Gangs
                                                                                                                 • Other Matters
                                                                                                                 • OCDETF
                                                                                                                 • Community Outreach
                                                                                                                   Program
                                                                • OCDETF
                                          Criminal Enterprise   • Major Theft
    No Program         No Subprograms                                                           No Program       • No Subprograms
                                          Investigations        • Violent Gangs




                                                        - 124 -
                                             REDACTED FOR PUBLIC RELEASE
                                                        REDACTED FOR PUBLIC RELEASE
                                                                                                                            APPENDIX III

                               FY 2000                                      FY 2004
FY 2000 Programs                                FY 2004 Programs                                FY 2005 Programs           FY 2005 Subprograms
                           Subprograms                                   Subprograms
                     •   Crimes Against                              • Crimes Against                              • Crimes Against Children
                         Children                                      Children
                     •   OCDETF-VCMO
                     •   Fugitives                                   • Fugitives                                   • Fugitives
                     •   Crimes in Indian                            • Crimes in Indian                            • Crimes in Indian Country
                         Country                                       Country
                     •   Innocent Images
                         Initiative
                     •   Major Theft
Violent Crimes and                              Violent Crimes and
                     •   Special Jurisdiction                        • Special Jurisdiction    Violent Crimes      • Special Jurisdiction Matters
Major Offenders                                 Major Offenders
                         Matters                                       Matters
                     •   Transportation                              • Transportation                              • Transportation Crimes
                         Crimes                                        Crimes
                     •   Violent Incident                            • Violent Incident                            • Violent Incident Crimes
                         Crimes                                        Crimes
                     •   Victim Witness                              • Victim Witness                              • Victim Witness Assistance
                         Assistance                                    Assistance
                     •   Other Matters                               • Other Matters                               • Other Matters
                     •   Violent Gangs
                                                                     • Internet Fraud                              • Internet Fraud
                                                                     • Identity Theft                              • Identity Theft
                                                                     • Intellectual Property                       • Intellectual Property Rights
     No Program           No Subprograms        Cyber Crime            Rights                  Cyber Crime           Infringement
                                                                     • Innocent Images                             • Innocent Images National Initiative
                                                                       National Initiative
                                                                     • Other Matters                               •   Other Matters
                                                                     • Color of Law                                •   Color of Law
                                                                     • Hate Crimes                                 •   Hate Crimes
                                                                     • Freedom of Access                           •   Freedom of Access to Clinics
Civil Rights              No Subprograms        Civil Rights           to Clinics              Civil Rights
                                                                     • Involuntary                                 • Involuntary Servitude & Slavery
                                                                       Servitude & Slavery
                                                                     • Other Matters                               • Other Matters




                                                                   - 125 -
                                                        REDACTED FOR PUBLIC RELEASE
                                 REDACTED FOR PUBLIC RELEASE
                                                                                               APPENDIX IV
                      APPENDIX IV: AGENT UTILIZATION
                   IN FBI INVESTIGATIVE CLASSIFICATIONS

         THE TOP 30 FBI INVESTIGATIVE CLASSIFICATIONS EXPERIENCING
                THE GREATEST REDUCTIONS IN AGENT UTILIZATION
                         FISCAL YEARS 2000 THROUGH 2004 73
                                                                           AOB Change
                                                                         FYs 2000 - 2004
Classification
                                  Classification Name                    Number Percent
   Number
    281C       OC/DI – Mexican Organizations                              -145     -78%
    245C       OCDETF – Mexican Organizations                             -126     -45%
    088A       Unlawful Flight to Avoid Prosecution – Crime of Violence   -117     -69%
    281A       OC/DI – LCN and Italian Organizations                      -106     -35%
    091A       Bank Robbery                                                -91     -29%
    281F       OC/DI – Other Major Criminal Organizations                  -90     -83%
    196D       Other Wire & Mail Fraud Schemes                             -79     -32%
    245F       OCDETF – Other Major Criminal Organizations                 -71     -62%
    245B       OCDETF – Central/South American Organizations               -70     -61%
    029C       FIF - $29K - $99,999 Fed-Insured Bank                       -61     -82%
    281E       OC/DI – Asian Organizations                                 -56     -47%
    281B       OC/DI – Central/South American Organizations                -47     -76%
    196A       Telemarketing Fraud                                         -44     -74%
    245D       OCDETF – VCMO – Gangs                                       -44     -33%
     281I      OC/DI – Caribbean Organizations                             -43     -75%
    209A       Health Care Fraud – Government Sponsored Program            -42     -17%
    092C       REI – Mexican Organizations                                 -36     -85%
    026B       ITSMV – Commercial Theft or Chop Shops                      -36     -76%
    196B       Insurance Fraud                                             -36     -66%
               Interstate Transportation of Stolen Property - $25,000 or
    087B                                                                   -34     -64%
               more
     245I      OCDETF – Caribbean Organizations                            -33     -49%
    029B       FIF - $100,000+ Fed Ins. Bank                               -33     -12%
    015B       TFIS – Loss of $25K; Weapons, Explosives                    -27     -77%
    209B       Health Care Fraud – Private Ins. Program                    -27     -29%
    046B       Fraud Against the Government – HUD                          -25     -56%
    007A       Kidnapping                                                  -23     -48%
    282A       Civil Rights – Color of Law – force &/or Violence           -22     -27%
    245A       OCDETF – LCN and Italian Organizations                      -22     -77%
    029K       FIF – (-)$25,000 Ins. Fin. Inst. Not Fast Track             -20     -88%
    046H       Fraud Against the Government – Other                        -20     -55%
ACRONYMS:
OCDETF = Organized Crime Drug Enforcement Task Force         FIF = Financial Institution Fraud
OC/DI = Organized Crime/Drug Investigations                  ITSMV = Interstate Transportation of Stolen Motor Vehicles
REI = Racketeering Enterprise Investigation                  TFIS = Theft From Interstate Shipment
LCN = La Cosa Nostra
Source: OIG analysis of FBI TURK data



           73
               For this analysis, we excluded investigative classifications that pertained to administrative or
   miscellaneous matters, as well as those classifications that existed in FY 2000 but not in FY 2004.
   Additionally, we excluded all investigative classifications related to the FBI’s National Foreign Intelligence
   Program.

                                            - 126 -
                                 REDACTED FOR PUBLIC RELEASE
                                    REDACTED FOR PUBLIC RELEASE
                                                                                               APPENDIX IV
              THE TOP 30 FBI INVESTIGATIVE CLASSIFICATIONS EXPERIENCING
                     THE GREATEST INCREASES IN AGENT UTILIZATION
                           FISCAL YEARS 2000 THROUGH 2004 74
                                                                                                     AOB Change
                                                                                                   FYs 2000 - 2004
Classification
                                             Classification Name                                  Number        Percent
   Number
    279A            Use, Possession, Transfer, Production, Transport of WMD                          37           447%
    300A            CT Preparedness – Special Events                                                 35            57%
    166E            ITAR – Violent Gangs                                                             34            16%
    305B            IINI – Travelers/Enticement                                                      28           969%
    266A            AOT-DT – Violent Crimes-Predicate Offense                                        26            21%
                    Threaten or Attempt to Use, Possess, Produce, or Transport
     279B                                                                                            17         2,028%
                    WMD
     288B           Computer Intrusions – CT/CI                                                      17         2,967%
     089B           Assaulting or Killing a Federal Officer                                          12            81%
     174D           Bomb Technician Activities                                                       11            61%
     281J           Criminal Enterprise-OC/DI – Alien Smuggling Investigations                       11           530%
     031C           White Slave Traffic Act – Sexual Exploitation – Children                          9            85%
     300B           CT Preparedness – Aviation Security                                               9           582%
                    IPR Infringement – Copyright Infringement-Computer
     295B                                                                                              9              85%
                    Software Matters
      050           Involuntary Servitude and Slavery                                                  8          180%
     174A           Actual & Attempted Bombings & Explosives Violations                                8          106%
     164C           Crime Aboard Aircraft – All Other                                                  8          272%
      306           Serial Killings                                                                    7          311%
     295C           IPR Infringement – Copyright Infringement – Other Matters                          7           92%
     305A           IINI – E-Groups/Organizations/Enterprises for Profit                               5            5%
     272F           Money Laundering – Drugs                                                           4           45%
     253C           FRAID – All Other                                                                  3          306%
     198E           IC Controlled Substance Act                                                        3           60%
     198S           IC Rape                                                                            3          196%
     253A           Fraud & Rel Activity – Passport/Visa/Identity Documents-DT                         3          237%
     194C           Corruption of State & Local Public Officials – Law Enforcement                     2            5%
     300C           CT Preparedness – Other                                                            2           16%
     194A           Corruption of State and Local Public Officials – State Level                       1            2%
      205           Foreign Corruption Practices Act of 1977                                           1           86%
     272D           Money Laundering – Unknown SUA                                                     1           19%
     266B           AOT-DT – Organized Crime – Predicate Offense                                       1           71%
ACRONYMS:
WMD = Weapons of Mass Destruction                         CI = Counterintelligence
CT = Counterterrorism                                     OC/DI = Organized Crime/Drug Investigations
ITAR = International Traffic in Arms Regulations          IPR = Intellectual Property Rights
IINI = Innocent Images National Initiative                FRAID = Fraud & Related Activity Identification Documents
AOT = Acts of Terrorism                                   IC = Indian Country
DT = Domestic Terrorism                                   SUA = Specified Unlawful Activity
Source: OIG analysis of FBI TURK data


              74
                 For this analysis, we excluded investigative classifications that pertained to administrative or
      miscellaneous matters, as well as those classifications that existed in FY 2004 but not in FY 2000. Additionally,
      we excluded all investigative classifications related to the FBI’s National Foreign Intelligence Program.

                                               - 127 -
                                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                            APPENDIX V
     APPENDIX V: AGENCIES USED IN OIG ANALYSIS OF
    UNITED STATES ATTORNEY CASE MANAGEMENT DATA

            Federal Department and Relevant Components: 75

                     Securities and Exchange Commission


                 U.S. Department of Health and Human Services

                            Office of Inspector General


                       U.S. Department of Homeland Security

            Bureau of Immigration and Customs Enforcement 76
                           U.S. Coast Guard
                                 U.S. Secret Service

                              U.S. Department of Justice

            Bureau of Alcohol, Tobacco, Firearms and Explosives
                     Drug Enforcement Administration
                      Federal Bureau of Investigation
                           U.S. Marshals Service

                             U.S. Department of Treasury

                             Internal Revenue Service

                     U.S. Environmental Protection Agency

                          U.S. Postal Inspection Service



       75
          The departments and components shown in bold were included in our analyses of
United States Attorney Case Management data. We also received and analyzed task force
data for each of the agencies shown in bold.
       76
          The U.S. Attorneys’ Offices continue to separately track data related to the Bureau
of Immigration and Customs Enforcement (ICE) according to the former two entities that
were combined to form ICE: (1) the Immigration and Naturalization Service and (2) the
U.S. Customs Service. We combined the data for these two agencies to derive ICE totals.

                                   - 128 -
                        REDACTED FOR PUBLIC RELEASE
                                              REDACTED FOR PUBLIC RELEASE
                                                                                                   APPENDIX VI
               APPENDIX VI: CHANGES IN REFERRALS FOR THE CRIMINAL CATEGORIES
                        USED BY THE UNITED STATES ATTORNEYS’ OFFICES
                                 FISCAL YEARS 2000 AND 2004
                                                              ALL AGENCIES                  FBI AND FBI TASK FORCES
                                                                    Number     Percent                  Number Percent
VIOLATION CATEGORY                                  2000     2004                        2000    2004
                                                                    Change     Change                    Change  Change
Public Corruption
Federal Corruption – Procurement                        47       39       -8     -17%       33       24       -9   -27%
Federal Corruption – Program                            73       64       -9     -12%       43       35       -8   -19%
Federal Corruption – Law Enforcement                    87       60      -27     -31%       56       31      -25   -45%
Federal Corruption – Other                             147      136      -11      -7%       59       48      -11   -19%
State Corruption                                       115      133       18      16%       98      123       25    26%
Local Corruption                                       346      293      -53     -15%      326      270      -56   -17%
Other Public Corruption                                 68       98       30      44%       58       79       21    36%
                        PUBLIC CORRUPTION TOTAL       883      823      -60       -7%      673     610      -63    -9%
Government Fraud
Federal Procurement Fraud                               93       50     -43      -46%       68       29      -39   -57%
Federal Program Fraud                                  407      523     116       29%      239      226      -13    -5%
                        GOVERNMENT FRAUD TOTAL        500      573       73       15%      307     255      -52    -17%
Organized Crime
Organized Crime – Traditional                          374      206     -168     -45%      312      168     -144   -46%
Organized Crime – Emerging                             171      172        1       1%      139      115      -24   -17%
                            ORGANIZED CRIME TOTAL     545      378     -167      -31%      451     283     -168    -37%
Narcotics and Dangerous Drugs
Drug Trafficking                                    15,665   15,543     -122      -1%     2,072   1,167     -905   -44%
Simple Drug Possession                                 658      197     -461     -70%        93      47      -46   -49%
Organized Crime Drug Enforcement Task Force          4,008    2,628   -1,380     -34%     1,127     485     -642   -57%
(OCDETF)
       NARCOTICS AND DANGEROUS DRUGS TOTAL          20,331   18,368   -1,963     -10%    3,292    1,699   -1,593   -48%




                                                         - 129 -
                                              REDACTED FOR PUBLIC RELEASE
                                                          REDACTED FOR PUBLIC RELEASE
                                                                                                                       APPENDIX VI
                                                                                ALL AGENCIES                    FBI AND FBI TASK FORCES
                                                                                      Number      Percent                   Number Percent
VIOLATION CATEGORY                                                  2000       2004                          2000    2004
                                                                                      Change      Change                     Change  Change
Triggerlock 77
Major Operation Triggerlock Prosecutions                              7,329    12,280    4,951       68%       605     561      -44      -7%
Other Operation Triggerlock Prosecutions                                  3         0       -3     -100%         1       0       -1    -100%
                                     TRIGGERLOCK TOTAL               7,332     12,280   4,948        67%       606    561       -45     -7%
White Collar Crime
Tax Fraud                                                              724        878       154       21%       29      29         0      0%
Financial Institution Fraud                                          4,000      2,299    -1,701      -43%    3,243   1,543    -1,700    -52%
Bankruptcy Fraud                                                       516        260      -256      -50%      490     228      -262    -53%
Advance Fee Schemes                                                    188        134       -54      -29%      140      98       -42    -30%
Other Fraud Against Business                                         1,005        842      -163      -16%      604     512       -92    -15%
Consumer Fraud                                                         312        276       -36      -12%      215     136       -79    -37%
Securities Fraud                                                       379        287       -92      -24%      291     181      -110    -38%
Commodities Fraud                                                       28         21        -7      -25%       12      16         4     33%
Other Investment Fraud                                                 191        151       -40      -21%      164     118       -46    -28%
Health Care Fraud                                                      824        631      -193      -23%      675     444      -231    -34%
Fraud Against Insurance Providers                                      215        101      -114      -53%      145      55       -90    -62%
Insider Fraud Against Insurance Providers                               24         24         0         0%      20      17        -3    -15%
Multiple Employer Welfare Arrangements (MEWA) Fraud                  NA             4         4      -       NA          1         1    -
Telemarketing Fraud                                                     42         26       -16      -38%       31      13       -18    -58%
Corporate Fraud                                                      NA           229       229      -       NA        178       178    -
Other White-Collar Crime/Fraud                                       1,204      1,105       -99        -8%     720     617      -103    -14%
                         WHITE-COLLAR CRIME TOTAL                    9,652      7,268   -2,384      -25%     6,779   4,186   -2,593    -38%
Antitrust Violations
Antitrust – Other                                                        14        6        -8       -57%       10      5        -5      -50%
Antitrust – Airlines                                                      1        1         0         0%        1      0        -1    -100%
Antitrust – Banking                                                       4        2        -2       -50%        4      2        -2      -50%
                                        ANTITRUST TOTAL                  19        9       -10      -53%        15      7        -8     -53%




                77
                     Triggerlock is a U.S. Department of Justice initiative.

                                                                     - 130 -
                                                          REDACTED FOR PUBLIC RELEASE
                                                        REDACTED FOR PUBLIC RELEASE
                                                                                                              APPENDIX VI
                                                                         ALL AGENCIES                FBI AND FBI TASK FORCES
                                                                               Number   Percent                  Number Percent
VIOLATION CATEGORY                                           2000       2004                      2000    2004
                                                                               Change   Change                    Change  Change
Civil Rights
Civil Rights –   Other                                         260        154    -106     -41%      248        143    -105   -42%
Civil Rights –   Law Enforcement                               562        502     -60     -11%      560        495     -65   -12%
Civil Rights –   Slavery/Involuntary Servitude                  16         55      39     244%       15         36      21   140%
Civil Rights –   Racial Violence                               133        109     -24     -18%      127        106     -21   -17%
Civil Rights –   Access to Clinic Entrances                      8          1      -7     -88%        7          1      -6   -86%
Civil Rights –   Hate Crimes Arising Out of Terrorist
                                                              NA           13      13      -       NA           12      12    -
Attacks
                                     CIVIL RIGHTS TOTAL        979        834    -145     -15%      957       793    -164    -17%
Indian Offenses
Offenses by or against Indians                                 942        516    -426     -45%      924        493    -431   -47%
Violent Crime in Indian Country                               NA          460     460     -        NA          454     454   -
                               INDIAN OFFENSES TOTAL           942        976      34       4%      924       947      23         2%
Labor Management Offense
Union Official Corruption – Pension Benefit Funds                   7       0      -7    -100%           7       0      -7   -100%
Union Official Corruption – Bribery Kickbacks                       7       1      -6     -86%           7       1      -6    -86%
Labor Racketeering                                                  4       5       1      25%           4       5       1     25%
Other Labor/Management Offense                                     15      10      -5     -33%          11       7      -4    -36%
                 LABOR MANAGEMENT OFFENSE TOTAL                    33      16     -17     -52%          29     13      -16   -55%
Terrorism Related
International Terrorism                                          30       288     258     860%          24     257     233   971%
Domestic Terrorism                                             126        334     208     165%          99     270     171   173%
Terrorism Related Hoaxes                                      NA          138     138     -        NA          128     128   -
Terrorist Financing                                           NA          155     155     -        NA          126     126   -
Anti-Terrorism/Environmental                                  NA           14      14     -        NA           10      10   -
Anti-Terrorism/Identity Theft                                 NA           42      42     -        NA           21      21   -
Anti-Terrorism/Immigration                                    NA          237     237     -        NA           49      49   -
Anti-Terrorism/OCDETF Drugs                                   NA            3       3     -        NA            1       1   -
Anti-Terrorism/Non-OCDETF Drugs                               NA           15      15     -        NA           12      12   -
Anti-Terrorism/Violent Crime                                  NA           62      62     -        NA           54      54   -
Anti-Terrorism/All Others                                     NA          316     316     -        NA          235     235   -
                            TERRORISM RELATED TOTAL            156      1,604   1,448     928%      123      1,163   1,040   846%


                                                                   - 131 -
                                                        REDACTED FOR PUBLIC RELEASE
                                                                REDACTED FOR PUBLIC RELEASE
                                                                                                                    APPENDIX VI
                                                                               ALL AGENCIES                  FBI AND FBI TASK FORCES
                                                                                     Number     Percent                  Number Percent
VIOLATION CATEGORY                                                   2000     2004                        2000    2004
                                                                                     Change     Change                    Change  Change
Computer Fraud
Computer Fraud                                                          529     762      233       44%      452     607      155    34%
                                        Computer Fraud TOTAL           529      762      233       44%      452     607      155    34%
Pornography/Obscenity
Pornography – Child                                                   1,124    2,521    1,397     124%      756    1,386     630     83%
Obscenity                                                                24       50       26     108%       13       35      22    169%
                      PORNOGRAPHY/OBSCENITY TOTAL                     1,148   2,571    1,423      124%      769    1,421     652    85%
Other Violations
Fugitive Matters                                                      1,282    1,082     -200     -16%       923     450     -473   -51%
Bank Robberies                                                        2,058    1,844     -214     -10%     2,019   1,809     -210   -10%
Immigration                                                          15,685   35,120   19,435     124%        54     118       64   119%
Crimes Against Government Property                                       37       61       24      65%        18      26        8    44%
Embezzlement and Theft of Government Property                           194      181      -13       -7%       69      58      -11   -16%
Offenses Involving the Administration of Justice                        152      268      116      76%        86     153       67    78%
Theft of Property in Interstate Transportation                          445      196     -249     -56%       413     151     -262   -63%
Postal Service Crimes                                                 1,627    1,532      -95       -6%       73      68       -5     -7%
Election Fraud                                                           12       48       36     300%        10      48       38   380%
Motor Vehicle Theft                                                     131       52      -79     -60%       119      40      -79   -66%
Domestic Violence                                                        33       43       10      30%        25      35       10    40%
Internal Security Offenses                                               45       81       36      80%        27      35        8    30%
All Other Violent Crime                                               NA         285      285     -        NA        180      180   -
All Other                                                             6,668    4,705   -1,963     -29%     3,812   2,207   -1,605   -42%
* NA signifies a violation category did not exist in FY 2000.




                                                                           - 132 -
                                                                REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE
                                                                   APPENDIX VII
            APPENDIX VII: LAW ENFORCEMENT AGENCIES
                 CONTACTED DURING FIELDWORK

Location:           Law Enforcement Agency:
                                           Chicago Field Office
                    FBI
                                           West Resident Agency (Lisle, Illinois)
                                           ATF Chicago Field Division
                                           DEA Chicago Field Division
                    Other Federal Law
                    Enforcement Agencies   ICE Chicago Field Division
                                           USAO for the Northern District of Illinois
                                           USMS for the Northern District of Illinois
Chicago, Illinois                          Arlington Heights Police Department
                                           Aurora Police Department
                                           Chicago Police Department
                    State and Local Law    Cook County Sheriff’s Office
                    Enforcement Agencies   Elk Grove Village Police Department
                                           Kane County Sheriff’s Office
                                           Palatine Police Department
                                           St. Charles Police Department
                                           Los Angeles Field Office
                    FBI
                                           Long Beach Resident Agency
                                           ATF Los Angeles Field Division
                                           DEA Los Angeles Field Division
                    Other Federal Law      ICE Los Angeles Field Division
                    Enforcement Agencies
                                           USAO for the Central District of California

 Los Angeles,                              USMS for the Central District of California
  California                               Buena Park Police Department
                                           Fullerton Police Department
                                           Los Angeles Police Department
                    State and Local Law
                                           Los Angeles County Sheriff’s Department
                    Enforcement Agencies
                                           Pasadena Police Department
                                           Ventura County District Attorney’s Office
                                           Ventura County Sheriff’s Department




                                     - 133 -
                          REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                  APPENDIX VII


Location:         Law Enforcement Agency:
                                         Miami Field Office
                  FBI
                                         West Palm Beach Resident Agency
                                         ATF Miami Field Division
                                         DEA Miami Field Division
                  Other Federal Law
                  Enforcement Agencies   ICE Miami Field Division
                                         USAO for the Southern District of Florida
                                         USMS for the Southern District of Florida
 Miami, Florida
                                         Boca Raton Police Department
                                         Fort Lauderdale Police Department
                                         Hallandale Beach Police Department
                  State and Local Law
                  Enforcement Agencies   Miami Police Department
                                         Miami-Dade County Police Department
                                         Palm Beach Gardens Police Department
                                         West Palm Beach Police Department
                                         New Orleans Field Office
                  FBI
                                         Baton Rouge Resident Agency
                                         ATF New Orleans Field Division
                                         DEA New Orleans Field Division
                  Other Federal Law
                                         ICE New Orleans Field Division
                  Enforcement Agencies
                                         USAO for the Eastern District of Louisiana
 New Orleans,                            USMS for the Eastern District of Louisiana
  Louisiana                              Baton Rouge Police Department
                                         Bogalusa Police Department
                                         Jefferson Parish Sheriff’s Office
                  State and Local Law
                                         Louisiana State Police
                  Enforcement Agencies
                                         New Orleans Police Department
                                         Slidell Police Department
                                         West Baton Rouge Sheriff’s Office




                                   - 134 -
                        REDACTED FOR PUBLIC RELEASE
                            REDACTED FOR PUBLIC RELEASE
                                                                                 APPENDIX VII


Location:            Law Enforcement Agency:
                                                     New York City Field Office
                     FBI
                                                     White Plains Resident Agency
                                                     ATF New York City Field Division
                                                     DEA New York City Field Division
                                                     ICE New York City Field Division
                     Other Federal Law
                                                     OCDETF Strike Force
                     Enforcement Agencies
                                                     USAO for the Southern District of New York
 New York City,
                                                     USMS for the Eastern District of New York
   New York
                                                     USMS for the Southern District of New York
                                                     Amityville Police Department
                                                     Nassau County Police Department
                     State and Local Law             New York City Police Department
                     Enforcement Agencies            Old Brookville Police Department
                                                     Port Chester Police Department
                                                     Yonkers Police Department
                                                     Phoenix Field Office
                                                     Flagstaff Resident Agency
                                                     Lake Havasu Resident Agency
                     FBI
                                                     Sierra Vista Resident Agency
                                                     Tucson Resident Agency
                                                     Yuma Resident Agency
                                                     ATF Phoenix Field Division
                                                     DEA Phoenix Field Division
Phoenix, Arizona     Other Federal Law
                                                     ICE Phoenix Field Division
                     Enforcement Agencies
                                                     USAO for the District of Arizona
                                                     USMS for the District of Arizona
                                                     Maricopa County Sheriff’s Department
                                                     Mesa Police Department
                     State and Local Law
                                                     Phoenix Police Department
                     Enforcement Agencies 78
                                                     Scottsdale Police Department
                                                     Tucson Police Department




        78
             During fieldwork, we also conducted a telephonic interview with the Tempe Police Department.

                                       - 135 -
                            REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                 APPENDIX VII


Location:         Law Enforcement Agency:
                                         San Francisco Field Office
                  FBI                    Oakland Resident Agency
                                         San Jose Resident Agency
                                         ATF San Francisco Field Division
                                         DEA San Francisco Field Division
                  Other Federal Law
                                         ICE San Francisco Field Division
                  Enforcement Agencies
 San Francisco,                          USAO for the Northern District of California
   California                            USMS for the Northern District of California
                                         Hayward Police Department
                                         Mountain View Police Department
                  State and Local Law    Oakland Police Department
                  Enforcement Agencies   San Francisco Police Department
                                         San Jose Police Department
                                         Santa Clara County Sheriff’s Department




                                   - 136 -
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                               APPENDIX VIII
        APPENDIX VIII: WEB-BASED SURVEY RESULTS

       Our web-based survey of state and local law enforcement agencies
consisted of 37 questions, which were divided into separate sections.
Specifically, some of the segments included questions related to the FBI’s
investigative assistance, the impact of the FBI’s shift in priorities, the survey
participants’ joint investigations with the FBI, and the level of FBI
investigations in each participant’s jurisdiction. The remainder of this
appendix provides the results of our survey, question-by-question.

FBI Investigative Assistance:

1. During calendar year 2000 (January through December 2000), how many
times did your agency request criminal investigative assistance from the
FBI?

                                                Number of
                    Available Answer
                                                Responses
                 0 times                                    515
                 1 to 10 times                              630
                 11 to 25 times                              69
                 26 to 50 times                              15
                 51 to 100 times                             10
                 More than 100 times                         13
                           Total Responses                1,252


2.   During calendar year 2000, on what percentage of your agency’s
requests was the FBI able to provide criminal investigative assistance?

                                               Number of
                   Available Answer
                                               Responses
                 0 times                                    500
                 1 to 10 times                              200
                 11 to 25 times                              41
                 26 to 50 times                              65
                 51 to 100 times                            148
                 More than 100 times                        279
                        Total Responses                   1,233




                                - 137 -
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                             APPENDIX VIII
3.    During calendar year 2004 (January 2004 to the present), how many
times did your agency request criminal investigative assistance from the
FBI?

                                             Number of
                  Available Answer
                                             Responses
                0 times                                   480
                1 to 10 times                             648
                11 to 25 times                             60
                26 to 50 times                             27
                51 to 100 times                            14
                More than 100 times                        17
                       Total Responses                  1,246


4.   During calendar year 2004, on what percentage of your agency’s
requests was the FBI able to provide criminal investigative assistance?

                                             Number of
                  Available Answer
                                             Responses
                0 times                                   481
                1 to 10 times                             178
                11 to 25 times                             45
                26 to 50 times                             72
                51 to 100 times                           148
                More than 100 times                       305
                Total Responses                         1,229


Impact of FBI’s Shift in Priorities:

       Questions 5 through 8 asked respondents to indicate the impact the
FBI’s shift in priorities had on their investigative operations for certain
investigative areas. For each of these questions, respondents were provided
with a scaled response ranging from -5 (Very Negative Impact) to +5 (Very
Positive Impact). Specifically, an answer of “-5” indicated that an agency
had been significantly impaired by the FBI’s shift in priorities. For example,
an agency experienced severe difficulty in handling the type of investigation
listed. In contrast, a response of “+5” signified that an agency had
benefited from the FBI’s shift in priorities, such as an agency significantly
enhancing its operations to successfully address the investigative area in
question. An answer of “0” indicated that an agency had continued to
operate as it had prior to the FBI’s reprioritization and had experienced no
change. Finally, a reply of “N/A” denoted that the agency had no
involvement in a particular investigative area during the last three years.




                               - 138 -
                    REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE
                                                            APPENDIX VIII

 5.    What impact, if any, has the FBI’s shift in priorities during the last
 three years had on your agency’s law enforcement efforts in addressing each
 of the following types of investigations?

                                      Number of Responses
   Available        Computer Crime           Drug         Organized Crime
    Answer           Investigations      Investigations    Investigations
-5 (Very Negative
                           12                   9                  11
     Impact)
        -4                 3                    7                   9
        -3                10                   10                  14
        -2                24                   16                  19
        -1                31                   25                  20
         0                747                  831                 738
         1                38                   31                  22
         2                 27                  22                  19
         3                36                   31                  23
         4                16                   14                   8
 5 (Very Positive
                           37                  17                  11
     Impact)
       N/A                253                  225                 344
Total Responses          1,234                1,238               1,238


                                     Number of Responses
   Available        Terrorism-Related   Violent Crime  White-Collar Crime
    Answer            Investigations    Investigations   Investigations
-5 (Very Negative
                           4                    5                   9
     Impact)
        -4                 3                    5                  10
        -3                 1                   13                  21
        -2                 4                   18                  32
        -1                 4                   27                  34
         0                542                  792                 747
         1                60                   31                  37
         2                 78                  34                  41
         3                83                   35                  31
         4                 59                  19                  14
 5 (Very Positive
                          117                  23                  18
     Impact)
       N/A                279                  234                 237
Total Responses          1,234                1,236               1,231




                                 - 139 -
                      REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                            APPENDIX VIII
 6.    What impact, if any, has the FBI’s shift in priorities during the last
 three years had on your agency’s law enforcement efforts in addressing each
 of the following violent crime areas?

                                   Number of Responses
   Available                          Crimes Against
                    Bank Robberies                              Fugitives
    Answer                               Children
-5 (Very Negative
                         11                    3                    3
     Impact)
        -4                8                    1                    2
        -3               28                    4                    6
        -2               35                    6                   17
        -1               46                   19                   32
         0               692                  850                  774
         1               20                   26                   43
         2               13                    9                   31
         3               21                   21                   28
         4                16                  13                   18
 5 (Very Positive
                         37                   19                   23
     Impact)
       N/A               305                  254                  250
Total Responses         1,232                1,225                1,227


                                   Number of Responses
                                                               Interstate
   Available                                                Transportation of
                       Gangs              Hate Crime
    Answer                                                    Stolen Motor
                                                                Vehicles
-5 (Very Negative
                          1                    1                    5
     Impact)
        -4                2                    3                    7
        -3                5                    3                    5
        -2                8                    2                   10
        -1               23                   14                   18
         0               764                  809                  763
         1               29                   21                   21
         2                27                  18                   11
         3               15                   12                   11
         4                7                    4                    7
 5 (Very Positive
                         12                    8                    6
     Impact)
       N/A               337                  324                  363
Total Responses         1,230                1,219                1,227




                                - 140 -
                     REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                       APPENDIX VIII

                                       Number of Responses
                          Interstate
   Available                                      Major Theft
                      Transportation of                               Motor Vehicle Theft
    Answer                                        (>$10,000)
                       Stolen Property
-5 (Very Negative
                                6                      9                       4
     Impact)
        -4                       5                    11                       5
        -3                       6                     6                       4
        -2                       9                    14                       6
        -1                      24                    34                      26
         0                      773                   803                     869
         1                      18                    20                      19
         2                      10                    10                       9
         3                      10                    10                       6
         4                       4                     9                       5
 5 (Very Positive
                                9                      8                       5
     Impact)
       N/A                    353                     292                    267
Total Responses              1,227                   1,226                  1,225


                                        Number of Responses
                                      Theft From
                    Available                       Violent Crimes
                                      Interstate
                     Answer                        Against Persons
                                       Shipment
                -5 (Very Negative
                                            5                     5
                     Impact)
                        -4                  4                     5
                        -3                  3                     9
                        -2                  4                     6
                        -1                 21                    31
                         0                 752                   818
                         1                 14                    31
                         2                  7                     26
                         3                  5                    19
                         4                  5                     9
                 5 (Very Positive
                                            2                    23
                     Impact)
                       N/A                 404                   242
               Total Responses            1,226                 1,224




                                    - 141 -
                         REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE
                                                           APPENDIX VIII

7.    What impact, if any, has the FBI’s shift in priorities during the last
three years had on your agency’s law enforcement efforts in addressing each
of the following white-collar crime areas?

                                     Numb er of Responses
                                            Financial         Financial
                       Environmental
 Available Answer                       Institution Fraud Institution Fraud
                          Crimes
                                       (< than $100,000) (> than $100,000)
  -5 (Very Negative
                             3                 7                  3
       Impact)
          -4                2                 10                  7
          -3                1                 16                  8
          -2                2                 22                 17
          -1               10                  46                 23
           0               747                744                730
           1                12                 31                 17
           2                8                 21                 13
           3                2                  13                 7
           4
                             1                 3                  1
  5 (Very Positive
                            3                  11                 8
      Impact)
        N/A                437                299                394
 Total Responses          1,228              1,223              1,228

                                     Numb er of Responses
 Available Answer     Insurance Fraud   Identity Theft    Mortgage Fraud
  -5 (Very Negative
                             3                 12                 5
       Impact)
          -4                2                  6                  0
          -3                7                 21                  2
          -2               12                 37                  4
          -1               21                 49                  18
           0               800                711                755
           1                18                 63                 11
           2                7                 40                  1
           3                1                  27                  2
           4                3                  7                  2
   5 (Very Positive
                            6                  17                 3
       Impact)
         N/A               349                236                418
 Total Responses          1,229              1,226              1,221




                                 - 142 -
                      REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE
                                                                   APPENDIX VIII

                                           Numb er of Responses
                                                      Telemarketing and
           Available Answer         Public Corruption
                                                          Wire Fraud
            -5 (Very Negative
                                           3                 12
                 Impact)
                    -4                     2                  2
                    -3                     5                 11
                    -2                     4                 28
                    -1                    12                 28
                     0                    750                729
                     1                    16                 36
                     2                     6                  17
                     3                     5                 11
                     4                     4                  6
             5 (Very Positive
                                           6                 10
                 Impact)
                   N/A                    409               334
             Total Responses             1,222             1,224


8.    What impact, if any, has the FBI’s shift in priorities during the last
three years had on your agency’s law enforcement efforts in addressing each
of the following types of organized crime/drug organizations?

                                    Number of Responses
    Available             African          Asian        Caribbean
     Answer            Organizations   Organizations   Organizations
  -5 (Very Negative
                                3                   2                     2
       Impact)
          -4                   1                    1                   1
          -3                   2                    5                   2
          -2                  14                    4                   3
          -1                  14                   14                   6
           0                  676                  685                 683
           1                   13                   22                  15
           2                   6                    4                   4
           3                    7                   9                   4
           4                   2                    5                   2
   5 (Very Positive
                                6                   5                     2
       Impact)
         N/A                479                    468                 496
   Total Responses         1,223                  1,224               1,220




                                 - 143 -
                      REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                            APPENDIX VIII

                                 Number of Responses
                    Central/South    Eurasian and  La Cosa Nostra/
  Available
                      American         Russian         Italian
   Answer
                    Organizations   Organizations   Organizations
-5 (Very Negative
                              2                3                 3
     Impact)
        -4                  1                  0                 0
        -3                  2                  6                 5
        -2                  7                  8                 5
        -1                 14                 17                10
         0                 683                684               685
         1                 23                 16                 9
         2                  5                  6                 2
         3                  6                  4                 1
         4                  1                  3                 1
 5 (Very Positive
                           10                  5                 1
     Impact)
       N/A                 468                473               501
 Total Responses          1,222              1,225             1,223


                                     Number of Responses
                                                 Other Major
              Available             Mexican
                                                   Criminal
               Answer             Organizations
                                                Organizations
          -5 (Very Negative
                                       5               3
               Impact)
                  -4                   4               3
                  -3                   8               5
                  -2                  16               8
                  -1                  26              23
                   0                  665             715
                   1                  31              17
                   2                   8               6
                   3                  14              12
                   4                   4               4
           5 (Very Positive
                                      14              10
               Impact)
                 N/A                  429             415
           Total Responses           1,224           1,221




                               - 144 -
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                                    APPENDIX VIII
Joint (Non-Task Force) Investigations with the FBI:

9.    During calendar year 2000, approximately how many joint (non-task
force) investigations did your agency work with the FBI?

                                                       Number of
                       Available Answer
                                                       Responses
                0 investigations                             661
                1 to 10 investigations                       502
                11 to 25 investigations                       37
                26 to 50 investigations                        9
                51 to 100 investigations                      6
                More than 100 investigations                   4
                                   Total Responses          1,219


10. Comparing calendar years 2000 to 2004, rate the change, if any, in
the number of your agency’s joint (non-task force investigations with the
FBI.

                                                              Number of
                       Available Answer
                                                              Responses
          Significant decrease (greater than 25%)                 51
          Moderate decrease (10% to 25%)                          34
          Slight decrease (less than 10%)                         50
          No change                                              922
          Slight increase (less than 10%)                         88
          Moderate increase (10% to 25%)                          43
          Significant increase (greater than 25%)                 24
                                          Total Responses       1,212




                                - 145 -
                     REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE
                                                        APPENDIX VIII

11. During calendar year 2000, approximately how many joint (non-task
force) investigations did your agency work with the FBI in each of the
following general investigative areas?

                                  Number of Responses
   Available       Computer Crime        Drug       Organized Crime
    Answer          Investigations   Investigations  Investigations
0                       894                889              1,030
1-10                    276                267               141
11-25                    11                 17                4
26-50                     3                 10                2
50-100                   1                  1                 1
More than 100             5                  5                3
 Total Responses       1,190              1,189             1,181



                                 Number of Responses
                     Terrorism                       White-Collar
   Available                        Violent Crime
                      Related                           Crime
    Answer                          Investigations
                   Investigations                   Investigations
0                      1,006               895               896
1-10                    149                255               265
11-25                    10                 19                11
26-50                     2                  8                 3
50-100                   3                  3                 0
More than 100             4                  7                 5
 Total Responses       1,174              1,187             1,180




                              - 146 -
                   REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                            APPENDIX VIII

12. Comparing calendar years 2000 to 2004, rate the change, if any, in
the number of your agency’s joint (non-task force) investigations with the
FBI in each of the following general investigative areas.

                                       Number of Responses
                                                              Organized
                            Computer           Drug
  Available Answer                                              Crime
                              Crime        Investigations
                                                            Investigations
Significant Decrease
                               14                30                14
(> 25%)
Moderate Decrease
                               17                18                11
(10%-25%)
Slight Decrease
                               42                33                27
(< 10%)
No Change                     1,004            1,041             1,087
Slight Increase (< 10%)        69               41                31
Moderate Increase
                               32                23                11
(10%-25%)
Significant Increase
                               10                6                 3
(> 25%)
 Total Responses              1,188            1,192             1,184



                                      Number of Responses
                            Terrorism                    White-Collar
                                         Violent Crime
  Available Answer           Related                        Crime
                                         Investigations
                          Investigations                Investigations
Significant Decrease
                                7                12                16
(> 25%)
Moderate Decrease
                                0                15                13
(10%-25%)
Slight Decrease
                                8                40                41
(< 10%)
No Change                      948             1,035             1,048
Slight Increase (< 10%)        117              61                58
Moderate Increase
                               57                15                9
(10%-25%)
Significant Increase
                               50                9                 3
(> 25%)
 Total Responses              1,187            1,187             1,188




                                - 147 -
                     REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE
                                                           APPENDIX VIII

Level of FBI Investigations in Your Agency’s Jurisdiction:

13. Comparing calendar years 2000 to 2004, rate the change, if any, you
have observed in the level of investigations conducted by the FBI in your
agency’s jurisdiction in each of the following general investigative areas.

                                   Number of Responses
                         Computer
                                             Drug         Organized Crime
 Available Answer         Crimes
                                         Investigations    Investigations
                       Investigations
Decrease                     58                82                 37
No Change                   887               896                947
Increase                    113                76                 46
Uncertain                   148               150                171
    Total Responses        1,206             1,204              1,201



                                    Number of Responses
                         Terrorism                      White-Collar
                                       Violent Crime
 Available Answer         Related                         Crime
                                       Investigations
                       Investigations                 Investigations
Decrease                     3                 58                 63
No Change                   769               934                914
Increase                    307                70                 61
Uncertain                   124               138                158
    Total Responses        1,203             1,200              1,196




                                 - 148 -
                      REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                         APPENDIX VIII
Availability of FBI Training:

14. Comparing calendar years 2000 to 2004, what level of change, if any,
has your agency experienced in the availability of FBI training in the
following areas?

                                     Number of Responses
    Available Answer           Counterterrorism Traditional Crime
                               Related Training  Related Training
Significant Decrease (> 25%)          7                 27
Moderate Decrease
                                     10                 49
(10%-25%)
Slight Decrease (< 10%)              16                 58
No Change                            487                708
Slight Increase (< 10%)              146                96
Moderate Increase
                                     186                60
(10%-25%)
Significant Increase (> 25%)         175                 32
Not Applicable                       182                183
             Total Responses        1,209              1,213




                                - 149 -
                     REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                            APPENDIX VIII

Joint-Investigative Efforts with Other Federal Law Enforcement
Agencies:

15.     Comparing calendar years 2000 to 2004, rate the change, if any, in the
        number of joint (non-task force) investigations between your agency
        and the following federal law enforcement agencies.

Bureau of Alcohol, Tobacco, Firearms & Explosives (ATF)          Internal Revenue Service (IRS)
Bureau of Immigration and Customs Enforcement (ICE)              U.S. Marshals Service (USMS)
Customs and Border Protection (CBP)                              U.S. Postal Inspection Service (USPIS)
Department of Health & Human Services (HHS)                      U.S. Secret Service (USSS)
Drug Enforcement Administration (DEA)


                                             Number of Responses
 Available Answer            ATF           ICE   CBP    HHS    DEA                          IRS
 Significant Decrease
                              8            10        14              3         7             4
 (> 25%)
 Moderate Decrease
                              11            7        13              3         9             5
 (10%-25%)
 Slight Decrease
                              19           9         23              7         41           14
 (< 10%)
 No Change                   641           697       620           748        616           753
 Slight Increase (< 10%)     224           92        174           39         173           73
 Moderate Increase
                              68           33        74             15         95           14
 (10%-25%)
 Significant Increase
                              38           25        38              2         43            1
 (> 25%)
  N/A                        198           328       254           380        219           334
  Total Responses           1,207         1,201     1,210         1,197      1,203         1,198


                                                Number of Responses
      Available Answer             USMS                USPIS                        USSS
 Significant Decrease
 (> 25%)                            1                        3                        3
 Moderate Decrease
 (10%-25%)                           4                       4                       12
 Slight Decrease
 (< 10%)                            14                      22                        19
 No Change                          686                     650                      659
 Slight Increase (< 10%)            129                     186                      180
 Moderate Increase
 (10%-25%)                          53                      72                       73
 Significant Increase
 (> 25%)                             28                      30                       26
  N/A                               282                     234                      230
  Total Responses                  1,197                   1,201                    1,202




                                    - 150 -
                         REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                           APPENDIX VIII

16. During calendar year 2000, if your agency participated in any of the
following federal task forces, approximately how many of your agency’s
officers (Full-Time Equivalents) were assigned each task force and
approximately how many investigations did the task force handle?

Text Response – No summary available


17. During calendar year 2004, if your agency participated in any of the
following federal task forces, approximately how many of your agency’s
officers (Full-Time Equivalents) were assigned each task force and
approximately how many investigations did the task force handle?

Text Response – No summary available


18. Besides those federal task forces noted in Question 17, are there any
other federal task forces that your agency participated in during calendar
year 2004 but not during calendar year 2000?

Text Response – No summary available




                               - 151 -
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                                 APPENDIX VIII
General Questions About Your Agency:

19.   What type of agency do you represent?

                                                     Number of
                   Available Answer
                                                     Responses
           Police Department                            942
           Sheriff’s Department                         206
           State Law Enforcement Agency                 28
           Tribal Law Enforcement Agency                 9
           Other (e.g., airport, railroad, harbor)      32
           (Please specify)
                                 Total Responses       1,217



20. As of January 1, 2000, how many sworn (on-board) officers did your
agency have?

Text Response – No summary available


21. As of November 1, 2004, how many sworn (on-board) officers did your
agency have?

Text Response – No summary available




                                - 152 -
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                                   APPENDIX VIII

22. Per the 2000 Census, what was the size of the population your agency
represented?

                                                  Number of
                   Available Answer
                                                  Responses
            Less than 20,000 residents                  711
            20,000 to 50,000 residents                  221
            50,001 to 100,000 residents                  94
            100,001 to 250,000 residents                 80
            Over 250,000 residents                       91
                              Total Responses          1,197



23. Compared to the 2000 Census, rate the change, if any, in the size of
the population that your agency currently represents.

                                                        Number of
                    Available Answer
                                                        Responses
          Significant decrease (> than 15%)                  16
          Moderate decrease (5%-15%)                         46
          Slight decrease (< than 5%)                       113
          No change                                         312
          Slight increase (< than 5%)                       379
          Moderate increase (5%-15%)                        230
          Significant increase (> than 15%)                  98
                                     Total Responses       1,194




                               - 153 -
                    REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE
                                                         APPENDIX VIII

24. As of January 1, 2000, approximately how much was your agency’s
annual law enforcement budget, including federal financial assistance?

Text Response – No summary available


25. As of January 1, 2000, approximately how much federal financial
assistance did your agency receive for law enforcement matters?

Text Response – No summary available


26. As of January 1, 2004, approximately how much was your agency’s
annual law enforcement budget, including federal financial assistance?

Text Response – No summary available


27. As of January 1, 2004, approximately how much federal financial
assistance did your agency receive for law enforcement matters?

Text Response – No summary available




                              - 154 -
                   REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                             APPENDIX VIII

28. Comparing calendar years 2000 to 2004, how significant was the
change in the overall crime rate that occurred within your agency’s
jurisdiction?

                                                      Number of
                      Available Answer
                                                      Responses
       Very significant decrease (more than 25%)             18
       Moderately significant decrease (10%-25%)             99
       Slightly significant decrease (0-10%)                228
       No change                                            183
       Slightly significant increase (0-10%)                383
       Moderately significant increase (10%-25%)            159
       Very significant increase (more than 25%)             39
       Total Responses                                     1,109



29. Comparing calendar years 2000 to 2004, rate the change, if any, in
the number of crimes experienced within your jurisdiction for each of the
following categories.

                                      Number of Responses
                                                                    Gang
                            Bank       Computer     Drug
Available Answer                                                   Related
                          Robberies     Crimes     Crimes
                                                                   Crimes
Significant Decrease
                             23             6        14               8
(> 25%)
Moderate Decrease
                             16             6        22              11
(10%-25%)
Slight Decrease
                             64             23       64              58
(< 10%)
No Change                    502           289      277              499
Slight Increase (< 10%)      132           343      326              164
Moderate Increase
                             27            169      248              72
(10%-25%)
Significant Increase
                             22             75       97              20
(> 25%)
N/A                          295           165       35              243
 Total Responses            1,081         1,076    1,083            1,075




                                - 155 -
                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                              APPENDIX VIII

                                       Number of Responses
                            Hate        Major    Organized            Public
Available Answer           Crimes       Thefts     Crime            Corruption
Significant Decrease                                   2                1
                              12           7
(> 25%)
Moderate Decrease                                      3                3
                              7           30
(10%-25%)
Slight Decrease                                        14               19
                              26          96
(< 10%)
No Change                    657          408         596              581
Slight Increase (< 10%)      75           301         66               55
Moderate Increase                                     14               12
                              16          126
(10%-25%)
Significant Increase                                   3                1
                              7           30
(> 25%)
 N/A                         279           77         378              406
 Total Responses            1,079        1,075       1,076            1,078



                                        Number of Responses
                                     Violent Crimes  White-Collar
          Available Answer
                                    Against Persons    Crime
          Significant Decrease
                                          21                  2
          (> 25%)
          Moderate Decrease
                                          41                  7
          (10%-25%)
          Slight Decrease
                                         134                 37
          (< 10%)
          No Change                      382                 506
          Slight Increase (< 10%)        321                 217
          Moderate Increase
                                          98                 80
          (10%-25%)
          Significant Increase
                                          25                 42
          (> 25%)
           N/A                            60                 180
                 Total Responses        1,082               1,071




                                - 156 -
                     REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE
                                                                            APPENDIX VIII
30.    In what FBI field office jurisdiction is your agency located?

                                                          Number of
                          Available Answer
                                                         Responses 79
                    Atlanta                                    174
                    Chicago                                    205
                    Dallas                                     205
                    Denver                                     107
                    Detroit                                    218
                    Los Angeles                                 77
                    Miami                                       36
                    New Orleans                                 76
                    New York City                               73
                    Phoenix                                     46
                    San Francisco                               75
                    Washington, D.C.                            20
                                Total Responses               1,312



31. With which FBI Resident Agency (RA) does your agency primarily
work?

Text Response – No summary available




       79
           As previously noted, we received multiple responses from the same agency on a few
occasions. The figures in this table reflect the actual number of responses received, including the
multiple responses.

                                     - 157 -
                          REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                              APPENDIX VIII
Additional Comments:

32. Describe the specific areas (if any) in which the FBI during the past
three years changed the level of its: (1) working relationship with your
agency, (2) information sharing with your agency, or (3) investigative
assistance or support provided to your agency. In particular, consider the
following areas when addressing your response: Organized Crime, Drugs,
Violent Gangs, White-Collar Crime, Violent Crime, and Bank Robberies.

Text Response – No summary available


33. If possible, please provide specific examples or data that your agency
may have to support your response to Question 32.

Text Response – No summary available


34. Describe the impact that the changes described in Question 32 have
had on your agency’s ability to address criminal activity in your jurisdiction.

Text Response – No summary available


35. If applicable, please provide specific instances in which the FBI was
unable to provide investigative assistance to your agency when it was
requested over the past three years.

Text Response – No summary available


36. Describe the nature and extent of your law enforcement
responsibilities, particularly in the following areas: Organized Crime, Drugs,
Violent Gangs, White-Collar Crime, Violent Crime, and Bank Robberies.

Text Response – No summary available


37. What other comments would you like to provide that were not
addressed in this survey?

Text Response – No summary available



                                - 158 -
                     REDACTED FOR PUBLIC RELEASE
                             REDACTED FOR PUBLIC RELEASE
                                                                  APPENDIX IX
          APPENDIX IX: ADDITIONAL SURVEY ANALYSES

       In Chapter 4, we identified the overall results of our web-based
survey. As noted, these analyses indicated that state and local law
enforcement agencies were minimally affected by the FBI’s change in
investigative priorities. Although the overall results primarily showed no
impact on these departments, we performed additional analyses according to
distinct criteria. Specifically, we reviewed the responses based upon field
office jurisdiction, department size, and population. Each of these analyses
mirrored the overall survey results, in other words, there was no significant
variation in the outcome due to differing criteria. The following sections
provide the results of these further analyses.

Field Office Jurisdictions

       As discussed in the report, we disseminated the survey to state and
local law enforcement agencies located in the jurisdictional areas of 12 FBI
field offices. The following exhibit illustrates these locations, as well as the
number of survey participants and recipients within each jurisdiction.

                                MAP OF SURVEY RECIPIENTS




Source: Office of the Inspector General


       We reviewed the survey data according to the FBI field office
jurisdictions in which the respondents were located. We focused on the
survey questions that pertained to the impact of the FBI’s shift in priorities

                                        - 159 -
                             REDACTED FOR PUBLIC RELEASE
                               REDACTED FOR PUBLIC RELEASE
                                                                                                                  APPENDIX IX
     during the last three years. Through our analyses, we determined that the
     majority of respondents within each location were minimally affected by the
     FBI’s reprioritization. As such, we chose to further analyze the negative
     responses to determine if any locations indicated more of a negative impact
     than others.

     General Traditional Crime Areas

            We reviewed the negative responses by field office location in general
     traditional crime areas. In other words, we looked at the impact the FBI’s
     reprioritization had on the state and local law enforcement agencies’ efforts
     in addressing drugs, organized crime, violent crime, and white-collar crime.
     The following exhibit illustrates the results of this analysis.

                  NEGATIVE IMPACT ON TRADITIONAL CRIME AREAS
                      ACCORDING TO FIELD OFFICE LOCATION
                      Drugs                                                               Organized Crime
                                                                    14


                                                                    12


                                                                    10
                                              Number of Responses




                                                                    8


                                                                    6


                                                                    4


                                                                    2


                                                                    0




                                                                                                                                                   x
                                                                                                                                rk
                                                                                              r




                                                                                                                                                  o
                                                                                                                       s
                                                                                                             t
                                                                          go




                                                                                                            s
                                                                           a




                                                                                     s




                                                                                                                                                 n
                                                                                                                        i
                                                                                                       i
                                                                                            ve




                                                                                                                      m


                                                                                                                     an




                                                                                                                                                ni
                                                                                                     ro


                                                                                                          le




                                                                                                                                               sc
                                                                                   la
                                                                         nt




                                                                                                                                               to
                                                                                                                              Yo
                                                                        ca




                                                                                                                    ia




                                                                                                                                            oe
                                                                                                        ge
                                                                                          en
                                                                                al




                                                                                                   et
                                                                       la




                                                                                                                                           ng
                                                                                                                                            ci
                                                                                                                  rle
                                                                                                                  M
                                                                               D
                                                                     hi




                                                                                                  D
                                                                     At




                                                                                                                                         an
                                                                                                                             ew


                                                                                                                                         Ph
                                                                                                      An
                                                                                         D




                                                                                                                                         hi
                                                                                                                 O
                                                                    C




                                                                                                                                       as
                                                                                                                                       Fr
                                                                                                                            N
                                                                                                                   ew
                                                                                                        s




                                                                                                                                     W
                                                                                                      Lo




                                                                                                                                         n
                                                                                                                  N




                                                                                                                                       Sa
                  Violent Crime                                                          White-Collar Crime




Source: OIG analysis of survey responses



                                          - 160 -
                               REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE
                                                                   APPENDIX IX
       For drug-related matters, there were a total of 67 respondents from all
12 jurisdictions that indicated a negative effect on their operations. State
and local law enforcement agencies located in the FBI Atlanta Field Office
jurisdiction accounted for nearly 20 percent of the negative responses. In
contrast, none of the respondents in the FBI Washington, D.C., Field Office
jurisdiction noted a negative impact in this crime area.

       In the area of organized crime, there were a total of 73 respondents
that indicated a negative effect on their operations from the 12 jurisdictions.
Two of the 12 locations (Chicago and Los Angeles) comprised over 30 percent
of the negative replies.

      Similar to organized crime, 21 of the 68 negative responses in violent
crime came from agencies located in the Chicago and Los Angeles jurisdictions.
Moreover, the jurisdictions of the FBI Miami and Washington, D.C., Field Offices
did not disclose any negative effect from the FBI’s reprioritization in violent
crime matters.

       Regarding white-collar crime, we noted that agencies within each
jurisdictional area revealed that their operations were negatively affected by
the FBI’s shift in priorities. Of these four traditional crime areas, white-collar
crime matters had the largest overall negative impact with 106 negative
responses. Five of the 12 FBI jurisdictional areas (Atlanta, Chicago, Dallas,
Detroit, and Los Angeles) comprised over 60 percent of the total negative
responses, with the Dallas Field Office accounting for the largest percentage.

Law Enforcement Agency Size

       In our survey, 1,171 participants identified their agency’s calendar
year 2004 sworn-officer level. For our analysis, we judgmentally developed
ranges of resource levels to determine if department size had any bearing on
the degree to which agencies were negatively affected by the FBI’s shift in
priorities. The following table provides the number of survey respondents
within each range.

                 SURVEY RESPONDENTS ACCORDING TO
              CALENDAR YEAR 2004 SWORN OFFICER LEVELS
            Range of Sworn Officers               Number of Respondents
                 Less than 50                              798
                    50 – 99                                178
                   100 – 299                               124
                   300 – 499                                23
                500 and Above                               48
       Source: OIG analysis of survey responses




                                  - 161 -
                       REDACTED FOR PUBLIC RELEASE
                                  REDACTED FOR PUBLIC RELEASE
                                                                    APPENDIX IX
           Within each range, we determined the number of respondents who
    indicated that agency operations were impaired as a result of the FBI’s
    reprioritization, specifically focusing on the traditional crime areas of drugs,
    organized crime, violent crime, and white-collar crime. The following graphs
    illustrate the negative impact on in these four crime areas as they relate to
    the size of law enforcement agencies.

               NEGATIVE IMPACT ON TRADITIONAL CRIME AREAS
               AS IT RELATES TO LAW ENFORCEMENT AGENCY SIZE
                       Drugs                               Organized Crime

         2%
                      13%
                                      43%
              26%
                            16%




                    Violent Crime                         White-Collar Crime




Source: OIG analysis of survey responses


           The majority of respondents noting a negative impact on their
    agency’s operations in these criminal areas were those departments with
    fewer than 50 sworn officers. Those agencies with 100 to 299 sworn officers
    accounted for the second largest group of negative responses in three of the
    four investigative areas: organized crime, violent crime, and white-collar
    crime. In contrast, those departments with 300 to 499 sworn officers or
    500 sworn officers and above had the lowest percentage of total negative
    responses in each of these criminal areas.



                                             - 162 -
                                  REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE
                                                                  APPENDIX IX
Population

       We further analyzed the survey responses based upon the population
size that each agency serviced. Our survey asked participants the
population of their jurisdictional area according to the 2000 Census. This
analysis enabled us to determine if population size had any correlation to
areas most impacted by the FBI’s reprioritization. The following table
identifies the number of survey respondents within each population range.

                 SURVEY RESPONDENTS ACCORDING TO
                             POPULATION SIZE
               Population Size        Number of Respondents
               Less than 20,000                711
               20,000 to 50,000                221
               50,001 – 100,000                 94
              100,001 – 250,000                 80
                 Over 250,000                   91
                     Total                   1,197
       Source: OIG analysis of survey responses


      This analysis revealed that those agencies located in an area where
the population was less than 20,000 experienced the largest impact in each
of the 4 traditional crime areas as a result of the FBI’s shift in priorities. The
second largest demographic negatively affected by the FBI’s reprioritization
were those locations where the population ranged from 20,000 to 50,000,
which occurred in 3 of the 4 crime areas.




                                  - 163 -
                       REDACTED FOR PUBLIC RELEASE
                             REDACTED FOR PUBLIC RELEASE
                                                             APPENDIX IX
                NEGATIVE IMPACT ON TRADITIONAL CRIME AREAS
                       ACCORDING TO POPULATION OF
                   LAW ENFORCEMENT AGENCIES’ LOCATION
                       Drugs                        Organized Crime




                  Violent Crime                    White-Collar Crime




Source: OIG analysis of survey responses




                                        - 164 -
                             REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                       APPENDIX X
          APPENDIX X: LIST OF SURVEY RESPONDENTS

       Following are the names of the state and local law enforcement
agencies that responded to our survey. The list is categorized according to
FBI field office jurisdictional areas. Those names followed by an “*” indicate
that more than one response was received from the agency.

         ATLANTA, GEORGIA, FBI FIELD OFFICE JURISDICTION
       Acworth Police Department                  Climax Police Department
      Adairsville Police Department            Cobb County Police Department
       Albany Police Department                College Park Police Department
        Alma Police Department                Columbia County Sheriff's Office
      Alpharetta Police Department              Columbus Police Department
       Aragon Police Department                  Conyers Police Department
      Arlington Police Department                Cuthbert Police Department
       Atlanta Police Department                 Claxton Police Department
      Attapulgus Police Department            Clayton County Police Department
       Austell Police Department             Dawson County Sheriff's Department
  Baldwin County Sheriff's Department         Decatur Public Safety Department
     Ball Ground Police Department           DeKalb County Police Department*
     Bartow County Sheriff’s Office             DeKalb County Sheriff's Office
   Berrien County Sheriff's Department         Donalsonville Police Department
      Blairsville Police Department              Doraville Police Department
    Bloomingdale Police Department           Dougherty County Police Department
  Brantley County Sheriff’s Department        Dougherty County Sheriff's Office
       Bremen Police Department                  Douglas Police Department
      Buchanan Police Department                  Dublin Police Department
     Bulloch County Sheriff’s Office             Early County Sheriff’s Office
        Cairo Police Department                 East Point Police Department
  Calhoun County Sheriff's Department       Effingham County Sheriff's Department
       Calhoun Police Department                 Emerson Police Department
     Camden County Sheriff’s Office                Eton Police Department
       Canon Police Department                   Euharlee Police Department
   Carroll County Sheriff's Department          Forsyth County Sheriff's Office
      Carrollton Police Department                Forsyth Police Department
     Cedartown Police Department               Fort Gaines Police Department
      Centerville Police Department             Fort Valley Police Department
     Clarkesville Police Department           Fort Oglethorpe Police Department
      Clarkston Police Department            Franklin County Sheriff’s Department
      Cleveland Police Department             Fulton County Police Department


                                    - 165 -
                         REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE
                                                                     APPENDIX X
     Georgia Bureau of Investigation         Miller County Sheriff’s Department
  Georgia Department of Public Safety       Morgan County Sheriff's Department
Georgia Ports Authority Police Department    Mount Vernon Police Department
          Georgia State Patrol*               Mount Zion Police Department
      Glennville Police Department           Muscogee County Sheriff's Office
    Glynn County Police Department              Nahunta Police Department
   Grady County Sheriff's Department            Newnan Police Department
     Greene County Sheriff's Office         Newton County Sheriff's Department
      Greenville Police Department              Newton Police Department
 Grovetown Department of Public Safety          Norcross Police Department
   Gwinnett County Police Department            Omega Police Department
  Gwinnett County Sheriff's Department           Oxford Police Department
        Hahira Police Department                Palmetto Police Department
       Hall County Sheriff's Office           Paulding County Sheriff’s Office
      Hampton Police Department             Peach County Sheriff 's Department
      Heard County Sheriff’s Office          Peachtree City Police Department
        Helen Police Department                Pembroke Police Department
     Hiawassee Police Department            Pierce County Sheriff’s Department
      Hinesville Police Department              Pike County Sheriff's Office
         Ivey Police Department             Port Wentworth Police Department
       Jackson Police Department               Remerton Police Department
      Jefferson Police Department            Richmond County Sheriff's Office
    Jeffersonville Police Department            Ringgold Police Department
      Kingsland Police Department               Rochelle Police Department
      Lakeland Police Department             Rockdale County Sheriff's Office
      Lamar County Sheriff's Office              Rome Police Department
    Lee County Sheriff's Department             Roswell Police Department
                                             Savannah-Chatham Metropolitan
      Leesburg Police Department
                                                    Police Department
        Leslie Police Department            Schley County Sheriff's Department
        Lilburn Police Department             Screven County Sheriff's Office
     Lowndes County Sheriff's Office            Smyrna Police Department
       Ludowici Police Department              Soperton Police Department
        Lyons Police Department             Southwest Georgia Regional Airport
     Madison County Sheriff’s Office           Statesboro Police Department
                                                  Stone Mountain Park
     Marshallville Police Department
                                                   Police Department
        McDonough Public Safety                Sumter County Sheriff's Office
  McDuffie County Sheriff's Department         Suwanee Police Department*
       McIntyre Police Department              Sycamore Police Department
     Milledgeville Police Department            Sylvania Police Department

                                     - 166 -
                          REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                  APPENDIX X
    Sylvester Police Department              Valdosta Police Department*
   Tattnall County Sheriff's Office           Varnell Police Department
     Temple Police Department                 Vidalia Police Department
   Thomaston Police Department                Vienna Police Department
  Thomasville Police Department*          Walker County Sheriff's Department
  Thunderbolt Police Department           Warner Robins Police Department
Treutlen County Sheriff's Department       Waverly Hall Police Department
  Tybee Island Police Department           Waynesboro Police Department
     Tyrone Police Department               West Point Police Department
     Uvalda Police Department            Whitfield County Sheriff's Department




       CHICAGO, ILLINOIS, FBI FIELD OFFICE JURISDICTION
    Addison Police Department                 Darien Police Department
   Algonquin Police Department               Deerfield Police Department
     Amtrak National Railroad
                                              DeKalb Police Department
      Passenger Corporation
    Antioch Police Department                  Dixon Police Department
Arlington Heights Police Department       Downers Grove Police Department
     Aurora Police Department            DuPage County Sheriff's Department
  Bannockburn Police Department               Durand Police Department
     Bartlett Police Department          Elk Grove Village Police Department
  Bedford Park Police Department             Evanston Police Department
    Bellwood Police Department            Evergreen Park Police Department
  Belt Railway County of Chicago            Forest Park Police Department
     Berwyn Police Department                Fox Lake Police Department
  Bolingbrook Police Department           Fox River Grove Police Department
    Burnham Police Department             Franklin Grove Police Department
  Calumet Park Police Department           Franklin Park Police Department
  Carol Stream Police Department             Freeport Police Department
   Chadwick Police Department                 Galena Police Department
  Cherry Valley Police Department             Geneva Police Department
Chicago Heights Police Department             Gilberts Police Department
    Chicago Police Department*               Glen Ellyn Police Department
     Cicero Police Department            Glendale Heights Police Department
City of McHenry Police Department         Glenview Illinois Police Department
    Cook County Sheriff's Office             Glenwood Police Department
  Countryside Police Department                 Golf Police Department
   Crestwood Police Department               Grayslake Police Department
  Crystal Lake Police Department            Grundy County Sheriff's Office


                                   - 167 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                  APPENDIX X
    Gurnee Police Department                  Mazon Police Department
    Harvey Police Department                 McCook Police Department
Harwood Heights Police Department        McHenry County Sheriff's Department
Hawthorn Woods Police Department             Mendota Police Department
  Hazel Crest Police Department           Merrionette Park Police Department
  Hickory Hills Police Department             Metra Police Department*
 Highland Park Police Department             Midlothian Police Department
   Highwood Police Department               Milledgeville Police Department
    Hinckley Police Department               Minooka Police Department
    Hinsdale Police Department                Monee Police Department
   Hometown Police Department                Morrison Police Department
  Homewood Police Department               Mount Carroll Police Department
    Huntley Police Department             Mount Prospect Police Department
        Illinois State Police               Mundelein Police Department*
         Indian Head Park
                                            New Lenox Police Department
        Police Department
                                                  Norfolk Southern
     Itasca Police Department
                                                   Railroad Police
 Jo Daviess County Sheriff's Office          Norridge Police Department
   Johnsburg Police Department              North Utica Police Department
    Justice Police Department               Northbrook Police Department
 Kane County Sheriff's Department            Northfield Police Department
  Kendall County Sheriff's Office            Northlake Police Department
   Kenilworth Police Department             Oak Forest Police Department
    Kildeer Police Department                Oak Lawn Police Department
    Kingston Police Department               Oak Park Police Department
   La Grange Police Department             Ogle County Sheriff's Department
   Lake Bluff Police Department               Oregon Police Department
  Lake Zurich Police Department             Orland Hills Police Department
    Lansing Police Department               Orland Park Police Department
     Leland Police Department                Oswego Police Department
    Lemont Police Department                  Ottawa Police Department
     Lena Police Department                   Palatine Police Department
   Libertyville Police Department          Palos Heights Police Department
  Lincolnshire Police Department            Palos Hills Police Department
  Lindenhurst Police Department             Palos Park Police Department
    Lockport Police Department               Park City Police Department
   Lombard Police Department                  Phoenix Police Department
  Loves Park Police Department                Posen Police Department
    Lyndon Police Department             Prospect Heights Police Department
     Lyons Police Department               Richton Park Police Department

                                   - 168 -
                        REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE
                                                                 APPENDIX X
    Riverdale Police Department             Stockton Police Department
  River Forest Police Department          Stone Park Police Department
   River Grove Police Department          Streamwood Police Department
    Riverside Police Department             Summit Police Department
    Rochelle Police Department              Tampico Police Department
   Rock Falls Police Department           Tinley Park Police Department
    Rockdale Police Department               Tonica Police Department
    Rockford Police Department*           Tower Lakes Police Department
                                              Union Pacific Railroad
    Rockton Police Department
                                                Police Department
         Rolling Meadows
                                         University Park Police Department
        Police Department
     Roscoe Police Department             Vernon Hills Police Department
   Round Lake Police Department            Villa Park Police Department
  Schaumburg Police Department             Waukegan Police Department
  Schiller Park Police Department           Wayne Police Department
     Seneca Police Department            West Chicago Police Department
   Shorewood Police Department           West Dundee Police Department
     Skokie Police Department             Westchester Police Department
 Sleepy Hollow Police Department           Westmont Police Department
South Barrington Police Department         Wheaton Police Department
  South Beloit Police Department          Willowbrook Police Department
       South Chicago Hts.
                                            Wilmette Police Department
        Police Department
  South Elgin Police Department*          Winnebago Police Department
   St. Charles Police Department           Winnetka Police Department
        Stephenson County
                                          Woodstock Police Department
        Sheriff's Department
    Sterling Police Department                Zion Police Department
    Stickney Police Department




         DALLAS, TEXAS, FBI FIELD OFFICE JURISDICTION
      Allen Police Department              Archer County Sheriff’s Office
    Alvarado Police Department              Argyle Police Department
       Amarillo International                   Armstrong County
     Airport Police Department                 Sheriff's Department
    Amherst Policy Department               Athens Police Department
  Anderson County Sheriff's Office          Atlanta Police Department
Angelina County Sheriff's Department        Aubrey Police Department
     Anson Police Department                Ballinger Police Department
       Anton Marshal's Office               Bedford Police Department


                                  - 169 -
                       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                   APPENDIX X
      Bells Police Department                 Dublin Police Department
    Benbrook Police Department              Duncanville Police Department
   Blue Mound Police Department                Early Police Department
    Bonham Police Department                 Eastland Police Department
     Bovina Police Department             East Tawakoni Police Department
     Bowie Police Department                   Eden Police Department
   Briscoe County Sheriff's Office          Edgewood Police Department
     Bullard Police Department                Electra Police Department
   Burkburnett Police Department               Ennis Police Department
    Burleson Police Department                Euless Police Department
Callahan County Sheriff's Department         Fisher County Sheriff's Office
   Caney City Police Department              Foard County Sheriff's Office
     Canyon Police Department                Forest Hill Police Department
    Carrollton Police Department         Franklin County Sheriff's Department
    Cedar Hill Police Department              Friona Police Department
  Clay County Sheriff’s Department             Frisco Police Department
    Cleburne Police Department                 Frost Police Department
  Cochran County Sheriff’s Office             Garland Police Department
    Colleyville Police Department          Garza County Constable's Office
    Collin County Sheriff's Office        Garza County Sheriff's Department
 Comanche County Sheriff's Office          Glenn Heights Police Department
     Coppell Police Department                Godley Police Department
     Corinth Police Department               Granbury Police Department
    Corrigan Police Department             Grand Prairie Police Department
 Cottle County Sheriff's Department        Grand Saline Police Department
    Crockett Police Department              Grandview Police Department
     Dalhart Police Department               Grapevine Police Department
   Dallas County Constable Pct. 4            Gray County Sheriff's Office
       Dallas County Hospital
                                            Grayson County Sheriff's Office
     District Police Department
    Dallas County Sheriff’s Office       Greenville Texas Police Department
       Dallas Marshal's Office               Groveton Police Department
     Dallas Police Department             Gun Barrel City Police Department
Dawson County Sheriff’s Department            Gunter Police Department
     Decatur Police Department              Hale Center Police Department
    Delta County Sheriff's Office          Hall County Sheriff's Department
    Denison Police Department                 Hamlin Police Department
     DeSoto Police Department            Hansford County Sheriff’s Department
    DFW Airport Police Service              Hartley County Sheriffs' Office
      Diboll Police Department              Haskell County Sheriff's Office


                                   - 170 -
                        REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE
                                                                   APPENDIX X
   Hereford Police Department               Mitchell County Sheriff’s Office
Hickory Creek Police Department             Mt. Enterprise Marshal's Office
         Highland Park
                                              Murphy Police Department
  Department of Public Safety
  Hood County Sheriff's Office          New Summerfield Police Department
 Hopkins County Sheriff's Office            Nolan County Sheriff's Office
 Houston County Sheriff’s Office        North Richland Hills Police Department
Hughes Springs Police Department               Olton Police Department
    Hurst Police Department                  Ore City Police Department
Hutchinson County Sheriff's Office             Ovilla Police Department
    Idalou Police Department                 Paducah Police Department
   Irion County Sheriff's Office             Palestine Police Department
    Irving Police Department                   Paris Police Department
     Italy Police Department                Parker County Sheriff's Office
  Jacksboro Police Department              Parmer County Sheriff' s Office
   Jefferson Police Department               Pittsburg Police Department
Jones County Sheriff's Department              Plano Police Department
   Kaufman Police Department                Potter County Sheriff's Office
    Kemp Police Department                   Princeton Police Department
   Kent County Sheriff's Office             Randall County Sheriff's Office
 Kilgore (TX) Police Department            Red Oak ISD Police Department
   Knox County Sheriff's Office              Red Oak Police Department
 Lake Dallas Police Department                Reklaw Police Department
   Lakeside Police Department                  Rice Police Department
  Lake Worth Police Department               Rio Vista Police Department
   Lamesa Police Department                  Roanoke Police Department
  Lancaster Police Department            Roberts County Sheriff’s Department
   Leonard Police Department                Royse City Police Department
   Little Elm Police Department                Rusk Police Department
   Lockney Police Department                Sabine County Sheriff's Office
  Longview Police Department                  Sachse Police Department
   Lubbock Police Department                 Saginaw Police Department
    Lufkin Police Department            San Angelo Airport Police Department
   Mabank Police Department               San Augustine Police Department
   Malakoff Police Department               Scurry County Sheriff’s Office
  Marion County Sheriff's Office            Seagoville Police Department
   Marshall Police Department                Seminole Police Department
   Mesquite Police Department              Shallowater Police Department
    Milford Police Department            Shelby County Sheriff's Department
 Mineral Wells Police Department           Sherman County Sheriff’s Office


                                  - 171 -
                       REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                            APPENDIX X
    Sherman Police Department                           Tulia Police Department
      Slaton Police Department                          Tye Police Department
     Snyder Police Department                        Union Pacific Railroad Police
     Sonora Police Department                       Valley View Police Department
   Southmayd Police Department                     University Park Police Department
    Stamford Police Department                        Vernon Police Department
     Tahoka Police Department                       Waxahachie Police Department
 Tarrant County Sheriffs' Department                 White Oak Police Department
    Taylor County Sheriff's Office                  Whitesboro Police Department
        Terrell Police Service                      Whitewright Police Department
 Texas Department of Public Safety                  Wichita Falls Police Department
     Titus County Sheriff's Office                     Wilmer Police Department
 Tom Green County Sheriff’s Office                    Wise County Sheriff’s Office
       Tool Police Department                         Wolfforth Police Department
     Trenton Police Department                       Wood County Sheriff's Office
     Trinidad Police Department                     Yoakum County Sheriff’s Office


      DENVER, COLORADO, FBI FIELD OFFICE JURISDICTION
                                        COLORADO
   Alamosa County Sheriff's Office                    Denver Police Department
     Alamosa Police Department                        Denver Sheriff Department
  Arapahoe County Sheriff's Office                  Dolores County Sheriff's Office
Archuleta County Sheriff's Department                 Durango Police Department
      Aurora Police Department                       Edgewater Police Department
      Basalt Police Department                         Evans Police Department
     Bent County Sheriff’s Office                    Firestone Police Department
     Boulder Police Department                      Fort Lupton Police Department
    Burlington Police Department                    Fort Morgan Police Department
   Cañon City Police Department                       Fountain Police Department
   Cedaredge Police Department                     Grand Junction Police Department
      Center Police Department                        Greeley Police Department
   Central City Police Department              Greenwood Village Police Department
 Clear Creek County Sheriff's Office               Gunnison County Sheriff's Office
  Colorado Bureau of Investigation                 Idaho Springs Police Department
Colorado Springs Police Department                  Jackson County Sheriff’s Office
      Cortez Police Department                      Jefferson County Sheriff's Office
   Costilla County Sheriff's Office                    Kiowa Police Department
      Craig Police Department                  Kit Carson County Sheriff’s Department
     Dacono Police Department                         La Junta Police Department
    Delta County Sheriff's Office                     Lakeside Police Department

                                    - 172 -
                         REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE
                                                                           APPENDIX X
   Lakewood Police Department                      Sedgwick County Sheriff’s Office
   Logan County Sheriff's Office                        Silt Police Department
    Louisville Police Department                    Silverthorne Police Department
     Minturn Police Department                         Simla Police Department
  Monte Vista Police Department                  Snowmass Village Police Department
  Montrose County Sheriff's Office                 Southern Ute Police Department
    Montrose Police Department                   Steamboat Springs Police Department
   Nederland Police Department                      Summit County Sheriff’s Office
   New Castle Police Department                      Teller County Sheriff's Office
     Olathe Police Department                           Vail Police Department
    Otero County Sheriff's Office                   Walsenburg Police Department
    Palisade Police Department               Washington County Sheriff's Department
  Palmer Lake Police Department                      Weld County Sheriff's Office
     Parker Police Department                        Windsor Police Department
   Pueblo County Sheriff's Office                 Woodland Park Police Department
     Pueblo Police Department                        Yuma County Sheriff's Office
    San Luis Police Department                         Yuma Police Department
                                       WYOMING
     Baggs Police Department                       Mountain View Police Department
     Bairoil Police Department                      Natrona County Sheriff's Office
      Basin Police Department                        Park County Sheriff's Office
     Buffalo Police Department                       Platte County Sheriff's Office
     Byron Police Department                          Powell Police Department
    Douglas Police Department                        Riverton Police Department
    Evanston Police Department                     Sublette County Sheriff's Office*
     Gillette Police Department                      Sundance Police Department
  Goshen County Sheriff's Office                     Uinta County Sheriff's Office
        Green River Police                         Washakie County Sheriff's Office
 Hot Springs County Sheriff's Office                Wheatland Police Department
    Jackson Police Department                        Worland Police Department
     Lander Police Department                Wyoming Division of Criminal Investigation
Laramie County Sheriff's Department                   Wyoming Highway Patrol*
     Lyman Police Department




                                  - 173 -
                       REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                        APPENDIX X


    DETROIT, MICHIGAN, FBI FIELD OFFICE JURISDICTION
                                               Chesterfield Township
     Adrian Police Department
                                                 Police Department
 Albion Department of Public Safety        City of Clio Police Department
   Alcona County Sheriff's Office        Clare County Sheriff’s Department
    Alger County Sheriff's Office           Clinton Police Department
   Allegan County Sheriff's Office              CN Railroad Police
   Allen Park Police Department            Coldwater Police Department
      Alma Police Department                Croswell Police Department
     Almont Police Department             Crystal Falls Police Department
   Arenac County Sheriff’s Office         Davison City Police Department
     Armada Police Department          Dearborn Heights Police Department
     Auburn Police Department              Delta County Sheriff’s Office
     Bangor Police Department          Denton Township Police Department
      Baroda-Lake Township
                                           Dowagiac Police Department
        Police Department
 Bath Township Police Department       Dryden Township Police Department
                                               East Grand Rapids
   Benzie County Sheriff's Office
                                           Department of Public Safety
            Beverly Hills
                                          East Lansing Police Department
    Department of Public Safety
    Birch Run Police Department            Eastpointe Police Department
   Birmingham Police Department         Eaton County Sheriff’s Department
       Bishop Airport Police
                                         Eaton Rapids Police Department
    Department Of Public Safety
 Blackman Township Public Safety           Eau Claire Police Department
                                                Emmett Township
    Blissfield Police Department
                                            Department of Public Safety
                                                Essexville Public
   Boyne City Police Department
                                               Safety Department
    Bridgman Police Department               Evart Police Department
 Calumet Village Police Department      Farmington Hills Police Department
                                                   Farmington
      Caro Police Department
                                           Department of Public Safety
    Caseville Police Department             Fenton Police Department
    Cass County Sheriff's Office           Flat Rock Police Department
Center Line Public Safety Department     Flint Township Police Department
  Central Lake Police Department       Flushing Township Police Department*
 Charlevoix City Police Department          Forsyth Police Department
 Charlevoix County Sheriff's Office      Frankenmuth Police Department
       Cheboygan County
                                            Franklin Police Department
       Sheriff’s Department


                                    - 174 -
                         REDACTED FOR PUBLIC RELEASE
                            REDACTED FOR PUBLIC RELEASE
                                                                           APPENDIX X

Fraser Department of Public Safety            Kentwood Police Department

        Genesee Township                         Keweenaw Bay Tribal
         Police Department                        Police Department
 Gerald R Ford International Airport               Lac Vieux Desert
               Police                          Tribal Police Department
Gerrish Township Police Department           Laingsburg Police Department
  Gogebic County Sheriff's Office           Lake Angelus Police Department
   Grand Blanc Township Police
                                              Lake County Sheriff's Office
            Department
  Grand Ledge Police Department              Lake Orion Police Department
    Grand Traverse Band Tribal
                                          Lakeview Village Police Department
        Police Department
   Grandville Police Department                Lansing Police Department
   Grosse Ile Police Department              Lapeer City Police Department
Grosse Pointe Farms Public Safety             Laurium Police Department
      Grosse Pointe Woods
                                               Lawton Police Department
     Public Safety Department
       Hampton Township
                                           Leoni Township Police Department
        Police Department
   Hamtramck Police Department                  Leslie Police Department
 Harbor Beach Police Department                Linden Police Department
      Hart Police Department                  Litchfield Police Department
    Hartford Police Department              Livingston County Sheriff's Office
   Hazel Park Police Department                Livonia Police Department
           Hillsdale City                     Luce County Sheriff’s Office
    Holland Police Department                 Luna Pier Police Department
     Homer Police Department               Mackinaw City Police Department
 Houghton County Sheriff's Office         Madison Heights Police Department
         Huntington Woods
                                            Manistee County Sheriff's Office
    Department of Public Safety
Huron Clinton Metro Parks Authority*        Maple Rapids Police Department
   Huron County Sheriff's Office         Marenisco Township Police Department
   Ingham County Sheriff's Office             Marshall Police Department
    Iron County Sheriff’s Office               Mason Police Department
 Iron Mountain Police Department         Metamora Township Police Department
Ironwood Public Safety Department                Michigan State Police*
   Ishpeming Police Department                 Midland Police Department
  Jackson County Sheriff's Office              Milford Police Department
    Jackson Police Department                 Millington Police Department
   Jonesville Police Department              Monroe County Sheriff’s Office
    Kalkaska Police Department                 Morrice Police Department
 Keego Harbor Police Department           Mundy Township Police Department


                                       - 175 -
                            REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE
                                                                            APPENDIX X
     Munising Police Department         Saginaw Chippewa Tribal Police Department
  Muskegon County Sheriff's Office             Saginaw Police Department
    Muskegon Police Department             Saginaw Township Police Department
Muskegon Township Police Department           Saint Ignace Police Department
    Newaygo Police Department                    Saline Police Department
 North Muskegon Police Department             Sand Lake Police Department
Northfield Township Police Department          Sandusky Police Department
      Northville Township Police          Saugatuck Douglas Police Department
      Norvell Police Department             Sault Ste. Marie Police Department
Oak Park Department Of Public Safety          Sebewaing Police Department
   Oakley Brady Township Police
                                           Shelby Township Police Department
           Department
 Ontonagon County Sheriff's Office        Somerset Township Police Department
   Orchard Lake Police Department            South Haven Police Department
 Oscoda County Sheriff’s Department           South Lyon Police Department
     Oscoda Police Department                  Southfield Police Department
 Ottawa County Sheriff’s Department             Sparta Police Department
                                                  Spring Lake/Ferrysburg
    Owendale Police Department
                                                     Police Department
  Oxford Village Police Department        Springfield Department of Public Safety
    Paw Paw Police Department               St. Clair Shores Police Department
       Peck Police Department             St. Joseph Township Police Department
    Pentwater Police Department             Sterling Heights Police Department
      Perry Police Department                 Suttons Bay Police Department
Petoskey Department of Public Safety           Tecumseh Police Department
    Pinconning Police Department              Three Oaks Police Department
          Pittsfield Township
                                                Trenton Police Department
     Department of Public Safety
Plainwell Department of Public Safety            Troy Police Department
     Pontiac Police Department            Tuscarora Township Police Department
    Port Austin Police Department          Unadilla Township Police Department
     Portage Police Department                 Union City Police Department
Richfield Township Police Department           Unionville Police Department
Richland Township Police Department              Utica Police Department
    Riverview Police Department                 Vernon Police Department
    Rochester Police Department                Vicksburg Police Department
     Rockford Police Department             Village of Marion Police Department
     Romeo Police Department                    Warren Police Department
 Roscommon County Sheriff’s Office        Waterloo Township Police Department
    Rose City Police Department                Wayne County Airport Police
     Roseville Police Department                Wayne Police Department


                                     - 176 -
                          REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE
                                                                          APPENDIX X
West Branch City Police Department                  Wolverine Lake
  White Cloud Police Department              Wyandotte Police Department
   White Lake Police Department              Wyoming Police Department



LOS ANGELES, CALIFORNIA, FBI FIELD OFFICE JURISDICTION
    Anaheim Police Department                  Hemet Police Department*
  Arroyo Grande Police Department         Huntington Park Police Department
      Azusa Police Department                Inglewood Police Department
     Barstow Police Department             Laguna Beach Police Department
  Bell Gardens Police Department                  Long Beach Transit
       Bell Police Department               Los Angeles Police Department*
      Blythe Police Department            Manhattan Beach Police Department
      Brea Police Department                  Monrovia Police Department
   Buena Park Police Department             Montebello Police Department*
     Burbank Police Department                Murrieta Police Department
 Burbank-Glendale-Pasadena Airport
                                           Newport Beach Police Department
    Authority Police Department
    Burlington Northern Santa Fe
                                           Ontario International Airport Police
            Railway Police
 Cabazon Tribal Police Department         Orange County Sheriff’s Department
  California Bureau of Investigation        Palm Spring Police Department
     Chino Police Department*                Pasadena Police Department
    City of Long Beach (Airport)            Paso Robles Police Department
  City of Orange Police Department         Port Hueneme Police Department
     Colton Police Department                 Redlands Police Department
     Corona Police Department             Redondo Beach Police Department
   Costa Mesa Police Department          Riverside County Sheriff’s Department
   Culver City Police Department             Riverside Police Department
                                                San Bernardino County
     Cypress Police Department
                                                 Sheriff’s Department
                                            San Bernardino County Sheriff’s
Desert Hot Springs Police Department
                                                   Adelanto Station
     Downey Police Department              San Bernardino Police Department
    El Monte Police Department              San Gabriel Police Department
   El Segundo Police Department           San Luis Obispo Police Department
     Fontana Police Department               Santa Ana Police Department
    Fullerton Police Department        Santa Barbara County Sheriff’s Department
    Gardena Police Department              Santa Monica Police Department
    Glendale Police Department               Seal Beach Police Department
    Glendora Police Department              Sierra Madre Police Department


                                     - 177 -
                          REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE
                                                                          APPENDIX X
    Simi Valley Police Department             Vernon Police Department
  South Pasadena Police Department         West Covina Police Department
     Torrance Police Department            Westminster Police Department*
       Tustin Police Department               Whittier Police Department
      Upland Police Department



        MIAMI, FLORIDA, FBI FIELD OFFICE JURISDICTION
      Atlantis Police Department        Jupiter Island Public Safety Department
Bay Harbor Islands Police Department        Key West Police Department*
    Belle Glade Police Department            Margate Police Department
Boca Raton Police Services Department         Medley Police Department
    Broward County Sheriff’s Office        Miami Springs Police Department
 City of Avon Park Police Department        Miami-Dade Police Department
   City of Miami Police Department      Miami-Dade Schools Police Department
  City of Miramar Police Department         North Miami Police Department
                                                  North Palm Beach
  City of Pahokee Police Department
                                             Department of Public Safety
   City of West Palm Beach Police
                                        Palm Beach Gardens Police Department
             Department
  Coconut Creek Police Department       Palm Beach Shores Police Department
       Davie Police Department          Palm Springs Public Safety Department
   Delray Beach Police Department         Pembroke Pines Police Department
  Fort Lauderdale Police Department      Royal Palm Beach Police Department
 Hallandale Beach Police Department            Stuart Police Department
  Highland Beach Police Department                  Sunrise Police
  Hillsboro Beach Police Department         Vero Beach Police Department
    Hollywood Police Department



NEW ORLEANS, LOUISIANA, FBI FIELD OFFICE JURISDICTION
     Abbeville Police Department             Clarence Police Department
    Alexandria Police Department              Clinton Police Department
       Angie Police Department               Dixie Inn Police Department
        Ball Police Department               Dubberly Police Department
   Baton Rouge Police Department             East Carroll Sheriff’s Office
  Beauregard Parish Sheriff’s Office          Eunice Police Department
     Berwick Police Department               Fordoche Police Department
     Bogalusa Police Department              Franklin Police Department
     Caddo Parish Sheriff’s Office        Grant Parish Sheriff’s Department
   Cameron Parish Sheriff’s Office           Gueydan Police Department


                                     - 178 -
                          REDACTED FOR PUBLIC RELEASE
                           REDACTED FOR PUBLIC RELEASE
                                                                                APPENDIX X
     Hammon Police Department                   Pineville Police Department
     Haughton Police Department             Pointe Coupee Parish Sheriff’s Office
    Haynesville Police Department                Pollock Police Department
      Houma Police Department*                 Port Barre Police Department
                                                    Port of New Orleans
  Iberia Parish Sheriff’s Department
                                                Harbor Police Department
        Iota Police Department                Port Vincent Police Department
    Jeanerette Police Department               Rapides Parish Sheriff’s Office
   Jefferson Davis Parish Sheriff’s
                                            Richland Parish Sheriff’s Department
             Department
   Jefferson Parish Sheriff’s Office*        Sabine Parish Sheriff’s Department
      Kaplan Police Department                   Sarepta Police Department
     Kentwood Police Department                   Scott Police Department
   Lafourche Parish Sheriff’s Office            Slaughter Police Department
     Leesville Police Department                 Slidell Police Department
     Lincoln Parish Sheriff’s Office          St. Martin Parish Sheriff’s Office
     Lockport Police Department           St. Bernard Parish Sheriff’s Department
        Louisiana State Police*                  St. Charles Sheriff’s Office
    Mandeville Police Department         St. John the Baptist Parish Sheriff’s Office
     Marksville Police Department                Sulphur Police Department
      McNary Police Department                   Tallulah Police Department
  Morehouse Parish Sheriff’s Office          Terrebonne Parish Sheriff’s Office
   Morgan City Police Department*            Town of Erath Police Department
  Natchitoches Parish Sheriff’s Office        Turkey Creek Police Department
     New Orleans Aviation Board                Vernon Parish Sheriff’s Office
   New Orleans Police Department          West Baton Rouge Sheriff’s Department
    Oak Grove Police Department               West Monroe Police Department
 Ouachita Parish Sheriff’s Department              Winnsboro City Police
     Patterson Police Department




NEW YORK CITY, NEW YORK, FBI FIELD OFFICE JURISDICTION
     Amityville Police Department         East Hampton Town Police Department
Amtrak Police and Security Department         Eastchester Police Department
      Ardsley Police Department                Floral Park Police Department
  Briarcliff Manor Police Department          Garden City Police Department
City of Middletown Police Department     Greenwood Lake Village Police Department
    City of Rye Police Department               Harriman Police Department
City of Yonkers NY Police Department           Hempstead police department
   Dutchess County Sheriff's Office             Irvington Police Department


                                      - 179 -
                           REDACTED FOR PUBLIC RELEASE
                            REDACTED FOR PUBLIC RELEASE
                                                                             APPENDIX X
Kensington Village Police Department        Suffolk County Park Police Department
    Kings Point Police Department             Suffolk County Police Department
  Nassau County Police Department               Suffolk County Sheriff’s Office
   New Rochelle Police Department            Sullivan County Sheriff's Department
  New York City Police Department*          Town of Clarkstown Police Department
  New York State Police Department                    Town of Cornwall
     Northport Police Department            Town of Deerpark Police Department
   Ocean Beach Police Department           Town of East Fishkill Police Department
   Old Brookville Police Department         Town of Fallsburg Police Department
   Old Westbury Police Department          Town of Haverstraw Police Department
   Orange County Sheriff's Office*         Town of North Castle Police Department
  Pelham Manor Police Department*         Town of Poughkeepsie Police Department
             Port Chester                   Town of Ramapo Police Department*
    Port Jervis Police Department            Town of Tuxedo Police Department
    Port Washington Police District         Village of Bronxville Police Department
 Putnam County Sheriff's Department        Village of Buchanan Police Department
     Quogue Village Police Dept                  Village of Cold Spring Police
    Riverhead Police Department         Village of Croton-on-Hudson Police Department
Rockland County Sheriff’s Department        Village of Goshen Police Department
                                            Village of Hastings on Hudson Police
    Rye Brook Police Department
                                                         Department
    Scarsdale Police Department             Village of Ossining Police Department
     Sea Gate Police Department            Village of Rhinebeck Police Department
   Sleepy Hollow Police Department                Walden Police Department
Southampton Village Police Department    Wappingers Falls Village Police Department
                                         Westchester County Department of Public
  Southold Town Police Department
                                                          Safety*
   Spring Valley Police Department             Yorktown Police Department
    Stony Point Police Department



      PHOENIX, ARIZONA, FBI FIELD OFFICE JURISDICTION
 Arizona Department of Public Safety               Eloy Police Department
      Benson Police Department                   Flagstaff Police Department
   Bullhead City Police Department            Fort McDowell Police Department
   Casa Grande Police Department                  Gila County Sheriff's Office
     Chandler Police Department                 Gila River Police Department
   Chino Valley Police Department                Glendale Police Department
    Cochise County Sheriff’s Office             Goodyear Police Department
     Coolidge Police Department               Huachuca City Police Department
    Cottonwood Police Department             Lake Havasu City Police Department

                                       - 180 -
                            REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE
                                                                            APPENDIX X
    Mammoth Police Department                  Sedona Police Department
     Marana Police Department                Sierra Vista Police Department
  Maricopa County Sheriff's Office          South Tucson Police Department
      Mesa Police Department                 Springerville Police Department
   Mohave County Sheriff's Office              Superior Police Department
     Nogales Police Department                 Thatcher Police Department.
 Paradise Valley Police Department             Tolleson Police Department
     Parker Police Department*              Tucson Airport Police Department
     Peoria Police Department                   Tucson Police Department
     Phoenix Police Department                 Williams Police Department
     Prescott Police Department               Yavapai-Prescott Tribal Police
     Safford Police Department                Youngtown Police Department
 Santa Cruz County Sheriff's Office             Yuma Police Department
    Scottsdale Police Department



       SAN FRANCISCO, CALIFORNIA, FBI FIELD OFFICE
                     JURISDICTION
Alameda Contra-Costa Transit District          Fremont Police Department
   Alameda County Sheriff’s Office/
                                                Gilroy Police Department
       Dublin Police Services
   Alameda County Sheriff's Office            Gonzales Police Department
    Alameda Police Department                 Greenfield Police Department
     Arcata Police Department              Half Moon Bay Police Department
     Belmont Police Department                Hayward Police Department
   Brentwood Police Department                Hercules Police Department
   Broadmoor Police Department              Humboldt County Sheriff's Office
   Burlingame Police Department              Kensington Police Department
    Campbell Police Department                Lakeport Police Department
     Capitola Police Department              Livermore Police Department
                                               Los Gatos/Monte Sereno
     Carmel Police Department
                                                  Police Department
     Concord Police Department             Marin County Sheriff's Department
Contra Costa County Sheriff’s Office           Millbrae Police Department
      Cotati Police Department                 Milpitas Police Department

  Crescent City Police Department       Monterey Peninsula Airport District Police

     Danville Police Department               Monterey Police Department
   East Bay Regional Park Police           Mountain View Police Department
    El Cerrito Police Department           Napa County Sheriff's Department
    Emeryville Police Department                Napa Police Department


                                    - 181 -
                         REDACTED FOR PUBLIC RELEASE
                            REDACTED FOR PUBLIC RELEASE
                                                                                    APPENDIX X
                                             Santa Clara Valley Transportation Authority
      Newark Police Department
                                                               (VTA)
       Novato Police Department                    Santa Cruz Police Department
 Office of the Sheriff, Santa Clara Co.,
                                                   Santa Rosa Police Department
            West Valley Patrol
   Pacific Grove Police Department                  Sausalito Police Department
      Pacifica Police Department                  Scotts Valley Police Department
      Palo Alto Police Department               Sonoma County Sheriff’s Department
     Piedmont Police Department                South San Francisco Police Department
      Salinas Police Department*                Sunnyvale Public Safety Department
     San Bruno Police Department                Town of Windsor Police Department
    San Carlos Police Department                     Twin Cities Police Authority
   San Francisco Municipal Railway
                                                      Ukiah Police Department
         Police and Security
   San Francisco Police Department                 Union City Police Department
     San Jose Police Department                     Union Pacific Railroad Police
    San Leandro Police Department                 Walnut Creek Police Department
  San Mateo County Sheriff's Office*                  Willits Police Department
  Santa Clara County Sheriff’s Office*           Yurok Department of Public Safety



      WASHINGTON, D.C. FBI FIELD OFFICE JURISDICTION 80
  Arlington County Police Department                 Leesburg Police Department
    Arlington County Sheriff’s Office              Loudoun County Sheriff's Office
   City of Fairfax Police Department               Metro Transit Police Department
            City of Falls Church              Metropolitan Washington Airports Authority
  District Department of Transportation             Purcellville Police Department
   Fairfax County Police Department                  Quantico Police Department
     Fairfax County Sheriff's Office                Stafford County Sheriff’s Office
      Falls Church Sheriff's Office                   Vienna Police Department
 Front Royal Virginia Police Department             Warren County Sheriff’s Office




       80
         The jurisdiction of the FBI Washington Field Office includes the District of
Columbia and portions of Virginia.

                                       - 182 -
                            REDACTED FOR PUBLIC RELEASE
          REDACTED FOR PUBLIC RELEASE
                                        APPENDIX XI
APPENDIX XI: FEDERAL BUREAU OF INVESTIGATION
                  RESPONSE




                     - 183 -
          REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE
                              APPENDIX XI




           - 184 -
REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE
                                                    APPENDIX XI

      FBI RESPONSE TO RECOMMENDATIONS OF THE OFFICE OF THE
    INSPECTOR GENERAL'S AUDIT OF THE EXTERNAL EFFECTS OF THE
   FEDERAL BUREAU OF INVESTIGATION'S REPRIORITIZATION EFFORTS

Recommendation 1. We recommend the FBI ensure that it has
accurately evaluated its investigative needs and necessary
resource levels within each area of the FBI's operations -
including both terrorism and non-terrorism related programs -
and translate this information into realistic field agent
allocations.

FBI Response: The FBI concurs with this recommendation and will
continue its efforts to accurately evaluate its investigative
needs and necessary resource levels within each area of the
FBI's operations - including both terrorism and non-terrorism
related programs - and translate this information into realistic
field agent allocations.

     In order to improve its ability to evaluate accurately its
investigative needs and necessary resource levels within each
area of the FBI's operations - including both terrorism and non-
terrorism related programs - and translate this information into
realistic field agent allocations, the FBI established the
Strategic Planning and Execution Council in September 2004.
This Council developed a strategic plan for the FBI for FYs
2007 - 2011, using the work of subject matter experts and the
Directorate of Intelligence to forecast the growing threats the
FBI will face in future years. This was the FBI's first attempt
to articulate full funding requirements for its "total mission"
- intelligence, counterterrorism, counterintelligence, criminal
investigative, cyber, and associated law enforcement services,
and administrative support segments. The strategic plan
specifically addresses the operational requirements of the FBI's
mission and proposes a larger, more technically specialized
operational workforce managed and deployed to cover forecasted
threats to the U.S.

     The strategic plan also recognized that the FBI cannot
continue to meet additional resource requirements by drawing on
the resources of other programs. The FBI's counterterrorism,
counterintelligence, intelligence, and criminal investigative
responsibilities are additive and these missions can no longer
be supported at the expense of the others. The strategic plan
forecasts a need to expand the FBI's total workforce by 48% and
the Special Agent workforce by 38% by FY 2011 in order to meet
the increasingly complex threats facing the FBI. The FBI

                            - 185 -
                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE
                                                    APPENDIX XI
forecasted the need to increase its Special Agent workforce in
all of its operational/investigative missions - intelligence,
counterterrorism, counterintelligence, criminal investigative
and cyber.

     While the FBI's workforce and budget increased
significantly between FY 2000 and 2005, the resource demands of
the FBI's national security missions, the creation of a new
Cyber Division, and the need to address special events and other
immediate needs, such as the aggressive hiring of intelligence
analysts, increased at an even greater rate. As a result the
FBI was forced to continue to cover these additional resource
requirements largely by drawing on resources from other FBI
programs, most notably the Criminal Investigative Program. From
FY 2000 to FY 2004, the Special Agents dedicated to the Criminal
Investigative Program decreased by approximately 33%, from 6,664
in FY 2000 to 4,474 in FY 2004.

     In response, the FBI acted decisively and aggressively to
address and to minimize, where possible, the negative impact on
the FBI and local, state, and federal law enforcement, as well
as the general public, caused by the reallocation of 2,190
Special Agents from the Criminal Investigative Program. At the
SACs Conference in November 2004 and three Criminal
Investigative Program Management Regional Coordination
Conferences in FY 2005, the Criminal Investigative Division
clearly communicated the priorities of the Criminal
Investigative Program and provided detailed guidance on the
prioritization and use of those resources to the SACs, ASACs and
SSAs responsible for managing those resources. FBI Headquarters
and field office Criminal Investigative Program coordinators and
managers were provided with a matrix of criminal priorities that
provided guidance on how limited Criminal Investigative Program
resources should be used to address Public Corruption, Civil
Rights, Violent Gangs/Organized Crime/Criminal Enterprises,
Financial Crimes and Violent Crimes. Other specific program
guidance was also disseminated to the field offices.

     One of the first steps undertaken by the FBI to address the
dramatic impact of shifting large numbers of skilled personnel
to counterterrorism and other higher priorities was the
restaffing and rebuilding of our highest priority programs
within the Criminal Investigative Program. One of our
priorities was to ensure the Public Corruption Program was as
robust and aggressive as its importance to our nation demands.
Although the OIG noted the FBI dedicated fewer resources to the
Public Corruption Program and had fewer case openings in FY 2004

                            - 186 -
                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE
                                                    APPENDIX XI
than in FY 2000, that statistic does not fairly depict the FBI's
efforts and accomplishments in the Public Corruption Program in
FY 2004. By FY 2004, the FBI had substantially rebuilt the
Public Corruption program and had only utilized 36 fewer Agents
than in FY 2000 (8% less) and opened 15 fewer cases (1.7 % less)
than in FY 2000. Despite these slight reductions in personnel
resources and case openings, the Public Corruption program had
significantly higher statistical accomplishments in FY 2004 than
FY 2000, including 102 more convictions.

      The re-establishment of the Public Corruption Program as
the cornerstone of the FBI's Criminal Investigative Program
continued in FY 2005. In FY 2005, the Agents dedicated to the
program increased and a Public Corruption Enhancement Initiative
was developed and used to conduct an internal assessment to
identify those FBI field offices whose Public Corruption
Programs would best benefit from an on-site assessment and
training. To fully implement this initiative, an experienced
team of FBI Headquarters and field personnel were used to begin
conducting these assessments. SACs were also advised they would
be held personally accountable for ensuring they had an
aggressive, robust Public Corruption Program. The data on the
Public Corruption Enhancement Initiative was provided to the OIG
during their audit and the data on the FY 2005 increases in
resources for the Public Corruption program were provided to the
OIG immediately following the exit conference on September 13,
2005.

      Health Care Fraud is another priority of the FBI that
suffered from the redeployment of resources to higher priority
areas. However, the underutilization of these resources was
corrected in FY 2005. The year-to-date data on the utilization
of Health Care Fraud resources in FY 2005 (Funded Staffing Level
- 407, Annualized Resource Utilization to date - 403)
established that these resources were utilized at the level
conveyed to Congress for FY 2005. This data was provided to the
OIG immediately following the exit conference on September 13,
2005.

     In addition to its internal efforts to maximize the use of
its own personnel, the FBI also increased its efforts to more
fully leverage its personnel resources by increasing the use of
task forces consisting of local, state and federal law
enforcement agencies, particularly in its anti-gang efforts. To
this end the FBI increased the number of Safe Streets Gang Task
Forces from 104 in FY 2004 to 125 during FY 2005, established a


                            - 187 -
                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE
                                                    APPENDIX XI
MS-13 National Gang Task Force, and initiated the start up of a
National Gang Intelligence Center.

     The FBI has undertaken similar, interagency task force
efforts in the White Collar Crime field. Over the last nine
years the FBI has used 89 Financial Crimes Task Forces,
including 25 Health Care Fraud Task Forces and 32 Financial
Institution Fraud Task Forces to address the criminal threat in
these areas. During this time period, these task forces
produced over 1,700 convictions or pretrial diversions and $42
million in fines, $27.7 million in recoveries and $1.5 billion
in restitutions.

     In the areas of Financial Institution Fraud, Fraud By Wire
and Governmental Fraud, the FBI instituted dollar loss case
initiation thresholds to prioritize the investigation of these
and other financial crimes and manage the best use of limited
personnel. These dollar loss thresholds do not preclude field
offices from working cases below those thresholds, however, they
must obtain FBI Headquarters authorization to do so. This
controlled flexibility allows field offices, particularly
smaller field offices, to address financial crimes below these
thresholds, based on factors such as the impact on the local,
regional or national community.

     In evaluating its investigative needs and required resource
levels the FBI must consider the obvious interrelation and
interdependence of its intelligence, counterterrorism,
counterintelligence, criminal and cyber programs. Due to the
fact that terrorists make use of criminal enterprises and
criminal activities to further their interests, the FBI must
make use of its criminal investigative program and criminal
investigations to enhance the FBI's ability to prevent another
terrorist attack. Criminal investigations develop invaluable
intelligence and investigations on terrorists, which further
identify the United States' vulnerability to attack and directly
support the FBI's and the Intelligence Community's
counterterrorism, counterintelligence, and cyber efforts.
Criminal investigations of drug trafficking, money laundering,
fraud, and trafficking in everything from people, cigarettes and
counterfeit goods to infant formula have led to the development
of invaluable intelligence and investigations on terrorists and
their supporters.

Recommendation 2. We recommend the FBI ensure that it
accurately conveys to Congress the number of agents it will
dedicate to health care fraud using reimbursable funds.

                            - 188 -
                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE
                                                    APPENDIX XI

FBI Response: The FBI concurs with this recommendation and
accurately conveyed to Congress the number of agents it
dedicated to health care fraud using reimbursable funds for FY
2005. The FBI ensured the underutilization of Health Care Fraud
resources in FY 2004, as noted by the OIG and the GAO, was
corrected in FY 2005. The most recent year-to-date data for FY
2005, on the number of agents dedicated to health care fraud was
provided to the DOJ-OIG following the exit conference on
September 13, 2005. The Funded Staffing Level reported to
Congress for FY 2005, was 407 Agents, and the current annualized
resource utilization for Health Care Fraud is 403 (99%). The
FBI will continue to convey to Congress the number of agents it
will dedicate to Health Care Fraud using reimbursable funds in
each forthcoming FY.

Recommendation 3. We recommend the FBI ensure that field
offices are coordinating their anti-gang investigative efforts
and executing the DOJ anti-gang initiative.

FBI Response: The FBI concurs with this recommendation and will
continue its efforts to ensure field offices are coordinating
their anti-gang efforts and executing the DOJ anti-gang
initiative. The FBI disseminated a policy directive to each FBI
field office, dated July 5, 2005, which set forth the FBI's role
and responsibility in executing DOJ's anti-gang initiative
directive, dated June 17, 2005. A copy of this policy directive
was provided to the DOJ-OIG immediately following the exit
conference on September 13, 2005. The Assistant Director of the
Criminal Investigative Division also summarized the AG's anti-
gang strategy and the FBI's role in that strategy for the field
office SACs and ASACs during three rounds of regional
coordination meetings conducted by the FBI in 2005.

     The FBI will continue its other ongoing, nationwide
interagency anti-gang coordination efforts, including the
National Gang Intelligence Center, the MS-13 National Gang Task
Force, and 124 Safe Streets Gang Task Forces. The FBI has
welcomed and encouraged the broadest possible participation of
local, state and federal law enforcement and intelligence
counterparts in these efforts, as well as the use of these
efforts to facilitate and enhance communication,
information/intelligence sharing, and coordination among its
anti-gang counterparts. All of these efforts are critical to
the continued implementation of the FBI's National Gang Strategy
and the full use of the Enterprise Theory of Investigation to
identify, investigate, and dismantle gangs, in the same way the

                            - 189 -
                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE
                                                    APPENDIX XI
FBI has worked with local, state and federal law enforcement to
successfully dismantle other organized crime groups and criminal
enterprises.

Recommendation 4. We recommend the FBI seek to better
coordinate fugitive apprehension efforts with the USMS.

FBI Response: The FBI concurs with this recommendation and will
continue its efforts to work with the USMS at the national and
field office level to better coordinate fugitive apprehension
efforts. The Criminal Investigative Division Deputy Assistant
Director and Section Chief responsible for the FBI's fugitive
program initiated discussions with and then met with the
Assistant Director, Deputy Assistant Director and Section Chiefs
responsible for the USMS's fugitive program within the last six
months in an effort to better coordinate fugitive apprehension
efforts with the USMS. FBI field office SACs have also been
instructed to seek better coordination of fugitive apprehension
efforts with the USMS at Criminal Investigation Program
Management Regional Conferences.

Recommendation 5. We recommend the FBI pursue the formation of
a multi-agency working group to develop and implement a national
strategy to combat identity theft. This group should include,
at a minimum, representatives from within the DOJ, including the
FBI, as well as the U.S. Postal Inspection Service, the U.S.
Secret Service, ICE and local law enforcement.

FBI Response: The FBI concurs with this recommendation and will
pursue the formation of a multi-agency working group to develop
and implement a national strategy to combat identity theft in
conjunction with the DOJ. The FBI has identified approximately
900 cases in FY 2004, in which identity theft was involved.
Repeated FBI proposals to establish a National Identity Theft
Center were unsuccessful due to a lack of funding.

Recommendation 6. We recommend the FBI continue to work with
ICE to develop agreements for coordinating FBI and ICE
investigations of human trafficking and alien smuggling, as well
as child pornography.

FBI Response: The FBI concurs with this recommendation and will
continue its ongoing negotiations with ICE to develop a mutually
agreeable Memorandum of Understanding (MOU) to address human
trafficking and alien smuggling, as well as child pornography.
The most recent drafts of a proposed MOU, dated December 9,
2004, and May 23, 2005, were provided to the DOJ-OIG following

                            - 190 -
                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE
                                                    APPENDIX XI
the exit conference on September 13, 2005. The FBI is also a
full participant in the Human Smuggling and Trafficking Center
which is the principle mechanism for coordinating these
investigations.

Recommendation 7. We recommend the FBI pursue regular meetings
among law enforcement officials, similar to the meetings held in
Phoenix and Chicago, in more jurisdictions.

FBI Response: The FBI concurs with this recommendation and has
presented the regular meetings it attends with law enforcement
officials in Phoenix and Chicago as a "best practice" to SACs
and ASACs and encouraged them to pursue the initiation of
similar interagency meetings with their respective United States
Attorneys Offices and other local, state and federal
investigative and prosecutive counterparts. This will be
reinforced at the SACs Conference on September 24, 2005, and in
an upcoming communication by the Assistant Director of the
Criminal Investigative Division to all SACs.




                            - 191 -
                 REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                               APPENDIX XII
     APPENDIX XII: OFFICE OF THE INSPECTOR GENERAL
     ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
                   CLOSE THE REPORT

      In its response to our draft audit report, the FBI concurred with each
of our seven recommendations. This appendix provides our analyses of the
FBI’s responses to our recommendations, including the actions needed to
close each.

Recommendation Number:

1.    Resolved. In its response to our draft report, the FBI concurred with
      our recommendation to accurately evaluate its investigative needs and
      necessary resource levels within each area of the FBI’s operations and
      translate this information into realistic field agent allocations. The FBI
      stated that its establishment of the Strategic Planning and Execution
      Council (Council) in September 2004 has improved its ability to
      accurately evaluate investigative needs and necessary resource levels.
      In particular, the FBI noted that the Council developed a strategic plan
      for the FBI that forecasts the growing threats facing the FBI in the
      coming years that articulates the full funding requirements for the
      FBI’s total mission, including intelligence, counterterrorism,
      counterintelligence, criminal investigative, cyber, law enforcement
      services, and administrative support.

      In order to close this recommendation, please provide us with the
      FY 2007 – 2011 strategic plan. In addition, please provide us with the
      FY 2006 Funded Staffing Levels along with an explanation as to how
      they were developed in light of the new strategic plan.

2.    Resolved. The FBI noted that it concurs with our recommendation to
      accurately convey to Congress the number of agents that the FBI has
      dedicated to health care fraud matters using reimbursable funds.
      Further, the FBI stated in its response that it ensured the agent
      underutilization in health care fraud during FY 2004 was corrected in
      FY 2005, and noted that the FBI had accurately conveyed the number
      of field agents dedicated to health care fraud matters to Congress in
      FY 2005.

      This recommendation can be closed when we are provided evidence
      that the FBI has conveyed accurate information to Congress regarding
      the number of agents that the FBI has utilized in health care fraud
      matters during FY 2006. Specifically, please provide support for the
      FBI’s FY 2006 field agent allocation for health care fraud, as well as

                                - 192 -
                     REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE
                                                             APPENDIX XII
     the actual number of FBI agents utilized on health care fraud matters
     during FY 2006, along with evidence that this information was
     accurately reported to Congress.

3.   Resolved. In its response, the FBI concurred with our recommendation
     to ensure that its field offices were coordinating their anti-gang
     investigative efforts and executing the DOJ anti-gang initiative. The FBI
     stated that it will continue promoting its on-going nationwide
     interagency anti-gang coordination efforts and noted that guidance on
     the anti-gang initiative was provided to field management during
     regional coordination meetings conducted by the FBI during FY 2005.

     To close this recommendation, please provide us with support of the
     guidance provided to field management during the FBI’s regional
     coordination meetings. Additionally, please provide us with evidence
     of the continuing steps taken by FBI field offices in their interagency
     anti-gang coordination efforts, such as the existence of multi-agency
     working groups involved in gang-related investigations or field specific
     strategies on gang coordination efforts.

4.   Resolved. The FBI responded that it concurs with our
     recommendation to seek better coordination with the USMS on fugitive
     apprehension efforts. The FBI stated that it will seek to improve
     fugitive coordination efforts with the USMS at the national and field
     office levels. Specifically, the FBI noted that high-level meetings
     between the FBI and USMS have taken place during the past
     6 months. Further, the FBI’s response indicated that FBI field
     management has been instructed to seek better coordination with the
     USMS.

     To close this recommendation, please provide us with specific
     documentation on the FBI’s meetings with the USMS related to the
     coordination of fugitive apprehension efforts, including evidence of on-
     going discussions and the results of these efforts. Further, please
     provide us with documentation on the guidance provided to FBI field
     management related to coordinating efforts with the USMS. In
     addition, please provide evidence of any improvement in the
     coordination with the USMS related to fugitive matters.

5.   Resolved. In responding to our draft report, the FBI concurred with
     the OIG’s recommendation to pursue the formation of a multi-agency
     working group to develop and implement a national strategy to combat
     identity theft. The FBI stated that it would work in conjunction with
     the DOJ in forming this working group.


                              - 193 -
                   REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                               APPENDIX XII
     This recommendation can be closed by providing us with evidence on
     the FBI’s efforts in forming a multi-agency working group and
     implementing a national strategy to combat identity theft.

6.   Resolved. The FBI concurs with our recommendation to continue
     working with ICE to establish agreements for coordinating FBI and ICE
     investigations of alien smuggling and human trafficking, as well as
     child pornography. The FBI commented that it has drafted
     memoranda of understanding (MOU) on these crime areas and will
     work with ICE to finalize these MOUs. Further, the FBI noted that it
     participates in the Human Smuggling and Trafficking Center, which is
     the principle mechanism for coordinating such investigations.

     To close this recommendation, please provide us with documentation
     on the Human Smuggling and Trafficking Center, including the FBI’s
     participation in this endeavor. Further, please provide us with support
     of the FBI’s on-going efforts to develop mutual agreements with ICE
     on investigations of alien smuggling and human trafficking, as well as
     child pornography. Additionally, please provide us copies of the final
     MOUs between the FBI and ICE on these investigative matters.

7.   Resolved. In its response to our draft report, the FBI concurred with
     our recommendation on pursuing regular meetings among law
     enforcement officials at the field office level, similar to those currently
     held in Phoenix and Chicago. The FBI noted that its field management
     was made aware of these meetings and will continue to provide
     guidance on such meetings in upcoming communications.

     In order to close this recommendation, please provide us with the
     FBI’s instruction to field management on pursuing regular meetings
     among law enforcement officials. Moreover, please provide examples
     of FBI field offices’ efforts in conducting such meetings.




                               - 194 -
                    REDACTED FOR PUBLIC RELEASE
